<html>
<title> - RESEARCH AND BEST PRACTICES ON SUCCESSFUL SCHOOL TURNAROUND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





      RESEARCH AND BEST PRACTICES ON SUCCESSFUL SCHOOL TURNAROUND

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 19, 2010

                               __________

                           Serial No. 111-63

                               __________

      Printed for the use of the Committee on Education and Labor



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
56-353 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director









                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 19, 2010.....................................     1

Statement of Members:
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
    Thompson, Hon. Glenn, a Representative in Congress from the 
      State of Pennsylvania......................................     4
        Prepared statement of....................................     5
    Titus, Hon. Dina, a Representative in Congress from the State 
      of Nevada, questions submitted for the record..............    71

Statement of Witnesses:
    Bridges, Susan E., principal, A.G. Richardson Elementary 
      School, Culpeper, VA.......................................    36
        Prepared statement of....................................    39
        Responses to questions submitted.........................    71
    Butler, Dr. Thomas, superintendent of schools, Ridgway Area 
      School District, Ridgway, PA...............................    29
        Prepared statement of....................................    31
        Responses to questions submitted.........................    72
    Johnson, Jessica, chief program officer, Learning Point 
      Associates.................................................    21
        Prepared statement of....................................    24
        Responses to questions submitted.........................    72
    King, Daniel, superintendent, Pharr-San Juan-Alamo 
      Independent School District, TX............................    18
        Prepared statement of....................................    20
        Responses to questions submitted.........................    77
    Silver, David, principal, Think College Now..................    10
        Prepared statement of....................................    13
        Responses to questions submitted.........................    77
    Simmons, John, Strategic Learning Initiatives................     7
        Prepared statement of....................................     9
        Responses to questions submitted.........................    78

 
      RESEARCH AND BEST PRACTICES ON SUCCESSFUL SCHOOL TURNAROUND

                              ----------                              


                        Wednesday, May 19, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:02 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Woolsey, Hinojosa, McCarthy, Kucinich, Wu, Holt, Davis, 
Grijalva, Hirono, Altmire, Hare, Clarke, Polis, Tonko, Titus, 
Chu, Petri, Castle, Guthrie, Cassidy, and Thompson.
    Staff present: Andra Belknap, Press Assistant; Calla Brown, 
Staff Assistant, Education; Jody Calemine, General Counsel; 
Jamie Fasteau, Senior Education Policy Advisor; Denise Forte, 
Director of Education Policy; David Hartzler, Systems 
Administrator; Sadie Marshall, Chief Clerk; Charmaine Mercer, 
Senior Education Policy Advisor; Alex Nock, Deputy Staff 
Director; Lillian Pace, Policy Advisor, Subcommittee on Early 
Childhood, Elementary and Secondary Education; Helen Pajcic, 
Education Policy Associate; Alexandria Ruiz, Administrative 
Assistant to Director of Education Policy; Melissa Salmanowitz, 
Press Secretary; Michele Varnhagen, Labor Policy Director; Mark 
Zuckerman, Staff Director; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Kirk Boyle, 
Minority General Counsel; Angela Jones, Minority Executive 
Assistant; Alexa Marrero, Minority Communications Director; 
Susan Ross, Minority Director of Education and Human Services 
Policy; Mandy Schaumburg, Minority Education Policy Counsel; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairman Miller. A quorum being present, the committee will 
come to order for the purpose of conducting a hearing on the 
best practices in successful school turnarounds, and we will 
look at this critical issue of how turnarounds can be 
accomplished in our nation's failing schools. This hearing 
continues a series on the reauthorization of the Elementary and 
Secondary Education Act.
    We have held eight hearings this year looking at a range of 
issues, from charter schools to effective teachers and beyond, 
and through these hearings we have learned that to compete in 
the global marketplace our students must have a world-class 
education system with clear, high, rigorous standards that are 
internationally benchmarked.
    These hearings have also brought to light how vulnerable--
excuse me--how valuable data is in learning and teaching. We 
need to drive the use of data at all levels of education.
    We have also learned that successful schools support its 
teachers and ensure that all students have access to an 
effective teacher. But in order to do this we can't simply fix 
the law by making a few small tweaks; there is much more at 
stake.
    Our global competitiveness is relying on the actions we are 
taking today, and we don't get to do a redo tomorrow what we 
have done wrong today. It is time to take our education system 
into the future.
    One of our biggest problems in the education system is the 
dropout crisis and our lowest-performing schools. Turning 
around our lowest-performing schools is critical to our 
economy, to our communities, and to our students, and a recent 
report shows that cutting the dropout rate in half would yield 
$45 billion annually to new federal tax revenues or cost 
savings.
    There are 5,000 chronically low-performing schools in this 
country doing a disservice to hundreds of thousands of 
students. Two thousand high schools produce 70 percent of our 
nation's dropouts. These are schools where the dropout rates 
are staggeringly high and where students are not even close to 
proficient, and where teachers and leaders do not often know 
what else they can do.
    No Child Left Behind dictated interventions to help these 
schools, but what we have learned since the law was enacted is 
that they are too prescriptive and very often they are 
unrelated to the real needs of the schools. Different systems 
work in different schools. What most of these schools need is a 
fresh start.
    A fresh start doesn't mean shutting down--necessarily mean 
shutting down the school; shutting down a school should be the 
last option after all other improvements have failed and when 
it is clear that some schools are impervious to change.
    A fresh start doesn't mean firing all teachers and only 
hiring back an arbitrary number. You can find some of the best 
teachers in the worst-performing schools, but they are stuck in 
a system that isn't supporting them. And if you fire all 
teachers and you end up getting rid of the ones that are--you 
also get rid of the ones that are making a difference.
    A fresh start means a buy-in from school leaders, teachers, 
parents, and the community. It means a team effort to put 
together the tools that makes schools great.
    Thankfully, we are not working in the dark. There is 
extensive research and real-world examples that can show us the 
elements that lead to school success.
    First, turning around schools is about teaching and 
learning. It is about giving teachers the resources they need, 
like data systems to track student progress and a culture of 
continuous improvement.
    Second, it is about using time to the advantage of the 
school, which can mean an extended learning day which includes 
successful afterschool programs. It is about making schools 
have more time they need to catch up and use targeted academic 
supports as well as enrichment activities like arts, music, to 
keep students engaged, and time for teachers to collaboratively 
plan their teaching activities and their daily activities.
    Lastly, turning around schools is not about what a 
community can do to support--it is about what a community can 
do to support the school's efforts and what the school must do 
to meet the community needs. This means that providing wrap-
around services to meet individual needs of the students.
    When you put all the right systems in place you can turn 
around even the worst-performing schools. I look forward to 
hearing from our witnesses today about what works, what does 
help to turn around our lowest-performing schools and learn 
from their experience, their expertise.
    Thank you so much for being with us.
    And now I would like to recognize the senior Republican 
this morning, Mr. Thompson.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning.
    Today's hearing will look at the critical issue of how to 
turnaround our nation's failing schools.
    This hearing continues our series on the reauthorization of the 
Elementary and Secondary Education Act.
    We've held eight hearings this year looking at a range of issues 
from charter schools to effective teachers and beyond.
    And through these hearings we have learned that to compete in the 
global marketplace, our students must have a world-class education 
system with clear, high and rigorous standards that are internationally 
benchmarked.
    These hearings have also brought to light how valuable data is to 
learning and teaching. We need to drive the use of data at all levels 
of education.
    We have also learned that a successful school supports its teachers 
and ensures all students have access to an effective teacher. But in 
order to do this we can't simply fix the law by making a few small 
tweaks.
    There is too much at stake.
    Our global competitiveness is relying on the actions we're taking 
today. And we don't get to redo tomorrow what we've done wrong today.
    It is time to take our education system into the future.
    One of the biggest problems in our education system is the dropout 
crisis and our lowest performing schools. Turning around our lowest 
performing schools is critical for our economy, for our communities and 
for our students.
    A recent report shows that cutting the dropout rate in half would 
yield $45 billion annually in new federal tax revenues or cost savings. 
There are 5,000 chronically low-performing schools in this country 
doing a disservice to hundreds of thousands of students. Two thousand 
high schools produce 70 percent of our nation's dropouts.
    These are schools where the dropout rates are staggeringly high, 
where students are not even close to proficient and where teachers and 
leaders often do not know what else they can do. No Child Left Behind 
dictated interventions to help these schools but what we've learned 
since the law was enacted is they were too prescriptive and unrelated 
to the real needs of the schools.
    Different systems work for different schools. What most of these 
schools need is a fresh start. A fresh start doesn't have to mean 
shutting down a school. Shutting down a school should be the last 
option after other systems of improvement have failed and when it's 
clear that some schools are impervious to change. A fresh start doesn't 
mean firing all the teachers and only hiring back an arbitrary number. 
You can find some of the best teachers in the worst performing schools, 
but they are stuck in a system that isn't supporting them.
    And, if you fire all the teachers, you end up getting rid of the 
ones that are making a difference. A fresh start means buy in from 
school leaders, teachers, parents and the community. It means a team 
effort to put together the tools to make that school great. Thankfully, 
we're not working in the dark. There is extensive research and real 
world examples that can show us the elements that lead to school 
success. First, turning around schools is about teaching and learning. 
It's about giving teachers the resources they need like data systems to 
track student progress and a culture of continuous improvement.
    Second, it's about using time to the advantage of the school, which 
could mean an extending learning day which include successful after 
school programs. It's about making sure schools have the time they need 
to catch up and use targeted academic supports as well as enrichment 
activates, like arts and music that keep students engaged.
    Lastly, turning around schools is about what the community can do 
to support the school's efforts and what the school must do to meet 
community needs. This means providing wraparound services to meet the 
individual needs of students.
    When you put all the right systems in place, you can turn around 
even the worst performing school.
    I look forward to hearing from our witnesses today about what works 
and what does to help turn around our lowest performing schools.
                                 ______
                                 
    Mr. Thompson. Well, thank you, Mr. Chairman.
    And welcome to our witnesses.
    Mr. Kline regrets that he and several other members of the 
committee are unable to join us today because they are in the 
midst of debating the National Defense Authorization Act.
    Today's hearing addresses an issue critically important to 
the academic success of our nation's students. In 2001 Congress 
passed the No Child Left Behind Act, which requires states and 
each school district to ensure students are proficient in 
reading and math by the end of the 2013-2014 school year.
    For schools that are unable to make what their state has 
defined as ``adequate yearly progress'' towards achieving that 
goal, the law establishes a process to improve these struggling 
schools and protect the best interests of the students.
    Turning around low-performing schools is essential to 
ensuring lower-income students receive a high-quality 
education, but to do so effectively takes time. That is why 
parental choice and supplemental education services, such as 
free tutoring, were written into the law. These common sense 
measures offer students an immediate educational lifeline while 
the schools improve.
    Now, I believe we must do everything that we can to help 
ensure students advance academically even when their schools 
take the tough but necessary steps towards improvement. Despite 
the best efforts of Congress and this committee, it is clear 
too many states are still struggling to improve the standing of 
their lowest-performing schools.
    I look forward to discussing in more detail the challenges 
schools continue to face, including in some cases a lack of 
will on the part of administrators to take the dramatic action 
that may be necessary to improve the schools.
    I also want to thank Dr. Thomas Butler, superintendent of 
the Ridgway Area School District, located in my congressional 
district, for being here today to share his expertise on 
strategies that rural school districts put in place to turn 
around their schools.
    As policymakers at the federal level, we must remember each 
school is different and there is no one-size-fits-all solution. 
The Obama administration has introduced and even promoted 
several changes to the school improvement system that requires 
school districts to implement one of only four school 
turnaround models. There are a number of concerns shared by 
members in both political parties with the administration's 
approach, which represents a more intrusive federal role in 
education policy that is better left to parents and state and 
local leaders.
    Of equal concern, these changes to the existing school 
improvement grant program have been imposed on the state and 
school leaders outside of the reauthorization process and 
without proper congressional oversight.
    I am also concerned the administration's blueprint 
eliminates options for parents of students trapped in 
chronically underperforming schools. School turnaround is 
important, but we must ensure that parents and students are at 
the center of federal efforts to reform education.
    We will hear from our witnesses today about their own 
personal experiences trying to ensure students in 
underperforming schools get the top-notch education they 
deserve. Their experience will no doubt inform our work as we 
look to reauthorize the Elementary and Secondary Education Act.
    Mr. Chairman, thank you for holding this hearing, and I 
welcome the witnesses and look forward to their testimony.
    [The statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you Mr. Chairman and welcome to our witnesses. Mr. Kline 
regrets that he--and several other members of the committee--are unable 
to join us today because they are in the midst of debating the National 
Defense Authorization Act.
    Today's hearing addresses an issue critically important to the 
academic success of our nation's students. In 2001, Congress passed the 
No Child Left Behind Act, which requires states and each school 
district to ensure students are proficient in reading and math by the 
end of the 2013-2014 school year. For schools that are unable to make 
what their state has defined as ``adequate yearly progress'' toward 
achieving that goal, the law establishes a process to improve these 
struggling schools and protect the best interests of the students.
    Turning around low-performing schools is essential to ensuring low-
income students receive a high-quality education, but to do so 
effectively takes time. That is why parental choice and Supplemental 
Educational Services, such as free tutoring, were written into the law. 
These commonsense measures offer students an immediate educational 
lifeline while their schools improve. I believe we must do everything 
we can to help ensure students advance academically even when their 
schools take the tough but necessary steps toward improvement.
    Despite the best efforts of Congress and this committee, it's clear 
too many states are still struggling to improve the standing of their 
lowest performing schools. I look forward to discussing in more detail 
the challenges schools continue to face, including, in some cases, a 
lack of will on the part of administrators to take the dramatic action 
that may be necessary to improve their schools. I also want to thank 
Dr. Thomas Butler, Superintendent of the Ridgway Area School District 
located in my Congressional District, for being here today to share his 
expertise on the strategies that rural school districts put in place to 
turn around their schools.
    As policymakers at the federal level, we must remember each school 
is different and there is no one-size-fits-all solution. The Obama 
administration has introduced--and even promoted--several changes to 
the school improvement system that require school districts to 
implement one of only four school turnaround models.
    There are a number of concerns, shared by members in both political 
parties, with the administration's approach, which represents a more 
intrusive federal role in education policy that is better left to 
parents and state and local leaders. Of equal concern, these changes to 
the existing School Improvement Grant program have been imposed on 
state and school leaders outside of the reauthorization process and 
without proper congressional oversight.
    I am also concerned the administration's blueprint eliminates 
options for parents of students trapped in chronically underperforming 
schools. School turnaround is important, but we must ensure parents and 
students are at the center of federal efforts to reform education.
    We will hear from our witnesses today about their own personal 
experiences trying to ensure students in under-performing schools get 
the top-notch education they deserve. Their experiences will no doubt 
inform our work as we look to reauthorize the Elementary and Secondary 
Education Act.
    Mr. Chairman, thank you for holding this hearing. I welcome the 
witnesses and look forward to their testimony.
                                 ______
                                 
    Chairman Miller. Thank you very much. And thank you for 
inviting Mr. Butler to participate on our panel.
    All members will have 14 days in which to submit an opening 
statement on this hearing.
    I would like now to introduce our panel of witnesses. I 
will begin with Mr. John Simmons, who is the president of 
Strategic Learning Initiatives, a nonprofit serving public 
schools and consulting on student learning strategies. Mr. 
Simmons has over 35 years of experience within the field of 
education in the United States and abroad.
    He is also a prolific publisher, having written and edited 
six books and more than 75 articles on education, and 
management, and economic development.
    Mr. David Silver is the principal of Think College Now 
Elementary, a position he has held since 2003. His school has 
focused on closing the achievement gap and moving closer to 
achieving its vision of equity through free access to 
afterschool programs, stronger family and community 
involvement, and aggressive recruitment and professional 
development of teachers and staff. In 2008 Think College Now 
was honored as California Distinguished School Award and the 
Title I Achievement Award.
    Dr. Daniel King is the superintendent of the Pharr-San 
Juan-Alamo Independent School District in Texas. At the school 
district Dr. King helped establish innovative new programs like 
College and Career Technology Academy and the T-STEM Early 
College High School.
    As a result, the school district reduced its dropout rate 
by 75 percent in 2 years. Through an intensive intervention 
initiative it saw the number of graduates increase by 60 
percent. He has over 33 years of working within the education 
field, including over 20 years as an administrator.
    Ms. Jessica Johnson is the chief program officer for the 
district and school improvement services at Learning Point 
Associates, which provides evaluation, policy, professional 
services, and research to help schools boost student learning 
and improve teaching. Ms. Johnson oversees the work in 
curriculum audits, improvements planning, curriculum--you are 
doing a lot down there--curriculum alignment and development, 
literacy, and data use.
    Voice. We should have just had one witness. [Laughter.]
    Chairman Miller. Thank you for being here.
    And she has 10 years of project management experience.
    And Mr. Thompson is going to introduce our next witness.
    Mr. Thompson. Thank you, Mr. Chairman.
    It really is a privilege to introduce Dr. Thomas Butler, 
superintendent of Ridgway Area School District, located in Elk 
County, Pennsylvania. Dr. Butler holds a Ph.D. in educational 
leadership from Penn State University, where his dissertation 
focused on how globalization influences collaboration between 
rural schools and communities.
    Dr. Butler's dissertation received an award from the 
American Education Research Association rural special interest 
group in 2010. Dr. Butler is currently facilitator for the 
leadership and teaching course, which is a collaboration 
between the Pennsylvania Department of Education and the 
Pennsylvania Association of School Administrators.
    Recently, Ridgway Area School District received an 
honorable mention by the Pennsylvania Association of Rural and 
Small Schools and the Center for Rural Schools and Communities 
for the Building Community through Rural Education Award. This 
accolade recognizes a school--that schools, as key institutions 
in rural areas, have crucially important roles to play not only 
in community economic development, but also in strengthening 
the social bonds that holds rural communities together.
    Dr. Butler is also a member of the Forum for Western 
Pennsylvania Superintendents. He lives in Ridgway, Pennsylvania 
with his wife and three children. And I am pleased that Dr. 
Butler and his family were able to make the trip from Ridgway 
to Washington and welcome them to the committee. And I look 
forward to his testimony today.
    Chairman Miller. Thank you.
    Susan Bridges is the principal of A.G. Richardson 
Elementary School in Culpeper, Virginia. In 2004, Bridges 
successfully led--Ms. Bridges, I should say; excuse me--
successfully led her staff through the accrediting process of 
the Southern Association of Colleges and Schools in which the 
strengths and the weaknesses of the school were analyzed and a 
school improvement plan established. She is the 2006 National 
Distinguished Principal, as awarded by the National Association 
of Elementary School Principals and the U.S. Department of 
Education.
    Welcome to our committee.
    Welcome, to all of you. When you begin your testimony--we 
are going to start with Mr. Simmons--a green light is going to 
go on, and eventually, after 4 or 5 minutes, a yellow light 
will go on, at which time you ought to think about summarizing 
and finishing up your--bring your testimony to a close, but we 
want you to finish in a coherent fashion and make sure that you 
have made the points that you want to make when the red light 
is on. And then we will go to questioning by the members of the 
committee when you have all finished testifying.
    Welcome to the committee.

             STATEMENT OF JOHN SIMMONS, PRESIDENT,
                 STRATEGIC LEARNING INITIATIVES

    Mr. Simmons. Mr. Chairman, Mr. Thompson, and members of the 
committee, my name is John Simmons. I am the president of 
Strategic Learning Initiatives, a Chicago-based nonprofit 
organization that has enjoyed remarkable success in turning 
around low-income public elementary schools in Chicago.
    We have created a new model for turning around schools. In 
3 years, eight schools in which our model was applied turned 
around their reading test scores and school culture; the 
taxpayers saved $24 million compared to other turnaround 
models.
    The leadership teams of the schools accomplished this 
without removing a principal or teacher at the beginning, 
without changing the curriculum or the textbooks, and without 
converting to a charter or a contract school. The reason for 
our success is simple: We apply what research has known will 
work in schools. We avoid untested ideas as surely as any one 
of you would avoid a medicine that had not been given safe--
proven safe and effective.
    Our message today: Apply the basic and the best systemic 
research. Monitor and celebrate its application. Breakthrough 
results will happen.
    I would like to focus on two themes. First, that 
reauthorization of ESEA should allow for a strategy like ours, 
that emphasizes the importance of comprehensive school reform 
strategies that are grounded in rigorous research and shown to 
work using existing staff. ESEA should add a fifth intervention 
model to the four in the Department of Education's blueprint. 
This would accelerate the rate of change among the lowest-
performing schools and save money.
    The second theme is that there must be federal investment 
to demonstrate how to scale up successful schools. We cannot 
continue to create schools that remain only islands of 
excellence in a sea of mediocrity.
    Again, the research on high-performing organizations shows 
us how to rapidly diffuse innovation. Specific actions include 
decentralization of decision-making and expanding the work done 
in teams.
    By applying the systemic research done over the past 20 
years in Chicago, we have demonstrated that failing schools can 
jumpstart their turnaround and transformation in 2 years.
    Let me tell you about a specific project we carried out in 
eight public elementary schools in very low-income and minority 
neighborhoods in Chicago. When we began, these schools had 
shown virtually no improvement for the previous 10 years.
    Here are the results: Over 3 years, the eight improved four 
times faster than their annual progress over the 10 years 
before starting what we call the focused instruction process. 
In the first year three schools turned around, and all eight 
turned around by the end of the third year. Two of the eight 
were the most improved public schools in Chicago in 2007 and 
2008 in a city where there are 473 elementary schools.
    We define turnaround as improving at least three times 
faster than the school's rate of improvement before they 
started the focused instruction process and having a major 
change is school culture--teachers, parents, and principal 
working together in an atmosphere of trust. Two charts on the 
next two pages in the written testimony provide the charts for 
the results.
    How were these remarkable results achieved? Strategic 
Learning took the results of the research on high-performance 
organizations in the private sector and combined it with the 
research done in education over the past 20 years. Together, 
these research results clearly show what a school needs in 
order for it to succeed--not just public schools, any school.
    From the research, the school leadership teams then focus 
on providing what we call the five essential supports. They 
include developing shared leadership; offering high-quality 
professional development for the teachers and the 
administrators; ensuring instruction is rigorous and focused; 
engaging parents in learning the Illinois standards so that 
they can better help their children with their homework; 
creating a culture of trust and collaboration among the 
teachers, administrators, parents, and students.
    Systematically ensuring that these five essential supports 
were in place and an effective partnership with the Chicago 
public school leadership led to the rapidly improving gains in 
student learning. An independent analysis of the data by the 
American Institutes of Research reports that this model works, 
should be supported by the federal government and scaled up.
    Applying the research unlocked the success that had eluded 
these schools for so many years. The heart of my message is 
this: For too many years the debate about school reform has 
focused on the type of school--charter school versus 
traditional public school.
    I believe, and Strategic Learning's experience proves, that 
there is a better and less costly way. The research shows that 
providing these five essential supports will open the pathway 
to successful reform on a scale that matters.
    Mr. Chairman, thank you.
    [The statement of Mr. Simmons follows:]

   Prepared Statement of John Simmons, Strategic Learning Initiatives

    Mr. Chairman, Mr. Kline, and members of the Committee: My name is 
John Simmons. I am President of Strategic Learning Initiatives (SLI); a 
Chicago based nonprofit organization that has enjoyed remarkable 
success in turning around low-performing public elementary schools in 
Chicago.
    We have created a new model for turning around schools. In three 
years, eight schools in which our model was applied turned around their 
reading test scores and school culture. The taxpayers saved $24 million 
compared to other turnaround models.
    The leadership teams of the schools accomplished this without 
removing a principal, or a teacher at the beginning, without changing 
the curriculum or the textbooks, and without converting to a charter or 
contract school.
    The reason for our success is simple. We apply what research has 
shown will work in schools. We avoid untested ideas as surely as any 
one of you would avoid a medicine that had not been proven safe and 
effective.
    Our message today? Apply the best systemic research. Monitor and 
celebrate its application. Breakthrough results will happen.
    I would like to focus on two themes. First, that reauthorization of 
ESEA should allow for a strategy like ours that emphasizes the 
importance of comprehensive school reform strategies that are grounded 
in rigorous research and shown to work, using existing staff. ESEA 
should add a fifth ``intervention model'' to the four in the Department 
of Education's ``Blueprint'' (p 12). This would accelerate the rate of 
change among the lowest performing schools and save money.
    The second theme is that there must be federal investment to 
demonstrate how to scale up successful models. We cannot continue to 
create schools that remain only islands of excellence in a sea of 
mediocrity. Again, the research on high performing organizations shows 
us how to rapidly diffuse innovation (Rogers, 1995). Specific actions 
include the decentralization of decision-making and expanding the work 
done in teams.
    By applying the systemic research done over the past 20 years in 
Chicago, SLI has demonstrated that failing schools can jump start their 
turnaround and transformation in two years.
    Let me tell you about a specific project we carried out in eight 
public elementary schools in very low income and minority neighborhoods 
in Chicago. When we began, these schools had shown virtually no 
improvement for the previous ten years. Here are the results. Over 
three years:
    <bullet> The eight improved four times faster than their annual 
progress over the ten years before starting what we call the Focused 
Instruction Process (FIP).
    <bullet> In the first year three schools turned around and all 
eight turned around by the end of the third year,
    <bullet> Two of the eight were the most improved public schools in 
Chicago in 2007 and another was most improved in 2008. This in a city 
with 473 public elementary schools.
    We define turnaround as improving at least three times faster than 
their rate of improvement before the Focused Instruction Process and 
having a major change in school culture--teachers, parents, and 
principal working together in an atmosphere of trust.
    The two charts on the next two pages provide the turnaround 
results.
    How were these remarkable results achieved? Strategic Learning took 
the results of research on high performance organizations in the 
private sector and combined it with education research done over the 
past 20 years in Chicago. Together, those research results clearly show 
what a school needs in order for it to succeed--not just public 
schools, any school.
    From the research, the School Leadership teams then focused on 
providing what we call the Five Essential Supports (Sebring, 2006). 
They include:
    <bullet> developing shared leadership,
    <bullet> offering high quality professional development for the 
teachers and administrators,
    <bullet> ensuring instruction is rigorous and focused,
    <bullet> engaging parents in learning the Illinois Standards so 
they can better help their children with their homework, and
    <bullet> creating a cullture of trust and collaboration among the 
teachers, administrators, parents and students.
    Systematically ensuring that these Five Essential Supports were in 
place and an effective partnership with the CPS leadership led to the 
rapidly improving gains in student learning.
    An independent analysis of our data by the American Institutes of 
Research reports that this model works, should be supported by the 
federal government, and scaled up.
    Applying the research unlocked the success that had eluded these 
schools for so many years.
    The heart of my message is this. For too many years the debate 
about school reform has focused on the type of school--charter versus 
traditional public. I believe, and SLI's experience proves, that there 
is a better, and less costly, way.
    The research shows that providing these Five Essential Supports 
will open the pathway to successful reform on a scale that matters.
    Mr. Chairman, thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Silver?

             STATEMENT OF DAVID SILVER, PRINCIPAL,
                       THINK COLLEGE NOW

    Mr. Silver. My name is David Silver, principal and founder 
of Think College Now, a public school in a low-income area of 
Oakland, California.
    Why Think College Now? It was founded to reverse a harsh 
reality: Less than one out of 20 kids in Oakland, many of whom 
live in poverty, attend a University of California school. When 
a group of families, educators, and I heard this we knew we had 
to take action.
    Through this small, autonomous school's movement we came 
together to form Think College Now, TCN, a college prep public 
elementary school in a low-income within the Oakland Unified 
School District. Ninety-five percent of our students receive 
free and reduced lunch; two-thirds are English language 
learners; and more than 90 percent are Latino, African-
American, or multiracial.
    Our mission is clear: Close the achievement gap and ensure 
all our students can go to college and pursue their dreams.
    If you refer to slide two, the slide on the screen, what 
have we achieved? When we opened our doors 8 percent of our 
students were achieving at or above grade level in English 
language arts, and 23 percent in math, as measured by the 
California Standards Test.
    Five years later, 66 percent of our students are at or 
above grade level in reading and 81 percent in math, a gain of 
over 800 percent in reading and 300 percent in math. What is 
more, these gains are across every subgroup--African-American, 
Latino, English language learner, and students receiving free 
and reduced lunch, as documented in your written testimony. We 
have also gained 263 points to surpass both district and state 
averages on the API to have an API of 848.
    Because of these gains, as the chairman mentioned, Think 
College Now was named one of only 50 schools in California to 
receive both the California Distinguished School and the Title 
I Academic Achievement Award in 2008.
    How did we do it? If you refer to page three and four of 
your testimony, our focus is equity in action, a vision of 
student achievement and college opportunity for all students. 
We have five key levers.
    Number one: Unite the entire community on our big goal--
college. Elementary students in high-income neighborhoods know 
they are expected to go to college. Our students and families 
do, too.
    If you ask any student, family, teacher, or staff at Think 
College Now, ``Why are you here?'' the answer is the same: We 
are going to college. We begin thinking college in 
kindergarten.
    Number two: High expectations. We expect more so we can get 
different results. There is a level of trust where teachers are 
expected to get their students to achieve and administration is 
expected to support them to get there.
    When our students were not achieving in year two we went 
and observed high-achieving schools in similar demographics to 
observe and learn best practices. We are creating a culture 
where failure is not an option and achievement is the norm.
    Number three: Also in year three, we implemented standards, 
assessment, and data systems to drive instruction and monitor 
progress. Grade-level teams create a standards-based pacing 
calendar and lessons to deliver high-quality instruction. 
Through our 6-week cycles, teachers assess student mastery 
using assessments and data to group students for re-teaching 
and intervention.
    Number four: Family and community partnership, the heart of 
Think College Now. We know we cannot reach our goals alone. We 
partner with organizations and families for support.
    More than half our kindergarten families on a daily basis 
are in the classroom reading with their kids, and overall, all 
of our students attend parent-teacher conferences. At TCN, we 
are not just a school, we are a community.
    And finally, perhaps the most important, the backbone of 
our success, our outstanding teachers and staff. We work 
relentlessly to recruit, select, support, and retain our 
teachers.
    Honestly, they are amazing. I would put our teachers up 
against any, not only in California but across the country.
    And my recommendations: What can we do? Page five and six 
of your testimony.
    In the fight for educational equity we all must do more. To 
replicate and expand not only our success but the countless 
other schools that are doing amazing things to close 
achievement gaps we must create conditions to support student 
achievement for all students.
    I have five recommendations. Number one, provide schools 
autonomy for hiring, budget, curriculum, and assessment. First 
and foremost, ensure sites can hire their own teachers and 
staff. Selecting a staff invests everyone in the vision; it is 
the most important lever to increase student achievement at a 
school.
    Number two, maximize budget flexibility. Through results-
based budgeting in Oakland Unified we can put resources where 
they are needed--into academic intervention, coaching, and time 
for collaboration. Sites need to be held accountable for 
results, but not without full control of their budgets and how 
to spend their resources.
    Number three, connect everything to academic growth. At TCN 
we have created a culture based on student growth and outcomes. 
There is public accountability of data at the school, 
classroom, and student level. I support any policy that begins 
to differentiate schools, principals, and teachers not just on 
seniority, but on their ability to increase student learning.
    Number four, ensure all sites have standards assessments. 
Curricular and assessment autonomy helped us to focus on 
standards mastery instead of fidelity to a commercial 
curriculum. We piloted standards-based assessments three to 
four times a year and they are now adopted by our entire 
district.
    And finally, perhaps the most important, increase federal 
dollars to all Title I schools. It is not fair to demand annual 
achievement growth while decreasing resources.
    While more affluent parents can fundraise for their schools 
to alleviate budget cuts, low-income families cannot. Sites 
that have high poverty populations need more financial 
resources to meet their needs, period.
    In conclusion, we must remember this is not about an I, it 
is about a we. We will close this meeting--this session that I 
will say right now--like we close every meeting at Think 
College Now, with an appreciation and a reality: On behalf of 
all the students, families, and educators working relentlessly 
in Title I schools, thank you for listening. Thank you for 
considering recommendations to create conditions for all 
students, rich or poor, to truly have a shot at the American 
dream.
    And finally, as we say at TCN, the reality is this is the 
civil rights issue of our time. I, as a principal, cannot 
address it alone. Parents, teachers, and students cannot do it 
alone. You, as congressmen, cannot do it alone, as well. But 
together, we can make a difference. Our students deserve 
nothing less.
    Together, yes we can. Juntos, si se puede.
    Thank you.
    [The statement of Mr. Silver follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you.
    Dr. King?

          STATEMENT OF DANIEL P. KING, SUPERINTENDENT,
              PHARR-SAN JUAN-ALAMO SCHOOL DISTRICT

    Mr. King. Yes. My name is Daniel King. I am superintendent 
of the Pharr-San Juan-Alamo Independent School District located 
on the Texas-Mexico border in the Rio Grande Valley of Texas.
    I have been fortunate to be involved in two highly 
successful school district turnarounds. The first case was the 
Hidalgo Independent School District, a district with about 
3,000 students. There, I worked as part of a team--
superintendent in my final 8 years in that district--that 
transformed a historically low-performing school district once 
ranked among the worst, rated in the bottom 5 percent in Texas, 
into a high-performing school district that has developed a 
reputation for excellence at the state and national levels.
    The most unique component of this transformation was the 
conversion of the district's high school into an Early College 
High School for all students, not for some, and the entire 
school district into an Early College School District--a 
systemic transformation. Hidalgo High School has consistently 
ranked among the best high schools in Texas over the last 
decade; it was ranked number 11 in the nation by U.S. New & 
World Reports in 2007.
    Hidalgo ISD is considered one of the best in Texas. This 
district is comprised almost entirely of Hispanic students from 
low-income households where Spanish is the primary language. 
The transformation from bottom 5 percent to a decade of 
receiving accolades for excellence has been empowering for the 
entire community.
    The second case is very informative due to the pace and 
scale of change. The Pharr-San Juan-Alamo Independent School 
District, or PSJA, as it is known, is a 31,000-student school 
district with similar demographics to Hidalgo, down on the 
border in the southern tip of Texas, and has made dramatic 
strides in less than 3 years.
    In just 2 years the PSJA team has taken a district where 
every high school was labeled a dropout factory and every high 
school was failing to meet AYP and reduced the real number and 
rate of dropouts by 75 percent in 2 years while increasing the 
real number of graduates by more than 60 percent, from less 
than 1,000 graduates in 2006-2007 to almost 1,600 in 2008-2009, 
and a projected 1,800 graduates this school year.
    The dropout rate has plummeted from almost double the state 
average to less than half the state average. For the first time 
ever all campuses in the district have met AYP.
    Innovations, including a dual credit for high school and 
college credit dropout recovery high school--this high school 
College Career and Technology Academy has graduated 517 
dropouts and non-graduates from ages 18 to 26 years old in only 
2.5 years with most earning some college hours before high 
school graduation and many continuing on in community college 
or 4-year college after graduation.
    In addition, PSJ has used a grant from the Texas High 
School Project and the Gates Foundation to open a T-STEM Early 
College High School where students can earn up to 60 college 
hours, or an associate's degree, while still in high school. 
This unique high school was designed to be a laboratory in PSJA 
to develop and incubate the concept while preparing for 
systemic scale-up--not an island of excellence, but intended to 
transform the entire system to impact all PSJA high schools and 
the almost 8,000 high school students and spark district 
transformation.
    Just last week the governor of Texas, Rick Perry, and Texas 
Commissioner of Education Robert Scott came to PSJA to declare 
the district a state model for district turnarounds and award 
PSJA a unique $2 million grand to scale up our bold initiative 
All Students College Ready, College Connected.
    Through these two experiences I have learned the following 
about school turnaround: High expectations are imperative. It 
helps to set bold goals. Quality leadership at both the 
district and campus level is critical.
    Systemic transformation is the most effective way to impact 
low-performing schools, working with--at all levels--
elementary, middle, and high school, and connecting students on 
to college, moving away from islands of excellence to systemic 
excellence and intentionally scaling up best practices.
    A high school diploma is not the goal in either Hidalgo or 
PSJA; connecting every student to a quality future is. I have 
found success through connecting students to college while they 
are still in high school.
    Twenty-first century high schools should be flexibly and 
seamlessly connected to high education with students moving to 
college level work in each and any course of study as soon as 
they are ready. This includes Career and Technology courses.
    Rigor, relevance, and relationships--and relationships I 
call caring about students--are all important. College/
Connected Career Pathways add rigor and relevance, allowing and 
motivating students to move to higher levels of learning.
    Career and Technology--what we used to call Vocational or 
the Carl Perkins-funded--courses are important for creating 
viable career pathways for all students. These courses should 
be industry standard and college-connected. I would like them 
to be dual credit--for college credit and leading towards 
certification, leading towards high-wage, high-skill potential 
jobs, leading towards certification, associate degrees and 
bachelor degrees.
    Partnerships are important and can accelerate 
transformation. Partnering with colleges, community colleges, 
workforce agencies, private foundations, philanthropists, 
economic development agencies, the community at large, social 
service agencies, and so forth, helps to accelerate 
transformation and helps with accountability.
    One size does not fit all. Each community is unique. Each 
community has unique strengths. We can identify those strengths 
and build on those strengths.
    Thank you.
    [The statement of Mr. King follows:]

           Prepared Statement of Daniel King, Superintendent,
        Pharr-San Juan-Alamo Independent School District, Texas

    I have been fortunate to be involved in two highly successful 
school district turnarounds.
    The first case was the Hidalgo Independent School District, with 
3,000 (plus) students. There I worked as part of a team (Superintendent 
my final 8 years in that district) that transformed a historically low-
performing school district, once ranked among the worst (bottom 5%) in 
Texas into a high performing school district that has developed a 
reputation for excellence at the state and national levels. The most 
unique component of this transformation was the conversion of the 
district's high school, into an Early College High School for all 
students, and the entire school district into an Early College School 
District. Hidalgo High School has consistently ranked among the best 
high schools in Texas over the last decade and was ranked #11 in the 
nation by US News & World Report in 2007. Hidalgo ISD is widely 
considered one of the best in Texas. This district is comprised almost 
entirely of Hispanic students from low-income households where Spanish 
is the primary language. The transformation from ``bottom 5%'' to a 
decade of receiving accolades for excellence has been empowering for 
the entire community.
    The second case is very informative due to the pace and scale of 
change. Pharr-San Juan-Alamo, or PSJA, a 31,000 student school 
district, with similar demographics to Hidalgo, has made dramatic 
strides in less than three years. In only two years, the PSJA team has 
taken a district where every high school was labeled a ``drop-out 
factory'' (and failing to meet AYP) reduced the real number and the 
rate of dropouts by 75%, while increasing the real number of graduates 
by more than 60%. The drop out rate has plummeted from almost double 
the state average to less than half the state average. For the first 
time ever, all campuses and the district have met AYP. Innovations 
including a dual credit (high school and college) dropout recovery high 
school that has graduated 517 dropouts and non-graduates (18-26 years 
old) in 2.5 years, with most earning some college hours before 
graduation and many continuing on in community college after 
graduation. In addition, PSJA has used a grant from the Texas High 
School Project and the Gates Foundation to open a T-STEM Early College 
High School where students can earn up to 60 college hours (or an 
Associates Degree) while still in high school. This unique high school 
was designed to be a laboratory to develop and incubate the concept, 
while preparing to scale it up to impact all PSJA high schools and 
spark district transformation. Just last week, Texas Governor Rick 
Perry and Texas Commissioner of Education Robert Scott came to PSJA to 
declare the district a state model for district turnarounds and award 
PSJA a unique $2,000,000 grant to scale up our bold initiative All 
Students College Ready, College Connected.
    Through these two experiences, I have learned the following about 
school turn-around:
    <bullet> High Expectations are imperative. It helps to set bold, 
goals.
    <bullet> Quality leadership at both the district and campus levels 
is critical.
    <bullet> Systemic transformation is the most effective way to 
impact low performing schools.
    <bullet> A high school diploma is not the end-goal. Connecting 
every student to a quality future is. I have found success through 
connecting students to college while they are still in high school. 
21st century high schools should be flexibly and seamlessly connected 
to higher education, with students moving to college level work in each 
course of study as soon as they are ready. This includes CATE courses.
    <bullet> Rigor, Relevance, and Relationships (caring about 
students) are all important. College/Connected Career Pathways add 
rigor and relevance, allowing and motivating students to move to higher 
levels of learning.
    <bullet> Career and Technology (Vocational, Carl Perkins) courses 
are important for creating viable career pathways for all students. 
These courses should be industry standard and college connected (dual 
credit) leading towards certification and/or Associate and Bachelor 
Degrees.
    <bullet> Partnerships can accelerate transformation. (ie, Colleges, 
Community Colleges, Workforce agencies, Foundations, Philanthropists, 
Economic Development agencies).
    AYP Challenges:
    <bullet> The 100% standard.
    <bullet> Many limited English students need more than one year to 
perform successfully at grade level in English.
    <bullet> More support is needed to accelerate success with special 
education students.
    <bullet> Only using a four-year graduation rate fails to give 
credit for those students who go on to graduate in subsequent years, 
and may have a negative impact on the number of eventual graduates. A 
sliding scale of graduation rates to include four- year and five-year 
rates would be better.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Johnson?

 STATEMENT OF JESSICA JOHNSON, CHIEF PROGRAM OFFICER, DISTRICT 
   AND SCHOOL IMPROVEMENT SERVICES, LEARNING POINT ASSOCIATES

    Ms. Johnson. Good morning. Chairman Miller, Congressman 
Thompson, members of the committee. Thank you for having me 
here today to speak with you about the research and best 
practices in school turnaround.
    My name is Jessica Johnson. I am the chief program officer 
for district and school improvement at Learning Point 
Associates. We are a nonprofit education research and 
consulting organization with over 25 years of experience 
working with states, districts, and schools.
    I come to you today with a little bit different perspective 
than some of my colleagues, and that is primarily because we 
work with both states and districts to turn around schools and 
systems.
    In the past 5 years my team has worked with over 40 
districts across several states in implementing corrective 
action plans and restructuring under No Child Left Behind, and 
from that, I would like to share with you my perspective in 
terms of what we have learned from the research as well as what 
we have learned from practice.
    I think it is fair to say across the board that the 
research on turnaround is sparse, and in my written testimony I 
addressed for you some of the specifics regarding each of the 
models. But if you look across the board, my colleagues here 
have already mentioned, there are absolutely key themes that 
matter, right?
    Strong leadership--absolutely critical. We all know you 
have to have it. A focus on instruction in the classroom, 
particularly literacy instruction. Whether you are at the 
elementary or the high school level, it is absolutely critical.
    Solid learning environment for kids--a belief that all kids 
can learn and high expectations for all kids is critical for 
school turnaround and transformation. A supportive culture that 
engages families and that supports the nonacademic needs of 
students. This is critical, and if you look at the research you 
will find that these nonacademic factors in a student's life 
matter as much as the teacher and the leader in that school in 
terms of their overall performance.
    And lastly, something that my colleagues also touched on, 
is the need for staff commitment to change, and that is 
something that is really hard to get through policy.
    So a couple things to think about with regard to this 
research. One is, we don't know to what effect or to what 
extent each of these different factors matters in different 
circumstances. So we know a leader is really important, but we 
don't know when a leader matters more, or when an instructional 
model matters more, or how these factor together.
    The other thing is, these are all really hard to implement, 
right? It is one thing to say, ``We have got to have strong 
leaders that know how to use data,'' as you mentioned, Chairman 
Miller, ``that know how to manage budgets, that can operate 
flexibly with autonomy.'' It is another thing to say, ``We have 
enough of these strong leaders so that they can go out to rural 
Illinois and lead a high school turnaround in that setting.''
    So this implementation piece, which permeates throughout 
all of these sort of research and best practices, is really, 
really critical when we think about policy. And that gets to my 
next point, which is, the policies that we create have to have 
the flexibility to allow for schools to gain this commitment, 
to allow for creativity in meeting the needs where we need 
them, while still honoring the core elements of what we know 
works in the research.
    So, for example, several weeks ago my staff were reviewing 
the School Improvement Grant applications for one state, and 
many of these schools were implementing the transformation 
model, and many of them indicated they would implement and 
afterschool program, because as we know, extended learning is 
one of the requirements of the transformation model. However, 
what we didn't see in the application was the focus on a 
coherent extended learning program that tied to the traditional 
day, that tied to the overall objectives of a school 
turnaround.
    And it is unfortunate, but what we have seen is when 
schools and districts are focused on compliance, when they 
know, ``Hey, we have been sanctioned, and we have been 
sanctioned before, and we are being sanctioned again,'' the 
reaction is to come to compliance, right? Do what I need to do 
to fill out the plan to get somebody off my back.
    So how do we move from that to the real commitment to 
change that Mr. Silver talked about, right? He clearly said all 
of our kids and our community--everybody here is engaged and 
committed. How do you get that?
    I think it is about, in some degree, the flexibility, so 
focusing on the outcomes. While requiring an afterschool 
program is a good thing, we really need to require that they 
have coherence and alignment in their programs across the 
board, and that is something we can think about.
    Now, what that also means is with that flexibility we have 
got to offer support. So there has been a big focus, I think, 
on support in terms of implementation of turnaround and school 
improvement grants; there has been less of a focus in support 
up front in the needs assessment and planning process.
    Well, the reality is this is where the schools really need 
the help. As I said, many of these schools were asked to create 
restructuring plans under NCLB, and now, in some respects, we 
are asking them to do the same thing, only with a different 
name. So now create a plan for school turnaround, and if you 
get it approved then we will go ahead and bring in supports for 
you. Really, the supports need to be there earlier on to make 
sure that the right models are being put in place, that the 
needs are being assessed properly.
    And that leads to my last point, which is, the entire 
system matters in this process. If we really want to make 
school turnaround a national movement--and I think that is 
really what this is about; that is where the momentum is 
going--it has got to be about not just the school as an island.
    In small, urban districts, in rural districts, the district 
is the primary support for those schools. If a principal 
leaves, that district is the one that has got to come in and 
backfill and know what to do.
    States and regional support systems also provide support 
and tools for schools and districts, and we have got to be able 
to tool these folks up in the larger system. External service 
providers, early childhood providers, community organizations, 
youth organizations--we have to look at this alignment and 
coherence across the board in terms of the support that we put 
in place.
    And so lastly, I want to leave you with one thought, which 
is, I started off by saying the research on turnaround is 
sparse, and that is true. What we need to do is be very 
diligent about how we collect data and how we evaluate what is 
happening real-time in the system.
    We need networks of organizations working together to 
establish what national benchmarks look like, to share best 
practices, and we need a aligned data collection system so that 
we are looking at what is working real-time. We are not doing a 
5-year study where we don't know the results until 5 years from 
now, but we are really collecting data now and making choices 
about what works by using the data so that we can replicate 
quickly.
    I believe we have a moral obligation to serve our kids.
    Thank you.
    [The statement of Ms. Johnson follows:]

     Prepared Statement of Jessica Johnson, Chief Program Officer,
                       Learning Point Associates

    Good morning, Chairman Miller, Congressman Kline, and Members of 
the Committee.
    Thank you for inviting me here today to discuss the important work 
of turning around our nation's lowest performing schools. The school 
districts and states we work with would be pleased that your committee 
is engaging in a deliberative conversation about how we can build upon 
the existing turnaround efforts to make this initiative even more 
effective.
    My name is Jessica Johnson and I am the chief program officer for 
district and school improvement at Learning Point Associates, a 
nonprofit education research and consulting organization with 25 years 
experience researching and developing tools for educators that improve 
teaching and learning. We were on the front line of support for states, 
districts, and schools charged with implementing comprehensive school 
reform and the No Child Left Behind Act. Between 2004 and 2009, we 
operated The Center for Comprehensive School Reform and Improvement for 
the U.S. Department of Education, providing technical assistance and 
resources to improve schools and districts.
    Since 2005, we have worked with more than 40 districts that failed 
to meet adequate yearly progress under NCLB. As you know, the law 
prescribed actions that state education agencies had to take to improve 
failing schools and districts. The sanctions were punitive, with the 
state generally dictating the plan and providing little direct formal 
assistance to the districts. We saw these efforts yield mixed results.
    We have worked with Minnesota, Ohio, West Virginia, Michigan, 
Indiana, and other states to identify structures and supports needed 
for struggling schools. As I speak today, my staff are working with 
schools in Missouri and Illinois to complete grant applications for 
funding for school turnaround efforts. Learning Point Associates likely 
will serve as lead turnaround partner for some of these schools and 
possibly for others in various states across the United States.
    I will provide three main points for your consideration today:
    <bullet> The research literature on turnaround is not strong, but 
when combined with related research, it does suggest there are some 
elements of this work that seem to have positive impact. But the 
challenge still lies in implementation.
    <bullet> Models and supports for school turnaround in ESEA 
reauthorization need to balance knowledge of the core elements above 
with the flexibility to create meaning and commitment, remove barriers, 
and foster innovation.
    <bullet> The focus must extend beyond the school. The whole system 
matters.
    POINT 1. The research literature on turnaround is not strong, but 
when combined with related research, it does suggest there are some 
elements of this work that seem to have positive impact. But the 
challenge still lies in implementation.
    During the last decade, the issue of turning around schools 
surfaced as a natural extension of state and national efforts to 
identify schools that consistently underperform, as measured by state 
assessments. Early scholarship on turnaround is limited. Policymakers 
and researchers first established parameters around what it means to be 
a school in need of turnaround. Then they turned to the task of 
identifying the types of interventions needed to address the multiple 
challenges in persistently underperforming schools and districts. 
Currently, the ``turnaround'' arena is comprised of four possible 
options: turnaround, transformation, closure, and restart. These 
interventions have some components in common, while also incorporating 
some unique requirements. For example, a turnaround model requires the 
removal of an underperforming principle and at least 50 percent of the 
staff; closure requires that the entire school is closed and the 
students are transferred to schools with better academic success.
    The amount of research literature specifically on the four options 
within turnaround is small. The majority of it addresses reforms that 
most closely match the transformation option. It is limited mainly to 
theoretical work (e.g., Murphy & Meyers, 2007), case study (e.g., 
Borman et al., 2000; Duke et al., 2005), and literature reviews of 
related research (Brady, 2003). The research of high-performing, high-
poverty schools (such as Goldstein, Keleman, & Kolski, 1998; Picucci, 
Brownson, Kahlert, & Sobel, 2002a; 2002b) is frequently included in 
discussions of turnaround. Currently there does appear to be 
potentially fruitful turnaround research being conducted, but even the 
IES Practice Guide Turning Around Chronically-Low Performing Schools 
(Herman et al., 2008) states that all recommendations made within it 
are based on ``low levels of evidence, as defined by the Institute of 
Education Sciences Practice Guide standards'' (p. 1).
    The research most closely tied to the turnaround and restart 
options is that of school reconstitution. Under school reconstitution, 
the administrator and often some or all of the staff are replaced. Some 
of the highest quality studies of reconstitution--including Goldstein, 
Keleman, and Koski (1998) in San Francisco; Hess (2003) in Chicago; and 
Malen and her team (Malen, Croninger, Muncey, & Redmond-Jones, 2002; 
Rice & Malen, 2003) in Baltimore--still yield only equivocal results.
    Finally, research on the option of school closure is most sparse. 
This option is generally reserved for only the largest urban districts 
in the country, because small to mid-size districts do not have 
alternate facilities to send students to, and would have to restart the 
school in some capacity. Both Chicago and New York engaged in 
deliberate school closure, but students were not always placed in 
significantly higher achieving schools. In Chicago, students placed 
into higher achieving schools did see higher gains than those placed in 
comparable schools (Torre & Gwynne, 2009). In New York, new schools 
were opened to provide better options for the students (Hill et al, 
2009).
    Although the specific turnaround research literature is not strong, 
when it is combined with related research, it is suggestive. 
Theoretical, anecdotal, and qualitative work agree on the components of 
turnaround, including strong leadership and knowledgeable and committed 
teachers among many others. These components of school turnaround 
appear to link strongly with the federal definition of transformation. 
However, it cannot be overstated that the significance of each 
transformative component is not yet known. If we focus solely on these 
factors, we risk giving too much credence to some while potentially 
precluding the relevancy of others.
    Much more research is required. Connecting rigorous evaluative 
processes to the implementation of these models within diverse settings 
is critical to building an informed knowledge base that lends support 
to scaling up evidence-based programs.
    Some of the most promising components are outlined below:
    <bullet> Strong building leadership is essential for success of a 
school turnaround, and there must be enough capacity to meet the 
current demand. Currently, schools in turnaround and transformation 
must replace their principal. With 5,000 chronically underperforming 
schools nationwide (Duncan, 2009), that means there will be as many as 
5,000 openings for principals across the county in the next three to 
five years. To succeed, school leaders must be adept at using data, 
garnering teacher support, maintaining a focus on instruction, managing 
resources, fostering innovation, and engaging parents and community 
organizations in their turnaround efforts. They must be able to engage 
the school community in a dramatic shift in school culture and 
expectations early on. They must be given the trust, support, and 
flexibility to make dynamic changes. They also need to be accountable 
for performance. I cannot stress strongly enough: The challenge lies in 
the implementation.
    Currently, there are not enough school leaders equipped with the 
knowledge and expertise to succeed at this gargantuan task--
particularly in rural areas, where as many as one third of these 
schools exist (Duncan 2009). A recent analysis of the Managing Educator 
Talent practices from Midwestern states (Bhatt & Behrstock, 2010) found 
that programs geared toward recruiting, developing, and supporting 
school leaders do not exist to the same extent as programs for 
teachers, if at all.
    Higher education institutions need to be motivated to work with 
local schools and districts to develop job-embedded training programs, 
such as the Academy for Urban School Leadership and the Green Dot 
residency program, to build a cadre of strong leaders. Preparation and 
professional support are key to building and retaining strong leaders. 
There is a need to develop better and more accessible programs, provide 
additional resources to scale up those that are effective, and demand 
that our institutions of higher education respond to meet this need 
more efficiently and effectively.
    <bullet> Teachers must have an unwavering focus on instruction. 
Structural barriers and school culture that often prevent this goal 
must be removed. Teachers need to know what to teach--understanding the 
alignment of curriculum with standards and assessments. They also must 
know how to teach--using differentiated strategies proven effective for 
all children. Teachers need to be supported with tools, expertise, and 
structured collaboration time. Research and best practice suggest that 
teachers are more successful when they use frequent formative 
assessment to drive instructional practices and have access to job-
embedded professional development and coaching through professional 
learning communities, inquiry teams, and other teacher-led work teams. 
Furthermore, nearly all turnaround schools suffer from low reading 
achievement, so comprehensive literacy instruction, in particular, is 
critical (Salmonowicz, 2009)
    Training on instruction of English language learners and special 
education students by general education teachers is sorely lacking 
across the board. Union contracts must allow for restructured and often 
longer workdays for teachers to build in collaboration time. Data 
systems and assessment tools that allow for ready access to formative 
data have to be available to these schools. Master teachers in 
literacy, mathematics, English language learning, and special education 
need to be provided incentives to work as coaches in these schools. 
Teachers must learn to accept peer review and begin to watch each other 
teach and provide feedback. Principals must be given flexibility and 
provided measurement tools to evaluate teachers fairly and 
consistently, allowing them to keep staff that can be coached and 
remove those who can't.
    Teachers need, and state time and time again, that they desperately 
want the supports to do well. The Retaining Teacher Talent study from 
Learning Point Associates and Public Agenda found that 38 percent of 
teachers surveyed who stated they intended to leave the profession 
would definitely change their minds if they worked with a principal who 
helped teachers improve their effectiveness (Public Agenda, 2009).
    <bullet> Schools need a learning focused culture and climate with a 
disciplined approach to implementing school policies and practices, and 
a commitment to work beyond the walls of the school. In many cases, 
this goal will involve creating safe passage ways to schools, 
implementing early warning systems to keep students from falling 
through the cracks, and developing outreach systems that attract and 
motivate students to come to school. Teachers must become culturally 
proficient and understand the needs of their diverse students. Finally, 
teachers must believe that all students can learn, and there is no 
single strategy to get there.
    <bullet> Both academic and nonacademic supports for students and 
families are needed at intense levels. Decades of research show that 
school-based factors, such as principal and teacher quality, can have 
an enormous impact on student learning. However, the academic, 
economic, and social resources that students bring with them from home 
have, on average, a more profound effect. For example, research shows 
that parents' use of academic language, teaching of reading, and 
provision of school-related general knowledge are strongly correlated 
with socioeconomic status, particularly maternal education. In 
addition, struggling schools often are located in communities with a 
high rate of poverty and a lack of resources and supports for parents 
and families. Turning around the school alone in these communities will 
not be enough. Educators will need to reach beyond their traditional 
role and devise innovative strategies that involve social services, 
community-based organizations, and youth development programs to 
improve the future prospects of their students and their parents.
    <bullet> The staff and community must be committed to change. From 
our experience and experience of others, this situation can be the 
single most critical factor to whether or not a school turns around. A 
strong leader cannot turn around a school without inspiring staff to 
change the way they think about their students and engage with them on 
a daily basis. The best instructional programs often fail when teachers 
close their doors and do not implement programs with fidelity. A school 
culture and climate will not change if teachers don't hold students 
accountable for their actions and set high expectations.
    POINT 2. Models and supports for school turnaround in ESEA 
reauthorization need to balance knowledge of the core elements above 
with the flexibility to create meaning and commitment, remove barriers, 
and foster innovation.
    When a school or district is identified as underperforming, the 
first and not necessarily correct response of its leadership is to 
``come into compliance.'' From our experience, compliance-driven 
efforts to improve performance result in compliance plans and not 
sustained increases in performance. For example, in a review of current 
School Improvement Grant applications for one state, we noted that most 
schools indicated they would add an afterschool program to comply with 
the requirements of the transformation model, but almost none of them 
indicated that the criteria for extending learning would be to 
incorporate specific interventions that would strengthen and align with 
existing programs and needs. This theme of coherence and alignment 
across curriculum, instruction, and assessment is often missing from 
plans that are compliance focused.
    NCLB granted too much flexibility with funds, and that situation 
often leads schools to shy away from implementing the dramatic reforms 
that are needed. A report from the Center on Education Policy (Scott, 
2009) found that in six states and 48 schools facing restructuring 
under NCLB, more than 80 percent chose the option ``other,'' which 
allowed schools to implement single reform strategies--in one area--
without making significant changes in the school, and often resulting 
in little to no gains.
    Some steps to consider:
    <bullet> Focus on the desired outcomes for each core element of 
turnaround. Focus on coherence and alignment of efforts. For example, 
regarding teachers, consider requiring all turnaround models to 
demonstrate that the staff they plan to retain and/or hire are 
committed to the change process and are willing to be accountable for 
student performance results. There must be funding to develop tools for 
schools to use to make the effort more efficient, such as interview 
guides and scoring rubrics to assist principals in a strong recruitment 
effort. For each element of turnaround, a school starting 
implementation should be required to demonstrate coherence--from how it 
engages kids to how it engages staff, parents, and the community. For 
example, for the schools mentioned above that indicated they would 
implement afterschool programs, require them to demonstrate alignment 
between traditional school-day activities and those beyond the school 
day (whether those activities are school based or community based). 
There is case study evidence to suggest that successful schools have 
multiple, coordinated efforts around school transformation (Smith, 
2009).
    <bullet> Turnaround requires an intensity of change that schools 
and districts must understand. They must have adequate time and support 
to assess their needs, select models, and write turnaround 
applications. In our experience, struggling schools often don't have 
the capacity to turn around on their own. It is difficult for them to 
develop the vision and embrace the magnitude of change needed, even if 
they have seen the research, requirements, and case studies. Under The 
Center for Comprehensive School Reform and Improvement, we developed 
School Restructuring: What Works When as a tool to guide school leaders 
through selecting appropriate interventions, and we are updating this 
guide to align with the four turnaround options. That said, many of the 
schools in the bottom 5 percent today are there because they failed at 
restructuring under NCLB. Policy and funding streams should be 
structured to allow these schools to engage with support partners early 
on, to ensure they are able to develop and implement plans suited to 
the context of individual schools--plans that not only meet 
requirements but also address specific challenges in a given school and 
district. Building the capacity up front with schools and districts to 
self-assess will give them the tools and skills they need to engage in 
a process of continuous improvement, adapting to the needs of the 
changing student populations over time.
    POINT 3. The focus must extend beyond the school. The whole system 
matters.
    <bullet> Schools don't operate in isolation. Districts and charter 
authorizers provide important supports for schools in hiring, policies, 
and curricular and instructional supports--to name a few. Especially in 
rural and smaller urban settings, the district is the primary source of 
direction and support for the school. In these cases, district staff 
capacity needs to be built to do this work because they will be 
responsible to sustain improvement when the principal leaves the 
school. Districts need help understanding their role in fostering the 
environment for successful turnaround and in offering the right 
supports for success.
    <bullet> States and their regional systems of support provide 
varying levels of assistance. Attention needs to be paid to the state-
level policy mechanisms that support and hinder school turnaround. 
These mechanisms include teacher and leader credentialing, seat time 
requirements, funding formulas, performance sanctions, and others. 
States and intermediate education agencies also play a role in 
providing direct technical assistance to districts and schools. The 
Ohio statewide system of support, for example, provides tools and teams 
to facilitate needs-assessment processes in schools. For rural schools, 
the statewide system of support is often the only option for intensive 
technical assistance for the schools. State education agencies across 
the country have been downsizing over the last few years due to 
enormous budget constraints. They are struggling to find the balance 
between meeting the compliance requirements that come with federal 
funding and the need to deliver the right kinds of technical support to 
districts and schools. There must be new and innovative mechanisms to 
engage state education agencies in the process of support or 
intentionally define their role and provide the necessary funding and 
accountability structures to make it happen.
    <bullet> Social services, community-based organizations, and youth 
development organizations also can play a critical role in providing 
supports to students and families in alignment with the larger goal of 
improved student achievement. In communities where these struggling 
schools exist, funding opportunities for these groups should be in 
alignment with the larger objective.
    <bullet> External service providers--for profit and not-for-
profit--provide significant supports to schools. Today, there are not 
enough providers with a track record of success in school turnaround. 
But many, with some support, will be able to retool to meet the 
turnaround demands. Focused networks of schools and providers at the 
regional, state, and national levels will be critical mechanisms for 
sharing learning, establishing national benchmarks, and replicating 
turnaround success at an accelerated pace across the nation.
Summary
    There are elements in the research and our experience that tell us 
that efforts to improve poor performance work best when we work 
intensively with school leaders and teachers from a sense of shared 
accountability rather than demanding accountability on a narrow range 
of behaviors. We also know that meaningful change is more often 
sustained when a more comprehensive approach is taken and community and 
parents as well as educators are involved in the solution. The 
flexibility to orchestrate these variables is critical to success. 
Finally, resources need to extend beyond individual schools and into 
the larger system of support for long-term sustainability and 
replication of success. We must build capacity in a system from the 
state to the classroom in order to provide every student access to and 
opportunity for a world-class education. Our children deserve this, the 
complexities of society demand it, and we have a moral responsibility 
to make sure it happens.
                               references
Bhatt, M. P., & Behrstock, E. (2010). Managing educator talent: 
        Promising practices and lessons from Midwestern States. 
        Naperville, IL: Learning Point Associates.
Borman, G. D., Rachuba, L., Datnow, A., Alberg, M., MacIver, M., 
        Stringfield, S., et. al. (2000). Four models of school 
        improvement: Successes and challenges in reforming low- 
        performing, high-poverty Title I schools (Report No. 48). 
        Baltimore: Center for Research on the Education of Students 
        Placed At Risk.
Brady, R. C. (2003). Can failing schools be fixed? Washington, DC: 
        Thomas B. Fordham Foundation.
The Center for Comprehensive School Reform and Improvement. (2009). 
        School restructuring: What works when? A guide for education 
        leaders. Washington, DC: Learning Point Associates. Retrieved 
        May 14, 2010, from http://www.learningpt.org/pdfs/School--
        Restructuring--Guide.pdf
Duke, D. L., Tucker, P. D., Belcher, M., Crews, D., Harrison-Coleman, 
        J., Higgins, J., et al. (2005). Lift-off: Launching the school 
        turnaround process in 10 Virginia schools. Unpublished 
        manuscript. Charlottesville, VA: Darden/Curry Partnership for 
        Leaders in Education.
Duncan, A. (2009, June 22). Turning around the bottom five percent 
        [Secretary Arne Duncan's Remarks at the National Alliance for 
        Public Charter Schools Conference]. Retrieved May 14, 2010, 
        from http://www2.ed.gov/news/speeches/2009/06/06222009.html
Goldstein, J., Kelemen, M., & Koski, W. (1998, April). Reconstitution 
        in theory and practice: The experiences of San Francisco. Paper 
        Presented at the annual meeting of the American Educational 
        Research Association, San Diego, CA.
Herman, R., Dawson, P., Dee, T., Greene, J., Maynard, R., Redding, S., 
        & Darwin, M. (2008). Turning around chronically low-performing 
        schools: A practice guide (NCEE #2008 4020). Washington, DC: 
        National Center for Education Evaluation and Regional 
        Assistance, Institute of Education Sciences, U.S. Department of 
        Education. Retrieved May 14, 2010, from http://ies.ed.gov/ncee/
        wwc/pdf/practiceguides/Turnaround--pg--04181.pdf
Hess, G.A. (2003). Reconstitution--Three years later: Monitoring the 
        effect of sanctions on Chicago high schools. Education and 
        Urban Society, 35(3), 300--327.
Hill, P., Campbell, C, Menefee-Libey, D., Dusseault, B., DeArmond, M., 
        & Gross, B. (2009). Portfolio school districts for big cities: 
        An interim report. Seattle, WA: Center on Reinventing Public 
        Education.
Malen, B., Croninger, R., Muncey, D., & Redmond-Jones, D. (2002). 
        Reconstituting schools: ``Testing'' the ``theory of action.'' 
        Educational Evaluation and Policy Analysis, 24(2), 113--132.
Murphy, J., & Meyers, C.V. (2007). Turning around failing schools: 
        Lessons from the organizational sciences. Thousand Oaks, CA: 
        Corwin Press.
Picucci, A. C., Brownson, A., Kahlert, R., & Sobel, A. (2002a). Driven 
        to succeed: High- performing, high-poverty, turnaround middle 
        schools. Volume I: Cross-Case Analysis of High-Performing, 
        High-Poverty, Turnaround Middle Schools. Austin, TX: The 
        Charles A. Dana Center.
Picucci, A. C., Brownson, A., Kahlert, R., & Sobel, A. (2002b). Driven 
        to succeed: High- performing, high-poverty, turnaround middle 
        schools. Volume II: Case Studies of High- Performing, High-
        Poverty, Turnaround Middle Schools. Austin, TX: The Charles A. 
        Dana Center.
Public Agenda. (2010). Retaining Teacher Talent survey of teachers: 
        Full survey data. New York: Author. Retrieved May 14, 2010, 
        from http://www.learningpt.org/expertise/educatorquality/genY/
        FullSurveyData.pdf
Rice, J. K., & Malen, B. (2003). The human costs of education reform: 
        The case of school reconstitution. Educational Administration 
        Quarterly, 39(5), 635--666.
Salmonowicz, M. (2009). Meeting the challenge of school turnaround: 
        Lessons from the intersection of research and practice. Phi 
        Delta Kappan, 91(3), 19--24. Retrieved May 14, 2010, from 
        http://www.pdkintl.org/kappan/k--v91/docs/k0911sal.pdf
Scott, C. (2009). Improving low-performing schools: Lessons from five 
        years of studying school restructuring under No Child Left 
        Behind. Washington, DC: Center on Education Policy.
Torre, M. de la, & Gwynne, J. (2009). When schools close: Effects on 
        displaced students in Chicago Public Schools. Chicago: 
        Consortium on Chicago School Research. Retrieved May 14, 2010, 
        from http://ccsr.uchicago.edu/publications/CCSRSchoolClosings-
        Final.pdf
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Butler?

          STATEMENT OF THOMAS BUTLER, SUPERINTENDENT,
                  RIDGWAY AREA SCHOOL DISTRICT

    Mr. Butler. Good morning, Chairman Miller, Congressman 
Thompson, members of the committee.
    Thank you, Mr. Thompson, for that kind introduction. I will 
try to live up to it here in the next few minutes.
    Just to orient yourself to where Ridgway, Pennsylvania is, 
we are at the midpoint between Pittsburgh and Buffalo. We are 
near the Allegheny National Forest.
    We are a very small, rural school. We serve 1,000 students 
in grades K-12, but that puts us just below the median district 
population for schools in the United States--that median 
population is 1,300.
    Today I will discuss with you how we, at Ridgway, have 
attempted a turnaround in a small, rural school system, and I 
will also discuss with you some of the challenges that we have 
found as we have attempted this turnaround.
    The foundation for our turnaround at Ridgway has been 
collaboration and a focus on the children. I think sometimes 
that we forget that the reason we are here in this room, or 
here in the school district boardroom, or here in the 
classroom, is because of the students. The students are the 
most important.
    Years ago in our school district there was an unofficial 
motto of ``What is best for the children.'' Our decisions are 
based on what is best for the children. That is the framework.
    A great example of how we have focused on collaboration as 
well as the focus on students and student achievement is our 
teacher evaluation system, and I will take a few moments to 
talk about that. Our teacher evaluation system encourages 
professional learning by the teachers. In our system, the 
administrators and the teachers sit down and discuss what the 
teacher needs to help them improve student achievement.
    Teachers know what needs to be done in their classroom. It 
is the district's obligation, I believe, to provide those 
resources to allow that to occur. Some of the ways that our 
district encourages these meaningful professional learning 
goals is we send teachers to other districts that have 
exemplary programs; we send teachers to research-based, high-
quality seminars and conferences; and we also encourage our 
teachers to go for advanced degrees.
    Those are what we hope for. Some of the challenges that we 
face because we are in a small, rural school district: When we 
find--and we can find--exemplary programs in our area, but we 
often have to put teachers on the road for up to 3 hours to go 
see those exemplary programs in other school districts. That, 
of course, is a problem both for finding our substitute 
teachers as well as putting teachers on the road for that 
amount of time.
    Our second challenge is finding high-quality, research-
based conferences and seminars that we can send our teachers to 
and not spend too much time away from the school district. 
Again, we attempt to do that but that is a challenge.
    Finally, we are located in an area where we don't have a 
lot of opportunities for post-secondary education for our 
teachers. I believe that earning your master's degree--and 
research will back my opinion up--will improve student 
achievement. Because of where we are located, we do have 
problems finding those kind of opportunities for our teachers.
    Now, I have discussed the challenges but I also want to 
offer what I believe are solutions to this problem for small, 
rural school districts. May I suggest that this committee can 
help rural, small school districts by providing quality 
broadband Internet access to our communities?
    While I was driving down here yesterday to testify here I 
had some teachers and administrators being trained on a program 
that the school district is going to implement next year. This 
training, of high quality, was done in a virtual environment 
through a webinar.
    Now, it is more than just having this broadband access. We 
must also have the school districts have the capacity to use 
that broadband access in the classrooms. This can be done 
through training, of course, to make sure the teachers are 
utilizing the technology properly and integrating it into the 
curriculum.
    Finally, the last challenge that I experience as a 
superintendent of a small, rural school district is a statewide 
and national educational bureaucracy that is increasingly more 
top-down, leaving very little room for local control and 
flexibility so that we, on the ground in the local communities, 
can address the problems that we know we can fix. I am 
concerned that local superintendents will become mere middle-
managers instituting educational reforms decided at the state 
or national levels.
    In closing, the problems confronting rural school 
improvement are not a result of lack of effort or caring among 
rural educators. It is time for us to start a transformation in 
education, and the best place to start is in the rural school 
systems. This can be accomplished through collaboration and 
professional learning with a boost from virtual learning 
formats.
    I believe with all of my heart that public education in 
rural areas will lead to an era of rural community 
revitalization, and more importantly, sustainability. However, 
I also strongly believe that solutions to problems in rural 
areas must come from the local areas.
    Thank you for your time today, and I will be happy to 
answer any questions.
    [The statement of Mr. Butler follows:]

  Prepared Statement of Dr. Thomas Butler, Superintendent of Schools,
               Ridgway Area School District, Ridgway, PA

    Good Morning Chairman Miller, Congressman Castle, Congressman 
Thompson and members of the committee. Thank you for allowing me the 
opportunity to testify on the reauthorization of ESEA as it relates to 
turnaround schools. My name is Tom Butler and I am the Superintendent 
of Ridgway Area School District in Ridgway, Pennsylvania. I am honored 
to come before you today to share some thoughts on rural school 
turnaround. In Pennsylvania, 243 of the 501 school districts are 
considered rural (according to the definition of rural provided by The 
Center for Rural Pennsylvania). Rural schools in Pennsylvania educate 
503,900 students, while in the United States, rural schools educate 
9,063,790 students. Today, I will discuss the strategies for school 
improvement that worked well in our rural school district as well as 
some thoughts on how a reauthorized ESEA can support successful school 
turnaround in rural areas.
Ridgway Area School District
    Ridgway Area School District is located in northwest Pennsylvania 
at the midway point between Pittsburgh and Buffalo. The district 
encompasses 181 square miles with half of that area witin the Alleghany 
National Forest and other State Game Land. Ridgway enrolls 997 children 
ranging in age from 5-19. The district is located in Elk County, 
comprises all or parts of three townships: Ridgway, Horton, Spring 
Creek and the Borough of Ridgway The resident population is 7,225 with 
the borough of Ridgway compromising a population of 4,096.
    Forty five percent of the children qualify for a free/reduced 
lunch; an increase of 10% in 2008. Fourteen percent of the children 
qualify for special education services. We have adopted a K-8 school 
wide Title I program.
    The school district employs 150 people (both full and part time) 
with 87 of the employees being teachers. The school district's 
administrative staff consists of the superintendent, finance manager, 
director of student services, and three building principals.
Achievement gains
    The middle school in our school district went through the stages of 
school warning and school improvement. This resulted from three 
consecutive years with our IEP subgroup not achieving AYP. Last year 
was the first year in the last three in which the school did not get 
negatively labeled in some way. Although the overall achievement scores 
in the middle school are the best in the district, the school has had 
to concentrate on the IEP subgroup. The district also has experienced 
achievement difficulties in 4th, 5th, and 11th grade mathematics and 
reading. The school district has increased the number of IEP students 
scoring advanced and proficient in reading from 0% in 2007 to 40% in 
2009. In that time the district has also realized a 10% increase in the 
number of IEP students scoring advanced in math. Overall in the middle 
school, during that same time period, the school district has seen the 
number of students scoring advanced on the state test increase by 22% 
in reading and 18% in math.
    The school district has undertaken numerous efforts to improve 
these achievement scores. The staff and administration are hopeful that 
the achievement scores will improve dramatically again this year. Based 
on scores from formative assessments aligned to the state tests, we are 
hopeful for up to a 20-30% increase in the number of students scoring 
proficient or advanced in the state achievement tests this year. The 
school district will be notified of the scores within the next four 
weeks. Meanwhile, the staff, students and parents must anxiously await 
the results to discover whether they are as good as we predict.
Turnaround at Ridgway
          ``Dr. Butler, I have been ``hurting'' kids for 15 years by 
        not teaching math in the correct way. I can't believe that I 
        have had such a wrong opinion about how I should teach math to 
        my elementary school children. I can remember students crying 
        because they could not memorize the times tables. I just told 
        them to work harder. I just did not know any better. My 
        differentiated supervision goal this year was to research math 
        standards. I found out that I am not only teaching some content 
        that is incorrect, but I am teaching it in the incorrect way. I 
        am so upset with myself for not knowing this for the past few 
        years, but happy that I know it now.''
                <bullet> Teacher to Dr. Butler, 2010

    The conversation that this vignette was based on a conversation 
that I had two weeks ago while I walked through our elementary school 
office. One of our teachers had just finished her ``year-end'' 
conversation with the principal to fulfill the requirements for the 
school district's differentiated supervision plan. The teacher was on 
the verge of tears because she was so upset that she did not realize 
how much research had changed concerning how to teach math since she 
had gone to school. I believe this story is a great example of the 
power of collaboration and professional learning and it serves as a 
foundation of the Ridgway turnaround.
Teacher Evaluation and Collaboration
    The foundation for Ridgway's turnaround is our teacher supervision 
plan. In 2008, Ridgway Area School District instituted a new teacher 
evaluation tool that encouraged reflection on the teacher's part and 
collaboration between the teacher and administrators (Appendix A). The 
tool is based on the research of Charlotte Danielson. There are three 
different levels in each model and a teacher is placed on the different 
level depending on their level of expertise and time served. Newer 
teachers and ``at risk'' teachers receive more attention and resources, 
while more accomplished teachers have more latitude to chose goals to 
work toward. In the ``top'' level are teachers who are accomplished. 
These teachers sit down with the principal at the start of the year and 
choose two goals to accomplish for the school year. Usually the 
principal will have input into one goal, while the teacher is free to 
choose the second goal. In the above story, the teacher chose to 
research math standards. The next level is a ``general'' level and this 
level is a place where a teacher cycles through every 5 years. This is 
a more traditional model of evaluation, but is still centered on goals 
for the year. While creating this model with the administrators, 
teachers and the teachers' association, all sides felt that cycling 
everyone through the ``general'' evaluation section every five years 
would create a sense of transparency for both teachers and 
administrators. The last level in this model is ``structured''. The 
structured model is the most intensive model for teachers and 
administrators. There are very strict guidelines for what occurs in 
this level of supervision. In this level you will find beginning 
teachers and teachers that are deemed ``at risk''. Although this level 
is stricter than the others, it is still based on a foundation of 
collaboration and reflection. Ridgway Area School District does not 
grade all teachers as ``perfect'' or ``distinguished''. Teachers grade 
themselves, principals grade the teachers, then a professional dialogue 
between the teacher and principal occurs to determine the final 
``grading'' in each section.
    The school district supports teachers as they work through their 
goals in the evaluation model by providing funds for travel and 
training so the teachers can create their plan for learning about their 
goal. We believe in the power of a professional, reflective, teaching 
staff. I strongly believe that if the school district would have 
``forced'' the same type of training on the teacher in the above 
vignette, the results would not have been the same. The teacher had to 
come to the realization about changing math instructional practices on 
her own. The power of collaboration between the administration and 
teachers is that the teachers are responsible for their own learning. 
This creates a significant shift in what we should call teacher 
training. Traditionally we call teacher training ``professional 
development''. This insinuates something done ``to'' teachers and not 
something done ``with'' teachers (as articulated in previous testimony 
in front of this committee). Rather, we should call teacher training 
``professional learning''. This term implies a collaborative sense into 
how teachers learn.
    The school district had a willing and helpful partner all through 
the process of developing this supervision model. That partner was the 
local teachers association. Our school district is blessed with a union 
leadership that focuses on what is best for the students and is willing 
to work together with the administration toward achieving higher 
student achievement. The reforms that have taken place in the district 
would not have been possible without the collaboration of the teachers 
association.
Professional Learning Communities and Collaboration
          ``At first Dr. Butler I was insulted that we were going to 
        the other school to look at their math department. I figured 
        that the trip was just a way to make us feel like we did not 
        know how to teach. But once we were at the other school I 
        learned that we were doing things that the other school was 
        doing and that I learned quite a bit. I am now more excited 
        than I have been in some time to work at some of the things 
        that we need to work on.''
                <bullet> Teacher to Dr. Butler, 2009

    The above comment was made to me during a debriefing session after 
the school district had sent a team of math teachers to visit a 
neighboring school district that consistently achieves high scores on 
the state math test. The group was one of the school district's 
``professional learning communities'' that was started at the beginning 
of this school year. The focus on the PLC in the vignette was math 
curriculum and instruction. Professional learning communities are a 
researched based (Dufour and Eaker, 1998) teacher collaboration model. 
Teachers form learning communities to focus on improving student 
achievement. Ridgway Area School District has adopted the model to 
include book studies, data teams and more general topics centered on 
improving student achievement. In the above example, teachers were 
starting to examine their beliefs about how math should be taught and 
what math content should be taught. Again, this is a collaborative 
model where teachers are in charge of their professional learning. I 
believe that teachers should be treated as professionals and held to 
high standards. Professional learning communities provides an 
opportunity for teachers to conduct research, examine data, and learn 
cutting edge educational trends in an atmosphere and with colleagues of 
their choosing. When teachers reflect on their own practice and receive 
the resources to be able to learn, then increased student achievement 
will occur.
School Board Focused on Student Achievement and Instruction
          ``This was a great night, I can't wait until we can watch the 
        school district accomplish these goals.''
                <bullet> Board member to Dr. Butler, 2010

    This quote was made to me by one of our board members after we had 
completed a board retreat where the board worked with a consultant for 
three hours to create five non-negotiable goals for student achievement 
and instruction (Appendix B). Research is clear about the power of 
district leadership on improving student achievement (Marzano and 
Waters, 2009). The school board crafted these five-year goals as a way 
to focus all stakeholders within the system about what is important for 
our school district; namely, student achievement. The pay-off has been 
immediate. As the school board struggles to cut $100,000 from the 
budget (total 13 million dollar budget) the board president is adamant 
that the money set aside in the budget for board goals is not touched. 
As he has said numerous times ``We have set these goals and we need to 
give the administration resources to make sure these goals are 
reached''. The board's focus on these non-negotiable goals has started 
a shift in the way in which educational issues are discussed in the 
school district. Decisions are often centered on how a particular 
decision will help reach one of the board goals.

          ``This was the best professional development that I have 
        experienced in the school district since I have been a teacher 
        and this is my 17th year as a teacher.''
                <bullet> Teacher to Dr. Butler, 2009

    At the start of the 2009 school year, all teachers in the Ridgway 
Area School District were instructed on research-based instructional 
strategies proven to increase student achievement (Marzano, Pickering 
and Pollock, 2001). The focus for the teacher professional learning was 
a collaborative effort accomplished through a committee and various 
online surveys sent to the professional staff. The consensus from the 
staff was that they wanted to learn more about instructional strategies 
proven to increase student achievement. The framework that was chosen 
for the professional learning was the work done by Marzano, Pickering 
and Pollock (Classroom Instruction that Works). Each teacher chose to 
be trained in four of the nine proven instructional strategies. The 
administration then expected to see these strategies implemented in the 
classroom. Professional learning focused on instructional strategies is 
one example of how Ridgway Area School District has collaborated with 
the teachers to provide effective professional learning. The role of 
the principal in this process is vital. The principal not only 
participates in the discussion, they also organize the agendas for the 
meetings and set the ground rules for the PLC's. In all of the 
turnaround strategies that I discuss in this testimony, the linchpin is 
the principal. Their support, enthusiasm and professionalism determine 
how high student achievement will grow.
The Challenges for Rural Schools
    The number one challenge that I experience in my job is as a rural 
superintendent is statewide and national educational bureaucracy that 
is increasingly more ``top-down'', leaving very little room for local 
control and flexibility on my part so I can respond to the actual 
situation in my school district. I am concerned that local 
superintendents will become mere ``middle managers'' instituting 
reforms decided in the state or national education departments. This 
phenomenon goes beyond an argument against unfunded mandates, but 
strikes at the core of the relationship between a rural school and 
community. Our school board often expresses to me that they feel like 
they are losing control over the direction of their school system 
simply because there are so many rules and regulations that must be 
followed. The opportunity for a local board to create and develop 
programs and services responsive to local needs is severely limited by 
the system assuring compliance to these rules and regulations. For 
example, Pennsylvania has been collecting school, student, and teacher 
data for the past two schools years. This will create an enormous data 
base where every child's schedule, grades, health records, and every 
bit of professional and personal information about teachers will be 
stored in a database in the state capitol. Our efforts to keep up with 
the demands of this job have taken away from the normal duties of our 
administration, especially our finance manager. We cannot justify 
hiring a new person to take care of these duties so we absorb the 
duties into the existing administrative structure. The time and energy 
that is required for this database to be created (at very little 
benefit for rural students, I believe) could be better spent helping 
the school district research more appropriate data.
    What kind of data would benefit rural schools? In their recent book 
Hallowing out the Middle, authors Patrick Carr and Maria Keealas 
discovered that rural schools spend a disproportionate amount of their 
resources on students that are destined to leave their communities. 
These students are the high achievers that go to college and never come 
back. It makes sense, according to the authors, for rural school 
districts to expend the resources on the students that are destined to 
stay in their communities. I have been attempting to gather data for a 
few months for our school district looking at where we spend our 
resources, but I simply cannot do it in a timely fashion. I am not here 
to complain about my job, I love it. My point is that this data may be 
a significant turning point in revitalizing our community and I do not 
have the data at my disposal yet because our administrators are 
occupied with collecting data for our state-wide data management 
system.
    I mentioned earlier in this testimony that collaboration among 
staff members and quality professional learning are valuable tools to 
help increase student achievement. Rural areas are at a distinct 
disadvantage because of their isolation from creating the context where 
collaboration can occur between colleagues in different schools and 
school systems. To allow teachers to gain quality professional 
learning, the teachers are required to travel long distances and often 
have to stay overnight. This places a burden on the budget that is 
unique to rural schools.
    The accountability system as it stands right now needs to be 
adjusted to reflect the true picture of a rural school. The narrow 
definitions of proficiency levels based on one test score create a 
unique burden to rural schools. Many of my colleagues lead school 
systems that are so small that a fluctuation of one student could mean 
a 10-15 percent change in the number of students who are proficient on 
a test. With pressure from the community to stay out of ``school 
improvement'' these very small fluctuations create an atmosphere where 
test scores become an inordinately important facet in the calculus of 
what it means to be a good school. ``Drill and kill'' instructional 
techniques start to dominate as teachers and administrators strive to 
assure that one or two students stay at or above the proficiency level.
    Finally, the turnaround models within the new School Improvement 
Grants would be laughable if they were not so tragic for rural schools. 
Just the experience that Ridgway School District had while briefly 
considering these ``reform'' efforts are insightful. In the first 
reform effort, our school district would fire the principal and 50% of 
the staff. Obviously we could not do this and find any quality 
replacements. We recently replaced one of our principals and received 7 
applications from which only two were viable candidates. The next 
reform measure is, fire the principal and then concentrate on 
leadership for capacity building for the school and new leadership. 
Again, finding a quality replacement would be difficult, but also 
building leadership capacity would be expensive based on the travel and 
other expenses associated with professional learning in rural areas. 
Believe it or not, those two options were the most viable for our 
school when compared to the last two options. The other two were even 
more ludicrous. Shutting the school down and reopening it as a charter 
school presents a host of problems including staffing issues. The last 
option which is to shut down the school and send the students to higher 
performing schools within the LEA is impossible since there would be no 
other school within the LEA to send the students to!
    For these reasons, I strongly support the position of my 
professional organization, the American Association of School 
Administrators, to ensure that all districts in the bottom five percent 
have access to a fifth researched based model. This will help ensure 
ESEA does not make the same mistake twice of one size fits all policies 
that do not work for rural school districts. It will also allow for 
districts to include the latest research in turnaround strategies in 
practice over the course of new law.
ESEA Recommendations
          ``You cannot legislate change in teachers. It has to result 
        from teachers becoming reflective of their practice.''
                <bullet> Dr. Duff Rearick, CEO Blendedschools.net

          ``There is no doubt about it, job embedded professional 
        development is the key to improved student achievement.''
          <bullet> Dr. Pat Crawford, CEO Pennsylvania Leadership 
Development Center

    Everyone in education shares the same goal: improve student 
achievement. We are currently experiencing a shift in society and 
education that will fundamentally change the ``look'' of education over 
the next few years. How can all schools and rural schools in 
particular, position themselves so they will thrive and meet the needs 
of 21st Century learners? To meet the challenges posed by this 
fundamental change, efforts to change schools must not be reform 
oriented. Rather we in education must strive for transformation of the 
school system. Transformation will not come from a ``top-down'' model, 
but can only come from efforts of the local stakeholders collaborating 
to find solutions to solve unique, local problems.
    First, reauthorization of ESEA must reflect the gains in 
achievement that students make throughout the year. In our school 
district we have had gains for students but this success is not 
reflected in the ``official'' AYP status. By adding a value added piece 
school systems will be able to target the strengths and weaknesses 
within their school systems. This value added piece will allow 
administrators and teachers to craft professional learning that targets 
the needs of the students and teachers. Collaboration between the 
administrators and the teachers centered on actual student achievement 
gains will be a valuable addition to the reauthorized NCLB.
    Second, encourage organic (local) development of teacher evaluation 
centered on collaboration. I have provided you with an example of a 
teacher evaluation that works well for our school district; I believe 
that each school district should have the resources made available to 
them to accomplish the same. I have listened to previous testimony to 
this committee about the value of creating a teacher evaluation system 
in a collaborative manner. I agree. However, I have one caution. Any 
attempt by any national or state organization to attempt to create a 
``cookie cutter'' teacher evaluation tool that will work in any school 
district is going to fail. Our goal for the educational system must be 
transformation and not simply reform. Transformation implies organic 
problem solving to create solutions unique to every locale. Money 
placed in ESEA to encourage school districts and teacher associations 
to work together to create quality, research-based, differentiated 
supervisions tools will lay the foundation for collaboration and school 
transformation in rural school districts.
    Third, professional learning must be encouraged in the 
reauthorization of ESEA. Money spent to increase the capacity of 
teachers to provide research-based effective instructional strategies 
and increase their content area knowledge will increase student 
achievement. I have witnessed teachers incorporating different 
instructional strategies into their classroom and these strategies have 
increased student participation and created a richer classroom 
atmosphere. Professional Learning Communities are also an important 
aspect of collaboration and professional learning. PLC's combine the 
benefits of a collaborative professional learning model with a focus on 
increased student achievement. Forming professional learning 
communities takes time and training. Increased funding in these areas 
will help all school districts meet the challenges posed by 21st 
century learning.
    Finally, quality internet access is a must for rural schools to 
provide the best education for our students and professional learning 
for our teachers. Virtual learning is not the future, it is the 
present. Virtual learning formats allow rural schools to ``blend'' 
online formats with more traditional face to face education. Virtual 
learning allows isolated rural areas to connect their students and 
teachers to experts from around the country and the world. A rural 
school that does not have the capability to access the World Wide Web 
quickly and effectively is simply not able to prepare their students 
for the 21st Century. Virtual learning is also a great way to connect 
teachers with learning opportunities and experts from around the world. 
Through webinars, chat rooms, and other learning formats, teachers can 
experience high quality professional learning that would have been 
unthinkable in rural areas 20 years ago. I conducted an online class 
with recent high school graduates from Ridgway and a senior still in 
high school using the ITouch. Through a collaborative effort with one 
of our teachers who assisted me in the project we were able to connect 
our students to nationally recognized experts in the field of 
education. The students were able to discuss issues and trade ideas 
with the experts with most of the work being done on an ITouch. What a 
fantastic opportunity for students. Rural schools will increasingly 
rely on such virtual environments to assure their students and staff 
are offered the same learning opportunities as their urban 
counterparts. Funding to make sure these opportunities are available 
for rural students and staff will lead to increased student 
achievement.
    The problems confronting rural school improvement are not a result 
of lack of effort or caring among rural educators. It is time for us to 
start a transformation in education and the best place to start is in 
the rural school systems. This can be accomplished through 
collaboration and professional learning with a boost from virtual 
learning formats. I believe with all of my heart that public education 
in rural areas will lead to an era of rural community revitalization 
and sustainability. However, I also strongly believe that solutions to 
problems in rural areas must come from local areas. Rural schools must 
serve as a ``space'' where community problems are sorted out and 
solutions created. I doubt whether the reform framework that is being 
offered by the USDOE will accomplish this task. The four reform models, 
if forced on rural schools and communities, will only lead to increased 
``rural ghettoization''. These reforms simply do not make sense for 
rural communities and will ultimately be injurious to the schools and 
communities.
    Thank you for your time today and I would be happy to answer any 
questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Bridges?

             STATEMENT OF SUSAN BRIDGES, PRINCIPAL,
               A.G. RICHARDSON ELEMENTARY SCHOOL

    Ms. Bridges. Good morning, Chairman Miller, Mr. Thompson, 
and members of the committee. Thank you for inviting me to 
testify this morning.
    I am Sue Bridges, principal at A.G. Richardson Elementary 
School in rural Culpeper, approximately 70 miles southwest of 
here. A.G. Richardson enrolls just under 600 students from 
prekindergarten through the fifth grade and employs 84 teachers 
and staff. Our school's mission is developing the foundation 
for lifelong success, and my teachers, staff, and I begin each 
day with this mission in mind.
    I know through personal experience that a principal's 
leadership in a school must be focused on a cohesive mission 
statement that is centered on student learning. At A.G. 
Richardson we use data to define who we are, mark our progress 
over time, and secure and manage the tools necessary to 
continue to achieve our mission. Staying mission-focused is 
especially important in a school environment where challenges 
can and do pop up at any time.
    I firmly believe that I have been successful in leading 
change in my school because of my hardworking and dedicated 
staff and because of the support and flexibility in decision-
making that I have been given by the school district's 
administration.
    To be effective all principals require the authority and 
autonomy to make necessary changes in their school buildings. 
This means principals must be able to arrange building staff 
and resources to address the needs of students and to work 
collaboratively with colleagues, both inside and outside of the 
school, to identify the tools needed to sustain change and 
growth.
    There is no single plan or one set of resources or one 
style of leadership that will make every school successful. 
Each school has its own personality and culture, and successful 
leaders use this information to make critical decisions every 
day.
    My school recently experienced a significant change. In 
2007 A.G. Richardson was redistricted, along with five other 
schools in Culpeper County. My staff and I had to lead our 
school and community through this challenging time while 
remaining focused on our school's mission.
    Redistricting resulted in 60 percent of our students being 
redistricted to a new school and replaced with students who 
were entering our building for the first time. Our school 
district is large and quite remote in parts. While there are a 
number of neighborhoods now feeding my school, they are 
scattered throughout the district and are several miles apart.
    My staff and I quickly realized that we needed to take 
great measures to assess the individual needs of our new 
students in order to target instruction accordingly. We made 
two strategic changes to remain focused on A.G. Richardson's 
mission while bringing our new school family together.
    First, we focused on the need for more real-time data to 
inform classroom instruction. Grade-level teams began employing 
targeted assessments to identify their students' specific 
skills and needs and then divided their students into small 
groups for direct instruction. During this process it was my 
job to keep data discussions among teachers current and to help 
them make effective instructional decisions, to help secure 
volunteers to work with small groups of students, and to allow 
for flexible scheduling of teachers' time to accommodate their 
small-group instruction.
    I began holding biweekly differentiation meetings with each 
grade level to look at benchmarking data, student work, and 
standardized test data. We knew it was critically important to 
monitor our students' performance throughout the school year so 
problems could be identified and remediated right away.
    To further A.G. Richardson's mission, teachers shared their 
successful instructional strategies with each other and worked 
collaboratively to identify and refer our neediest students for 
Response to Intervention services, which provided more intense, 
skill-specific instruction.
    Second, my staff and I identified the need to reestablish 
an atmosphere of a neighborhood school to develop a sense of 
community. I established what we call the Parent Liaison 
Program to bring the school families together.
    Parent representatives from each of A.G. Richardson's 
neighborhoods serve as a two-way communication tool for me and 
for each other. I use them to solicit feedback, to seek 
volunteer help, to gauge the progress my school is making 
throughout the school year, and to identify problems that may 
need to be addressed. In turn, these parent liaisons 
communicate with me concerns and issues bubbling up in their 
specific neighborhoods.
    I meet quarterly with the parent liaisons to discuss future 
projects and activities, to solicit feedback, and to have an 
open dialogue. Families who are new to our school are paired up 
with a parent liaison in their neighborhood to provide them 
with a connection to our school.
    We recently performed a parent survey at A.G. Richardson. 
While I collected and tallied the data my parent liaisons 
reached out to individual families in their respective 
neighborhoods to solicit additional feedback.
    This approach has helped to develop a collaborative spirit 
between and among A.G. Richardson's families and schools, but 
it has also afforded me the opportunity to focus more of my 
time and attention on the instructional needs at the school and 
to manage the change process we have been going through in 
recent years.
    Instituting change in any organization is difficult, and 
schools are certainly no different. Leading change at A.G. 
Richardson required establishing and affirming our school's 
mission, keeping all staff focused on that mission, and 
securing and analyzing current data to inform the classroom 
instruction of our students.
    As the principal, I lead instruction by showing my teachers 
and staff what is possible and supporting them with procedures 
and resources so they can get the work done. I prop up their 
efforts by working collaboratively with them to analyze student 
data and monitor progress over time. As a result of our 
strategic learning focus we have seen progress in our student 
achievement and have maintained scores in the 80 percent range 
for grades three through five in reading, math, social studies, 
and science.
    As the instructional leader, principals must have--they do 
have a vital and unique perspective of their school. Because of 
this, principals understand that local decisions--staffing, 
resource priorities, infrastructure needs, et cetera--must 
continue to reside at the school level and district level where 
community and school needs can be adequately weighed and 
addressed.
    Recent proposals from the federal government have 
recognized the important role principals play in turning around 
low-performing schools but fail to factor in the need for 
locally-based decision-making. I would argue--and research 
backs this up--that principals are responsible for leading 
change in all schools, and perhaps more importantly, sustaining 
changes that focus on student learning.
    Principals--especially those in challenging circumstances--
must grow in their jobs. Just as teachers work collaboratively 
with each other to hone best practices in the classroom, 
principals learn best from each other through networking and 
mentoring opportunities.
    We know that principals are second only to classroom 
instruction in positively impacting our students' achievement 
and must work collaboratively with teachers and parents to be 
successful. Principals are experts at managing requests and 
putting into practice what is best for the students who come 
through the school doors every morning.
    Ask any principal at any given time what they must be an 
expert in, and be careful of their response. Principals are 
teachers, nurses, counselors, finance directors, curriculum 
experts, plumbers, lunch aides, behavior specialists, marriage 
referees. You name it, the principal has done it. But the most 
important role the principal plays is making decisions that are 
best for his or her students and staff.
    Beginning last week and continuing over the next 2 weeks--
and currently as I speak right now--A.G. Richardson Elementary 
is completing Virginia's state assessments, the SOLs. I know my 
students, teachers, and staff each week are all breathing a 
little bit easier as we complete each assessment. I am 
breathing a little bit easier, but I also know that the 
pressure will mount again as we await the result of those 
assessments and what that will mean for my school.
    I continue to lead my school to remain focused on our 
mission and will navigate all challenges thrown in our path. 
And because I know my teachers, my staff, and families so well, 
I know we will continue to succeed.
    Thank you for providing me with this opportunity to address 
you today. I would be happy to take any questions from the 
committee.
    [The statement of Ms. Bridges follows:]

           Prepared Statement of Susan E. Bridges, Principal,
            A.G. Richardson Elementary School, Culpeper, VA

    Good morning. Chairman Miller, Ranking Member Kline, and members of 
the committee, thank you for inviting me to testify this morning. I am 
Sue Bridges, principal of A.G. Richardson Elementary School based in 
rural Culpeper, Virginia approximately 70 miles southwest of here. A.G. 
Richardson enrolls just under 600 students from prekindergarten through 
the fifth grade and employs 84 teachers and staff. Our school's mission 
is ``Developing the Foundation for Life-long Success'' and my teachers, 
staff and I begin each day with this goal in mind.
    I know through personal experience that a principal's leadership in 
a school must be focused on a cohesive mission statement that is 
centered on student learning. At A.G. Richardson, we use data to define 
who we are, mark our progress over time, and secure and manage the 
tools necessary to continue to achieve our mission. Staying mission-
focused is especially important in a school environment where 
challenges can--and do--pop up at any time.
    I firmly believe that I have been successful in leading change in 
my school because of my hard-working and dedicated staff and because of 
the support and flexibility in decision-making that I have been given 
by the school district's administration. To be effective, all 
principals require the authority and autonomy to make necessary changes 
in their school buildings. This means principals must be able to 
arrange building staff and resources to address the needs of students, 
and to work collaboratively with colleagues both inside and outside of 
the school to identify the tools needed to sustain change and growth. 
There is no single plan, or one set of resources, or one style of 
leadership that will make every school successful. Each school has its 
own ``personality'' and successful leaders use this information to make 
critical decisions every day.
    My school recently experienced a significant change. In 2007, A.G. 
Richardson was redistricted along with 5 other schools in the Culpeper 
County School District. My staff and I had to lead our school and 
community through this challenging time while remaining focused on our 
school's mission. Redistricting resulted in 60 percent of our students 
leaving A.G. Richardson to enroll in a new elementary school who were 
replaced with new students entering my building for the first time. Our 
school district is large and quite remote in parts--while there are a 
number of neighborhoods now feeding my school, they are scattered 
throughout the district and are several miles apart. My staff and I 
quickly realized that we needed to take great measures to assess the 
individual needs of our new student body in order to target instruction 
accordingly. We made two strategic changes to remain focused on A.G. 
Richardson's mission while bringing our new school family together.
    First, we focused on the need for more ``real-time'' data to inform 
classroom instruction. Grade-level teams began employing targeted 
assessments to identify their students' specific skills and needs, and 
then divided their students into small groups for direct instruction. 
During this process, it was my job to keep data discussions among 
teachers current and help them make effective instructional decisions, 
to help secure volunteers to work with small groups of students, and to 
allow for flexible scheduling of teachers' time to accommodate their 
small-group instruction. I began holding bi-weekly differentiation 
meetings with each grade-level team to look at benchmarking data, 
student work, and standardized test data. We knew it was critically 
important to monitor our students' progress throughout the school year, 
so problems could be identified and remediated right away. To further 
A.G. Richardson's mission, teachers shared their successful 
instructional strategies with each other and worked collaboratively to 
identify and refer our neediest students for Response to Intervention 
services, which provided more intense, skill-specific instruction.
    Second, my staff and I identified the need to reestablish an 
atmosphere of a ``neighborhood school'' to develop a sense of 
community. I established what we call the Parent Liaison Program to 
bring the school families together. Parent representatives from each of 
A.G. Richardson's neighborhoods serve as a two-way communication tool 
for me and for each other. I use them to solicit feedback, to seek 
volunteer help, to gauge the progress my school is making throughout 
the school year, and to identify problems that may need to be 
addressed. In turn, these Parent Liaisons communicate with me concerns 
and issues bubbling up in their specific neighborhoods. I meet 
quarterly with the Parent Liaisons to discuss future projects and 
activities, to solicit feedback, and to have an open dialogue. Families 
who are new to our school are paired up with a Parent Liaison in their 
neighborhood to provide them with a ``connection'' to our school. We 
recently performed a parent survey at A. G. Richardson Elementary. 
While I collected and tallied the data, my Parent Liaisons reached out 
to individual families in their respective neighborhoods to solicit 
additional feedback. This approach has helped to develop a 
collaborative spirit between and among A. G. Richardson's families and 
the school. But it has also afforded me the opportunity to focus more 
of my time and attention on the instructional needs of the school and 
to manage the change process we've been going through in recent years.
    Instituting change in any organization is difficult and schools are 
certainly no different. Leading change at A. G. Richardson required 
establishing and affirming our school's mission, keeping all staff 
focused on that mission, and securing and analyzing current data to 
inform the classroom instruction of our students. As the principal, I 
lead instruction by showing my teachers and staff what is possible and 
supporting them with procedures and resources so they can get the work 
done. I prop up their efforts by working collaboratively with them to 
analyze student data and monitor progress over time. As a result of our 
strategic learning focus, we have seen progress in our student 
achievement, and have maintained scores in the 80 percent range for 
grades three through five in reading, math, social studies and science.
    As the instructional leader, principals have a vital and unique 
perspective of their school. Because of this, principals understand 
that local decisions--staffing, resource priorities, infrastructure 
needs, etcetera--must continue to reside at the local school and 
district level where community and school needs can be adequately 
weighed and addressed. Recent proposals from the federal government 
have recognized the important role principals play in turning around 
low-performing schools, but fail to factor in the need for locally-
based decision-making. I would argue--and research backs this up--that 
principals are responsible for leading change in all schools, and 
perhaps more importantly, sustaining changes focused on student 
learning. Principals are second only to classroom instruction in 
positively impacting our students' achievement and must work 
collaboratively with teachers and parents to be successful. Principals 
are experts at managing requests and putting into practice what is best 
for the students who come through the school doors every morning. Ask 
any principal at any given time what they must be an expert in and be 
careful of their response. Principals are teachers, nurses, counselors, 
finance directors, curriculum experts, plumbers, lunch aides, behavior 
specialists, marriage referees--you name it, and the principal can and 
has done it. But the most important role the principal plays is in 
making decisions that are best for his or her students and staff.
    Beginning last week and continuing over the next two weeks, A.G. 
Richardson Elementary will be completing the Virginia state 
assessment--the SOLs, or Standards of Learning. Each week, I know my 
students, teachers, staff and parents are all breathing a little bit 
easier as each assessment is completed. I am breathing a little bit 
easier. But I also know the pressure will mount again soon as we await 
the results of those assessments and what those results may mean for my 
school. I will continue to lead my school to remain focused on our 
mission and I will navigate all challenges thrown in our path. And 
because I know my teachers, staff and families so well, I know we'll 
continue to succeed.
    Thank you again for providing me with the opportunity to address 
you today. I would be happy to take any questions from the Committee.
                                 ______
                                 
    Chairman Miller. Well, thank you very much to all of you. 
This is an incredibly-arrayed panel here. We have the mean 
school district--you said about 1,300 is the mean and you are 
1,000--and we have a school here that is half that number in 
one elementary school, urban, rural, and then mix in the very 
large district.
    In this round of questions I would like to raise a couple 
questions, Dr. Simmons and Mr. Silver.
    Dr. Simmons, you did these turnarounds and the strategic 
initiatives with existing personnel--local school boards made 
the decision about the teachers they had, the principal that 
they had, and your initiative came in to that process.
    Mr. Silver, you selected your teachers because you were 
starting a new school within the school district, so you had 
the opportunity to select your first tiers of teachers. But 
that wasn't necessarily just a linear path to success; there 
were--you didn't select the perfect teachers, each of those 
people, so you had to deal with this question of capacity and 
building that capacity for them to be able to work in a school.
    And I just wonder if you might comment on that, because one 
of the concerns has been that--the suggestion has been that if 
you just close the school, fire people, rehire, that you are on 
your road to success. Not every school gets the opportunity to 
do that, nor necessarily wants to do that; they would rather 
distinguish--but you still have to build, what is apparent by 
what is taking place in that school in that time, additional 
capacity to achieve these turnarounds.
    I just wonder if you might comment on those sort of two 
different models and how you dealt with dealing--that existing 
structure and a modified structure that Mr. Silver had?
    Mr. Simmons. When we look at the schools in Chicago we find 
so many teachers and principals who have not had the 
opportunity to really show what they could do, so there is this 
vast resource of people who are out there, and when they get 
the right model based on the research, the right support--
support from the central office--and they have a great school 
leadership team, all these things come together and the 
existing teachers respond in ways that exceeded their 
expectations, our expectations, the expectations of the central 
office. There is a vast resource out there that is untapped.
    Chairman Miller. Thank you.
    Mr. Silver?
    Mr. Silver. I think that in the beginning of our school we 
were able to get the seeds of success, in terms of creating a 
culture, creating a big goal, creating systems for 
collaboration, creating a team, getting family involvement.
    And as we went forward, when our student achievement in 
year two was only at 10 percent of our students actually 
reading at grade level or above, there were two key things that 
I think that we did that helped to propel us going forward. 
Number one is, we went and observed at other high-achieving 
schools with similar demographics. You know, when we started 
this school we always said, ``We are going to close the 
achievement gap; we are going to make sure that all students in 
low-income areas can learn.''
    Until we actually saw African-American and Latino students 
in low-income neighborhoods achieving at high levels there was 
a part of even me that didn't believe it; but when we saw that, 
when we took our entire staff and we saw that this could be a 
reality, things shifted. We knew that we could do this and we 
had a responsibility to do it.
    The second thing is that--what we learned from that visit 
is the focus on standards and data. In the beginning we were 
not necessarily focused. We were told we needed to focus on 
curriculum or other things. That didn't work.
    We need to focus on standards; we need to align ourselves 
and make sure that we had data cycles. At this point, starting 
in year three, every one of our teachers knew exactly where 
each student was at with respect to the standard that they were 
supposed to learn and had mechanisms to re-teach that standard 
and intervention support to do it.
    Chairman Miller. Thank you. When I visited Rosco Academy, 
we are talking about teaching to the test in the school and the 
principal, ``We will educate the kids; the tests will take care 
of themselves.''
    You talk about teaching to the standards in other schools 
in my area, just down the road from where you are, and a lot of 
it is about teaching to the test. What is the distinction in 
these two educational models?
    Mr. Silver. It is our responsibility to make sure that all 
our students are learning standards. The distinction is this: 
When I was a teacher when I started in my first year Compton, 
California, through Teach for America, there were no real 
standards. There was no real high-stakes test. I was teaching 
whatever.
    And now, you know, when students are in schools, often they 
come in with different backgrounds and they come in with 
different levels of learning. And students in poor 
neighborhoods often come into kindergarten way behind their 
more affluent peers.
    Without a clear standard there is no way for us to increase 
our expectation and make sure that all our students learn. It 
is our responsibility to makes sure that the standards of 
California are taught in English language arts, in math, in 
science and social studies, and in all the different subject 
levels. And without a standard and without a way to measure 
that standard there will be no equity.
    Chairman Miller. Dr. Simmons?
    Mr. Simmons. I agree. I think that is a very well-put 
statement.
    Chairman Miller. That is enough from you.
    Dr. Johnson, we hear all the time, and certainly we discuss 
the federal role in education--one size doesn't fit all. But as 
you pointed out, and I think as the witnesses have said 
individually here, there are key elements. There are elements 
of success, and we are in the process of sort of trying to 
distill those to the extent that we can so that people can 
reach for those elements as they think about turning around 
their individual schools.
    But also, you talk about this vision, this connection of 
this experience to what comes next, and Dr. King's, Mr. 
Silver's, and Dr. Simmons' testimony--it is the vision, it is 
the vision of success and career, or college, or job--there is 
this connection. I remember maybe in the 1970s and 1980s people 
lamented that the world of work really didn't work for these 
students because when I graduated, and in the town I went to, 
you graduated from high school, you probably went to the sugar 
refinery or the oil refinery, or you went to the chemical plant 
or to the steel mill. You kind of knew what you were going to 
do because other people in the town were doing that.
    Today it doesn't work that way, and yet you have the 
connection here--very strong connection--to the parents and 
others thinking about, this is connected to whether or not I 
can go to college and succeed in college.
    The STEM program connects them to careers and opportunities 
and knowledge about the academics and the career opportunities, 
as I understand this. Mr. Hinojosa has explained this to me 
over and over again, and I finally got it.
    And in your case, it is a community--my takeaway was that 
they decided that this school is the most important cultural 
and economic asset that they have, and it is about their kids' 
future. I mean, it is connected in that sense.
    And I just wondered if you would comment--maybe I am off 
base here--but as you think about how you put these elements 
together it also has to have a vision for that parents--for 
those parents and that community, it seems to me.
    Ms. Johnson. Yes. I think that is absolutely critical. And 
one of the challenges, what do you do in the places where there 
don't seem to have that vision? So how do we push people along 
to that vision?
    We have to show them what is possible. We have to show 
them--you know, the comments earlier about not only the state 
standards and/or kind of the common core standards that are 
coming out in ELA and math, but also looking at those 21st 
century skills and the 21st century sort of standards of 
excellence.
    We need to give parents and community and school that 
vision of what is possible, and I loved what Mr. Silver said 
about taking folks out to see those schools in terms of the 
individual teachers. This is the real challenge.
    How do you take these isolated pockets and show them what 
is possible? You have got to highlight the models that are 
really working; you have got to bring them--in some cases, 
rather than taking a whole teaching staff to see another 
school, you have got to bring those models into those schools, 
and not just to the teachers and the staff, but also to the 
parents and community.
    And I also think you can incent community groups and youth 
organizations to be aligned with the school's turnaround 
program.
    Chairman Miller. I want to give Dr. King a moment if he 
wants to respond to the question.
    Mr. King. No. I agree that the connection is important and 
it is important to have--you know, I believe in big, bold 
goals, and, you know, if really setting out, you know, the 
challenge--you know, in PSJA, when I got there the first 
problem that hit me in the face was the dropout situation, and 
we set a goal in that first year to cut it in half, and we 
achieved that. We didn't set a goal to cut it by 5 percent, but 
we set a goal to cut it in half.
    In a matter of 5 weeks we opened a brand new high school to 
bring back dropouts age 18 to 26 and get them their high school 
diploma and connect them to college. That was instantly 
successful, and in a matter of 3 months we graduated the first 
50, and the community got all excited--the district, the 
teachers--and they saw the capacity that, you know, we can do 
something, we can make a difference.
    And by this August, within 3 years we will have graduated 
700 from that school of dropouts and would-be dropouts 
connecting dropouts straight to college. So the connections, 
the big picture, you know, looking at the needs of that 
community, all of those things are important.
    Chairman Miller. Thank you.
    In my second round I would like to get Mr. Butler and Ms. 
Bridges' response, but I want to turn to Mr. Thompson now for 
his----
    Mr. Thompson. Thank you, Chairman.
    Dr. Butler, thanks again for coming to testify, and your 
leadership in Elk County at Ridgway School District. In your 
testimony you highlighted the difficulty that rural areas have 
with the U.S. Department of Education--excuse me; I just came 
off of a 5-day Ag public hearing, so if I start talking about 
cotton and peanuts you know why--U.S. Department of Education's 
four school turnaround models.
    And during the release of the regulations the department 
said, ``We understand that some rural areas may face unique 
challenges in turning around low-achieving schools, but note 
that the sufficient amount of funding available to implement 
the four models will help to overcome the many resource 
limitations that previously have hindered successful rural 
school reform in many areas.''
    So my question is, you know, is that accurate? Is the money 
the primary obstacle to school turnaround in rural areas? And 
what are the main challenges that rural school districts face 
in turning around the low-performing schools if not overall 
money?
    Mr. Butler. Okay. A very good question.
    We, at Ridgway, were very excited when the Race to the Top 
came out and we looked at those reform models until we--you 
know, the devil is in the details. And we were excited at first 
because we were hoping we could have the--use some of the money 
for the professional learning. You know, in our school district 
we get the teachers and then we are responsible, I believe, to 
make sure they get to a standard of performance where student 
achievement is going to improve.
    We look for teachers--you know, teaching comes from the 
heart, and I think you can see that from Mr. Silver, his 
passion to help, and that is what we look for in teachers. So 
when we first looked at those models that is what we were 
excited about, that we would be able to have funds to go out 
and make sure we help these teachers who have the heart, we can 
also give them the skills.
    The turnaround models for our area are really a non-
starter, I believe. For example, if you are going to close a 
school down to send the school--you know, students to another 
high-performing school within your district, there is none 
because that is the only elementary school, that is the only 
middle school. If you are going to, you know, get rid of 50 
percent of the teachers and your principal, that is a major 
challenge, and that is why, you know, I just want to go back to 
the fact of how much, you know, I am very proud of the 
collaborative effort that we have had with the teacher 
evaluation, how that was put together.
    And also, you know, there is a responsibility on the school 
district's part, I believe, in a rural area to get that teacher 
up to par, up to snuff. But it is also up to the school 
district to make sure if the teacher is not doing that that 
they are no longer in front of students.
    Mr. Thompson. Thank you.
    Ms. Bridges, you talked about the importance of ensuring 
that policies and interventions that are put in place to turn 
around low-performance schools must remain at a local level. 
The administration, on the other hand, believes that state and 
local leaders lack the will to undertake the fundamental 
reforms to turn around the most persistently low-achieving 
schools.
    Can you provide any examples that you know of as the 
president of a state organization where state and local 
officials have made the difficult decision to close a school or 
to institute dramatic school reform efforts, and what impact 
would the four turnaround models have on your school and school 
district?
    Ms. Bridges. I don't have any specific examples that I am 
familiar with with regard to schools that have been closed. 
However, I can speak to what the turnaround models would--the 
impact they would have on our district.
    Similar to Dr. Butler, if you closed the school it would 
result--while there are six elementary schools in my district, 
closing one would result in overcrowding conditions in the 
other five. We just underwent redistricting to resolve that 
issue. Closing a school would recreate that issue once again, 
where we would have insufficient space to serve the students 
that we currently have.
    When you talk about firing 50 percent of the staff, what 
criteria would be used? I think we need to be real careful and 
clear on the criteria that is used to select which 50 percent 
go and which 50 percent stay. That falls on teacher evaluation 
procedures, which I feel like we have a good, solid program in 
our district, but the documentation would need to be present. 
You had better be able to document why 50 percent--who stays 
and who goes. I think that would be a serious impact.
    Truthfully, it is difficult finding highly qualified 
teachers. Virginia is in a unique perspective of we often have 
more teaching positions available than teachers to fill them. 
We rely on our neighbors in Pennsylvania, actually, to recruit. 
We recruit heavily in Pennsylvania.
    I am a Pennsylvania native that got transplanted to 
Virginia. And so I think that is an impact. It would result in 
tremendous efforts to recruit highly qualified teachers. That 
would be difficult.
    Charter schools--when you talk about an agency taking over 
a school, you know, it takes time to get to know a school and 
the school culture. A new leader coming in needs to know the 
school culture and the community it serves, and I think it 
would take--there is a learning curve. I am not convinced that 
immediate change would be evident because it takes time to get 
to know the culture and then make the changes to make a 
positive impact.
    Mr. Thompson. Thank you.
    Dr. King, you noted in your testimony a number of criteria 
for how to move ahead with this, and quality leadership at both 
the district and campus levels--you noted that that was 
critical. And I wanted to see, first of all, specifically, what 
positions were you talking about within your operation, your 
school district, that you zero in on for developing that level 
of quality in terms of the leadership?
    Mr. King. Of course, at the campus level, the principal's 
position and the rest of the campus leadership team--the 
assistant principal, dean of instruction, whatever they might 
have depending on the size of the campus. At the district 
level, you know, the superintendent, whoever is in charge of 
curriculum and instruction in particular and whoever is in 
charge of personnel and staff development.
    Those are all, you know, all very, very critical positions 
and you need to have, you know high-caliber people, you know, 
that have a vision and that want to move forward and don't want 
to just do whatever they did last year. It is very important to 
have that in all of those positions.
    Mr. Thompson. Are there specific strategies you employ, 
then, to--or what strategies do you employ to raise that level 
of leadership within those individuals?
    Mr. King. Well, to begin with is to set the expectation 
very clearly of what is expected of people in those positions 
to, you know, and to provide assistance, to provide training, 
and if need be to move people around and do whatever needs to 
be done to make sure you have got the right people in the right 
chairs to get the job done, because you have got to have that 
to get there.
    Mr. Thompson. Okay.
    Chairman Miller. Thank you.
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    I think the mantra now is turning around low-performing 
schools, and there are many models emerging.
    And, Ms. Johnson, you mentioned that there is not a lot of 
data to really support the various models as yet.
    So here are these schools all across our country and they 
are being asked to turn around their schools, and they--what 
can the federal government do to support the ability of our 
school districts and, indeed, our schools to figure out what 
models are out there, what might work for them? How can we help 
to provide them with access to appropriate models? That is one 
question.
    Would you like to answer? Would any of the rest of you----
    Ms. Johnson. Sure. I think, first of all, as we go through 
this process the federal government can play a role in this 
idea of national data collection. So right now we are starting 
this first way of school improvement grants, and you have got 
hundreds, possibly thousands--we don't know yet--of schools 
undergoing this attempt to do turnaround. What are the 
consistent metrics we are going to look at across the board so 
that we have a better sense of what works where and what 
matters most?
    The other thing I think we can do is focusing the policy on 
the outcomes that we know make a difference without being 
overly specific about the means to get there.
    So this issue of teacher replacement and what to do about 
teachers--the federal government can play a role in ensuring 
that schools have tools and supports to help them hire the 
right kind of teachers for turnaround, and the policy should 
require that schools have teachers in place that are committed 
to change, that understand they are going to be evaluated and 
are publicly accountable for what they are doing, but that when 
they fire 20 percent or 50 percent doesn't so much make a 
difference.
    So putting those tools and structures and supports, I 
think, are critical.
    Ms. Hirono. We have four turnaround models, and would I be 
accurate in saying that for all of the panelists that that is 
way too restrictive to just have four models, that we ought to 
come up with some language in the law in the reauthorization 
that allows for a more flexible approach for schools? And I 
don't know what that language would be, but is there agreement 
that the four models, too restrictive?
    Yes? Okay.
    Mr. Butler. Yes. For sure.
    Ms. Hirono. I get that.
    Some of you mentioned that recruiting teachers, especially 
in those models which require restructuring of the schools, 
that is a tough thing to do. For example, in the state of 
Hawaii we can't just go to the next-door state. We actually 
have to get them to fly over and--our teacher turnover is 
really high in some of our schools to the point where students 
that I have talked to say, when I have asked them, you know, 
``What makes it hard for you to learn in this school?'' and 
they said, ``Our teachers don't stick around. They are not 
around.''
    So, Mr. Simmons, you have an interesting model because your 
model is that you don't really--you don't move everybody out. 
How do you get the kind of buy-in that we need at those schools 
that are underperforming so that real changes can occur?
    Mr. Simmons. How do we get the buy-in? That is an 
absolutely crucial question that most leaders at the top don't 
ask effectively.
    We get the buy-in by asking people do they want to 
participate. In all of our schools we require the principals to 
have an 80 percent vote of the staff before we started to work 
with them--a secret vote that was reviewed by the union 
representative so that teachers had to buy in in terms of 
saying that they were willing to work with it.
    Same thing with the principals. They had to volunteer. This 
was not a mandate. It makes an enormous difference if people 
willingly sign up for using these kinds of funds. So that is 
central.
    The other piece in the buy-in is that it is important for 
people to then participate in fine-tuning the program. We call 
it a process because it is flexible. Flexibility is one of the 
key words I have heard this morning.
    Principals need autonomy. They need the flexibility. Well, 
focused instruction process we use provides them that up front. 
They are empowered to make changes and to continuously improve 
the model as they get the data.
    So these are things that get the teachers to stay in the 
buildings. We have very low turnover in these buildings. It may 
have been very high--30, 40 percent. Schools start to use these 
kinds of processes and guess what? The teachers want to stay.
    Ms. Hirono. So your organization is participating or 
working with these schools over a period of 3 or 4 years. What 
happens after you leave? How do the schools sustain their 
commitment?
    Mr. Simmons. It is up to the leadership of the buildings 
and the district to provide the support, the climate for 
sustaining it. In some schools it works very well. Sometimes 
there is a new principal comes in, not interested in 
continuing. That is a problem.
    That is where the local school councils in Chicago make 
such a difference, because the councils are there, elected by 
the parents and the teachers, to look at what is going on. When 
they see there is a program they like they go to the principal 
who is new and say, ``We want to keep this program. It works.''
    Ms. Hirono. My time is up.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman.
    I have a question for Ms. Bridges. I am from Kentucky, and 
Kentucky has the Site-Based Decision Making Council, which has 
three teachers, two parents, and a principal on each, and they 
kind of--they govern the school, for lack of a better--there is 
a school board and everything still there, but they really 
govern the school. And one of the issues that I worked on when 
I was in the state legislature, when I would go visit schools 
that were turned around or had areas that other schools in a 
similar area weren't as successful and schools that were 
extremely successful--we have some that were top performers; it 
was always a strong principal with a good staff that led a 
great staff.
    In Kentucky the teachers can, over at the site base, 
actually hire the principal. So it is the opposite of having 
authority over the teachers. It can be the opposite. In most 
cases--almost all instances--it works okay, but in troubled 
schools sometimes it doesn't.
    And so my question is, in Virginia, as a principal, what 
kind of authority do you have? Because you talked about how 
principals need more flexibility, more authority in a school in 
your testimony. Could you just give some examples of your 
authority and some things that you can do if there are problems 
in the school? And can you hire and fire? I guess that is the 
question.
    Ms. Bridges. I am afforded a fair amount of flexibility in 
my decision-making thanks to my supportive central office 
administration. I do have the authority to determine my school 
schedule--how long will a school day be--within reason. I am 
limited by bus transportation; all of our students are bussed.
    But how am I going to use that instructional time? How much 
time will be devoted to reading instruction? How much time will 
be devoted to remedial instruction to address concerns? 
Enrichments--the opposite end of the spectrum, because we have 
to consider both needs.
    Flexibility with regard to my school funds--I am given a 
lump sum. How do I choose to spend that money? I am given 
flexibility with that.
    I cannot hire and fire. I am given the authority to 
recommend for hire and fire as long as--and the human resources 
department is supportive of my efforts as long as I have 
documentation, of course, to support that.
    But a principal has to be given the authority to hire who 
they need. I will give you an example. Recently we went through 
a committee of interviewing candidates for a third grade 
vacancy. The candidate I wished to hire had a master's degree, 
highly qualified. She had been a long-term substitute in my 
building, and we felt she would be a great fit for my third 
grade team.
    When I made the recommendation initially to my human 
resourced department I was told, ``She will cost us too much 
money. We have only budgeted X amount of dollars for teachers. 
She will cost us too much money. You need to find another 
candidate.''
    I argued with her and argued the fact that she was 
replacing a retiring teacher, so in fact, she was going to be 
costing the district less money in the long run, and I did win, 
fortunately. I can't say that is the same for all principals, 
but those are the kinds of decisions and flexibility that we 
need to have.
    Mr. Guthrie. Thanks.
    And there is one other thing I wanted to ask you. You 
talked about using real-time data for driving instruction in 
the classroom. One of our issues--and actually it has changed 
since I have been in Kentucky--but we--or it is in the process 
of changing--but we always tested our students in the spring 
and then the results would come back in October and we used the 
results for assessing the school. And it was a fairly okay--I 
mean, it worked statistically that you could assess the school 
with that, I think, accurately.
    But what our system wasn't designed to do and didn't do was 
drive instruction to the particular student. And so they are 
trying to change that. The legislature has done some really 
good work--since I left, I guess is why they are doing better 
work. I worked on it until I came here.
    And so what kind of real-time data are you using in the 
classroom? Because our testing drove school--and I think in No 
Child Left Behind it is a kind of similar model--our testing 
drives school--assessing schools instead of assessing students 
so a teacher can have something at their hands that they can 
use and use that directly to instruct that student. And I just 
kind of wonder what kind of real-time data you have from that 
perspective.
    Ms. Bridges. Spring assessments--end-of-the-year 
assessments--can often be referred to as an autopsy. They tell 
you what you did wrong but they don't necessarily help you. 
Yes, they do assess your school and how you did, but it does 
nothing to really affect change immediately. We recognize that.
    We use what we call real-time data--I am referring to 
benchmark assessments. We are fortunate to have an online 
assessment program that disaggregates our data for us 
immediately.
    The teachers can assess, get their data--it is broken down 
by question and student performance on those questions--and 
then they group their children according to the performance on 
those assessments. Those benchmark assessments are given every 
6 weeks--4 to 6 weeks, depending on the assessment and the 
length of the unit.
    We also administer some growth model assessments which are 
really important: the Developmental Reading Assessment, the 
DRA; PALS, which is unique to Virgina, the Phonological 
Awareness and Language Screening that is given three times a 
year. We also administer MAP, which is Mapping Academic 
Potential, through NWEA. That is a growth model.
    That information gives us specific data right now--how are 
students performing--and we are able to look at that data and 
made adjustments and instruction to make improvements right 
then and there instead of waiting----
    Mr. Guthrie. Our yellow light--well, the red light just 
came on, so I will yield back.
    Chairman Miller. Mr. Silver, did you want to respond on----
    Mr. Silver. I was just going to say----
    Chairman Miller [continuing]. Ms. Bridges made?
    Mr. Silver. Yes. I mean, I think your question is right on 
and her answer is right on. While the high-stake testing is in 
the end in California, for example, those benchmark assessments 
that are aligned with that every 4 to 6 weeks are essential, 
and we get those back real-time, within 5 minutes.
    Teachers are in the office scanning it in and getting those 
results by student, by standard, by question, and we have data 
conferences afterwards with each teacher to figure out where 
are our students at, what are the plans that they are going to 
do, and also asking what is the support you need from us as we 
got forward to make sure all students can achieve?
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    It is about time you were here, Dr. Simmons. We have had a 
whole series of hearings and every one I have thought and said 
out loud--I have even said it to Mazie--``Where is John 
Simmons?'' Well, you are here because this is the perfect place 
and the perfect panel for you to be on.
    I have so many questions, Mr. Chairman, I could go on and 
on.
    So I am going to start first with you, John. In your 
program, which sounds like a model that we should all just take 
very seriously, do you have evaluation systems? Is that 
important as a part of your measuring the outcomes--well, not 
the outcomes--measuring your teachers? And how many teachers 
were terminated over this period of time in order to make 
things better? That is my direct question to you.
    And then to the whole panel, I would like to know if you 
have run into any reluctance--and your own included--to 
actually embracing a new system of reauthorizing ESEA? We 
brought out No Child Left Behind and forced that on everybody.
    Now, are you having any reluctance with your colleagues, 
peers, and the teachers saying, ``Come on, you are not going to 
put another thing on us. We don't believe it; it is just a new 
administration that has got some new bells and whistles''? How 
are we going to prove to you that we really mean this and that 
we are going to build on what we have learned?
    So start with you, John, and your----
    Mr. Simmons. The evaluation question is very important. The 
data from our schools is that the principals are in the 
classrooms observing what the teachers are doing on a much more 
regular basis than ever before in the past. They really see 
themselves as instructional leaders.
    Second, teachers work together to help each other improve 
their teaching. And assessment every 4 weeks is important. We 
have assessments every 5 to 7 days of the students' work. They 
are no-stakes assessments that the teachers give them and get 
back within 24 hours.
    So that data is used to assess each other. They are getting 
the students of the teacher before them in the next grade level 
below. They are desperate to improve the quality of that 
teaching immediately, especially when they see low-performing 
results. So there is a built-in process into what we have here 
which has continuous evaluation of the teachers, which they and 
the principals are under control.
    Have a lot of teachers left for poor performance? Not in 
our buildings. Why? Well, because the performance is steadily 
going up and people are working together in ways that they 
hadn't before.
    And furthermore, this process brings in the students. When 
students who are underperforming go into their success time 
every day, in terms of if they are underperforming on the 
standard they go into success time, other students that are--
have mastered the model come and help students who have not 
mastered. ``Jimmy, come on. I want you to play my computer 
games with me. You have got to give this author's purpose 
standard together. What is wrong?''
    So the students start to help each other voluntarily, and 
in the first 5 to 6 weeks when we started this process and 
these kids started to do this without any help from the 
teachers--they were just in the same rooms--everybody said, 
``Oh, my goodness.''
    Ms. Woolsey. Thank you.
    The rest of you----
    Mr. Butler. Yes, I think we talked about what the reaction 
of the teachers are to reauthorization. I recently met with our 
math curriculum group and they said, ``Well, it is just another 
thing coming down the road, you know,'' because I was sharing 
with them the common core standards for mathematics, and I 
said, ``Here is what we are going to be doing,'' and they said, 
``Well, you know, we have a new president, a new governor,'' 
and all of these excuses.
    And what I told them is we are in a time in our history 
where we need to transform schools. We are not talking about 
reform; we need to transform schools.
    If we are going to meet the needs of the 21st century for 
our students we must transform, and that means that we are not 
going to go backwards. We are not going backwards to the way it 
was done in the 1990s or the 1980s or the 1970s, that we are 
looking forward. And that is the way it is going to be.
    So are there questions? There may be questions, but as a 
leader you have to say, ``Well, sorry. We are looking 
forward.''
    Mr. Simmons. I just want to add that teachers are asked to 
leave our schools if there is some really poor performance 
sustained over time. I don't want to leave the impression that 
no one leaves.
    Ms. Woolsey. No, you said very few.
    Mr. Simmons. Some do. Yes.
    Ms. Woolsey. You said very few; you didn't----
    Mr. Simmons. That is right. Very few. Right.
    Mr. Polis. Thank you, Mr. Chair.
    First, I want to congratulate all of you. Really, these are 
some inspiring stories and show that phenomenal job that many 
of you and your organizations have done turning around schools, 
closing the achievement gap through innovative and successful 
models, and providing hope and opportunity to those who have 
lacked it. It is wonderful to see how turnarounds are possible 
and that they can be done in a collaborative way.
    Before I got to Congress I was chair of our state board of 
education in Colorado, and I saw across the many districts in 
our state some cultures that were consistent with the kind of 
changes you are talking about and some school districts that 
resisted change and really had a resistance to tackling the 
core reasons behind their persistently failing schools that 
trapped families in a vicious cycle of poverty and ignorance.
    I am very supportive of our department's efforts to zero in 
on precisely these schools and A, deploy resources, but as 
importantly, B, pursue essential conversations and decisions 
that encourage and support change--real change at the school 
level.
    As Representative Thompson also alluded to, a recent study 
found that about 40 percent of schools in restructuring status 
did not take any of the five restructuring options required by 
law previously.
    And according to the department, over the past 8 years too 
many states and districts have demonstrated little success and 
little--and much unwillingness to undertake the kind of radical 
fundamental reforms necessary to improve schools that in many 
cases serve those most in need of educational opportunities.
    I would like to hear your views on a couple things. I will 
start with Mr. Silver.
    I was very much amazed by--in your story, in the story of 
your school--the culture of your district that encouraged 
innovation and change, and the fact that they actually built 
the center--the Cesar Chavez Center--not only for your school, 
they invited people to come in and say, ``We need new programs, 
new schools.'' What kind of led to that--to the district 
getting in that place where they said, ``We know we need to do 
something different,'' and how did they reach that point?
    Mr. Silver. Well, honestly, it was the community. There 
were about 2,000 people that came together at St. Elizabeth 
Church--around 2,000--through Oakland community organizations, 
and they partnered together and they said, you know--they 
looked at the APIs, the academic achievement, and the size of 
the schools in more affluent areas and they saw high 
achievement, they saw small schools. Then they looked at the 
poor neighborhoods in the flatlands of Oakland and they saw 
large schools and they saw low student achievement.
    And they said, ``This isn't fair. We need to do things 
differently.'' So they mobilized and partnered with the 
Coalition of Equitable Schools, with the Oakland Unified School 
District, to have the school board pass a resolution to create 
10 new small schools that were autonomous and had the exact 
flexibilities that we are talking about today--budget, 
staffing, curriculum, assessment, schedule. So that pressure 
and that collaboration led to the board making that change, and 
we were school number nine, and----
    Mr. Polis. So you were able to build the political--you 
know, always--generally the inertia not taking action is 
usually easier than taking action. You were able to build a 
political movement to make it the easier path taking action 
politically rather than continuing to avoid taking action.
    What suggestions do any of you have on how, from a federal 
level, we can help overcome resistance and barriers to reform 
through this ESEA reauthorization process to promote 
interventions that work and improve student achievement 
outcomes?
    Dr. Simmons?
    Mr. Simmons. I think the first and most important thing is 
to encourage the local involvement, to get people truly 
engaged. After the local school councils went into effect in 
Chicago--3 years, the scores started to go up; they have not 
stopped. It is in the testimony. For the prior 20 years they 
had flat-lined at about 10 percent on the Iowa Test.
    The only change that had taken place in those 3 years was 
the introduction of the parents and the teachers choosing the 
principal and deciding the use of the Title I money.
    Mr. Polis. So to be clear, what you are saying is get more 
local than the school district, whether it is neighborhood 
councils, charter schools, autonomous schools--bring it back to 
communities as opposed to kind of the larger district?
    Mr. Simmons. The State of Illinois legislature looked at 
what was happening in Chicago. They removed the Chicago Board 
of Education because of the lowest test scores and the 
incompetence. And in fact, people went to jail for corruption 
after that and they put in the councils to replace the 
authority and local accountability that is so needed and used 
in places like St. Paul, and Edmonton, and and the state of--
no, the country of New Zealand uses it across the country.
    Mr. Polis. I think Dr. King had a quick comment.
    Mr. King. Yes. The other thing I would recommend is to look 
at is systemically. And a lot of times the focus is the campus, 
and it may be system problems that are, you know, causing 
campuses to be stuck.
    So whether it is lack of vision of the leadership, whether 
it is, you know, political issues, you know, other types of 
issues, you know, not supporting--but a system that is allowing 
a campus to continue to fail. You know, to me the potential 
there, especially with multiple campuses, there are potential 
system issues then. I think looking at the system and not just 
the campus.
    Mr. Polis. Thank you all for your testimony.
    And I yield back.
    Ms. Chu. Thank you, Mr. Chair.
    Well, I was most impressed by all of you and the 
achievements that you have made in your school districts. And I 
was particularly impressed with you, Dr. Simmons.
    Coming from a heavily urban area myself, in Los Angeles, I 
certainly can relate to what you have been able to do and the 
fact that you have been able to turn around all of these eight 
schools and have sustained and improved results in six out of 
the eight over a period of 3 years is very, very impressive, 
indeed. What do you think was the problem that led to these 
low-achieving schools in Chicago that your program addressed?
    Mr. Simmons. I am sorry. What led to----
    Ms. Chu. What were the problems--the fundamental problems--
in Chicago that your program addressed and was able to 
overcome?
    Mr. Simmons. The leadership at the Chicago Public Schools 
came to us with a list of 200 schools that they were going to 
either close or reconstitute immediately, and we were asked, 
because of the work we had been doing in these neighborhoods 
for 15 years getting good results, they said, ``Can you take 10 
of these schools now?'' That was the problem. They did not want 
to close or reconstitute the schools.
    So that was the crisis. And none of them have had to be 
either closed or reconstituted of the ones they gave us.
    Ms. Chu. But what was it about the way that the schools 
were operating that you changed?
    Mr. Simmons. What was it we changed? What was it the school 
changed?
    Ms. Chu. Yes.
    Mr. Simmons. They changed their thinking about what they 
needed to do. When they saw the model that we had been using in 
other schools in the city they said, ``Oh, we are trying to do 
just that. That is what we want, but we don't know how to do 
it.'' So the answer to your question is, we helped them put in 
place what they had always wanted, and we trained them to do 
the putting in place as well.
    Ms. Chu. Well, in addition I am impressed that you make the 
professional development and training of teachers and 
principals lynchpin in your turnaround strategy. Rather than 
firing them arbitrarily and just dismissing all the staff at 
the school you try to give them the tools that they need to 
succeed. And what strategies and programs have worked to make 
teachers and principals part of the solution and why?
    Mr. Simmons. What programs? I am sorry. What----
    Ms. Chu. What strategies?
    Mr. Simmons. What strategies? Essentially, it was provide 
high-quality, on-site professional development for the teachers 
and the principals. We provided coaching as part of that so 
that they got coaching and training through workshops.
    There was support for the parents in learning the Illinois 
standards--something that we have not seen anywhere in the 
country yet--so that when the kids came home with the homework 
the parents knew what author's purpose, one of the Illinois 
standards, was all about, and they had exercises to use to help 
the kids.
    The same thing in helping the principal and the leadership 
team create a culture of trust. It already existed to a high 
level because of the engagement of the stakeholders through the 
local school councils. A lot of that was already there. We 
helped them enhance that.
    And finally, there was a focus on instruction--a laser 
focus--which used the eight-step system on the back of the 
testimony, which came out of Brazosport, Texas in the early 
1990s, roots in Mastery Learning, University of Chicago, even 
earlier. That lays out a very precise process for teaching, re-
teaching, helping the kids go into success time to get help 
from each other so that they master the standard.
    And the teachers get the feedback immediately every 5 to 7 
days. Have they taught correctly or not? So the rigor of the 
system was enhanced immediately.
    Chairman Miller. Thank you.
    Ms. Chu. Thank you.
    Chairman Miller. Just for those who aren't aware, in 
Chicago--correct me if I am wrong, John--every school has a 
school board. Unlike one school board for the district and 50 
schools, or 100 schools, or whatever it is, there it is local. 
Very local. Just so people understand when he talks about this 
connectiveness between school boards and schools, it is one-to-
one, so it is a little bit different than most of us experience 
in our districts.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
holding the hearing.
    One of the problems we have is that agencies tend to think 
of themselves as follows and only concentrate on their one 
area, and you end up with programs like--have things like zero 
tolerance, which works well for the school system but just 
transfers the problem to corrections. Everybody knows that 
there is a high correlation between dropping out and future 
incarceration and dropping out and teen pregnancy.
    Is anyone aware--anyone on the panel aware of any analysis 
or research which quantifies the social costs--the preventable 
social costs--for maintained a 50 percent dropout rate in terms 
of ongoing jail and teen pregnancy-related Medicaid and welfare 
costs? For a school of about 2,000 it wouldn't be a surprise to 
many areas to have about $10 million floating around in 
preventable costs.
    Let me ask it another way: Is it possible for a school to 
succeed if you are surrounded by social frivolities such that 
one of the programs in an area would be a safe passage program 
where volunteers have to ring the school so the children can 
walk to school without being criminally assaulted? Is it 
possible for a school to succeed in a situation like that?
    Mr. Simmons. There is very important data on the social 
costs of underperformance and failure. That data has been most 
carefully worked up by early child development people over the 
last 20 years now. It shows dramatically that if you can catch 
a child at the age of three to five and enhance their 
capabilities with very modest inputs you are saving $50,000 per 
person over their lifetimes.
    Mr. Scott. And if we made those investments in the 
community so that the community is--has less of the crime and 
other problems that you would expect the schools to do better?
    Mr. Simmons. Well, anything that will reduce the crime and 
stabilize the communities is a good investment.
    Mr. Scott. Okay----
    Mr. Simmons. All this data says that I have just reported 
is that when the quality of the learning goes up then you get 
this incredible improvement in lifetime earnings where people 
get through high school, they get through college.
    Mr. Scott. Thank you.
    I have a number of questions. I don't think I am going to 
be able to get through all of them.
    But let me just ask, when a school fails AYP there is a 
prescribed response, some of which has nothing to do with the 
failure. For example, if the students--English learners--fail 
after 2 years all the other students can sneak out the back 
door and run to another school, which does nothing to the 
problem. Does anybody think that is a good idea or should the 
response to a failure to make AYP have something to do with the 
cause of the failure?
    Mr. Silver?
    Mr. Silver. Yes, I mean 100 percent. I mean, I think one of 
the things that we need to figure out is, as we are--in 
whatever we are doing, it is good that we are looking at 
subgroups, but we need to make sure when we are looking at 
subgroups that any intervention or any support is tailored 
towards supporting them.
    Mr. Scott. Mr. Silver, you mentioned teachers. One of the 
problems we have is you have a teacher with an excellent 
reputation, they are likely to get recruited by a number of 
schools and have choices. And we are trying to set up an 
incentive program where the best teachers end up at the most 
challenging schools.
    If you have the situation that you have suggested where you 
get paid more when the students do better you would have an 
incentive to go to the better schools where the students are 
going to naturally do better. In fact, if you have a good 
teacher at a challenging school and a bad teacher at a good 
school, the good teacher's job is more at risk.
    How do we set up an incentive program where we actually 
incentivize the best teachers to end up with the most 
challenging schools without these perverse disincentives?
    Mr. Silver. That is a great question. I think the bottom 
line is, what I am talking about is student achievement growth. 
And I actually think it is easier to move student achievement 
when it is at dramatically low levels. So a student that is 
going to a--a teacher that is going to a school that has 
students that are more at risk or at lower achievement actually 
has a great chance to improve student achievement.
    Mr. Scott. And they would see that as a possibility of 
making more money?
    Let me try to get in one last question. Replicability--we 
have a panel of successes, but a school that is failing and 
looking what to do might not know exactly what you did to 
succeed. You may have had a charismatic principal or any other 
kind of thing. Do we have enough research and best practices so 
that a failing school would necessarily know what to do if they 
wanted to?
    Mr. Butler. I think if you look at themes across the panel 
today you will see the theme of collaboration; you are going to 
see a theme of community involvement; and I liked what Dr. 
Simmons said, when the teachers are voting programs within 
their school. I think all of those things are common themes 
that would run across any demographic in the United States.
    Ms. Johnson. I also think it is critical, though, that if 
you bring in supports for these schools earlier on--so you 
bring in some outside supports to help them assess where they 
are at, look at their data, talk about engaging the community--
that was a question earlier--you bring folks together and have 
them look at the data, see what is possible, and see where 
their deficits are particularly, whether it is an ELL 
population issue, whether it is an over-identification of 
special ed, or whether it is an overall student achievement 
issue, if you have got more support up front in that needs 
assessment and that planning process, that is going to allow a 
school to pick and choose among those research-based elements 
that they need to focus on most to get those critical gains in 
the beginning.
    Mr. Scott. There is enough research out there so they know 
what to pick from?
    Ms. Johnson. I think there is enough for folks to get 
started. I mean, everybody across here has identified those 
same themes. So that is a good clue to us that these are the 
themes.
    But no, there is not enough research to say, ``This is an 
exact science and we know that the instructional focus is, you 
know 80 percent of this, and the leader is 30 percent, or 20 
percent,'' whatever. We need more research to figure that out.
    But I would argue that it is not necessarily research in 
the traditional sense of these large random control trials that 
take years, but--while those have value and merit--but that it 
is really about this data collection in real-time. So look at 
all these models people are doing now and figure out what those 
core data elements are.
    Mr. Simmons. Yes. You asked if there was research that 
could guide schools in this situation. The answer is yes. And 
we do need more research, as well.
    But here is what the research tells us: The schools that 
are in our testimony in Chicago, based on 20 years of research 
in the city and around the country, including around the world 
with high-performance organizations like from the private 
sector--all these things show the same thing, and that is being 
put into the schools that we are working with.
    For example, schools that--the five essential supports in 
Chicago are one-tenth the level of performance as those schools 
that do apply them. So when you apply the essential supports 
you get 10 times the increase on the Illinois and Iowa Test 
scores. Pretty dramatic--in the research that's there.
    It is like baking a cake. If you leave out one of the 
ingredients of a cake you are not going to have a cake. If you 
leave out one of the essential ingredients, as the research 
shows, you aren't going to have a high-performing school. And 
we have got 20 years of data showing that.
    Chairman Miller. Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Chairman.
    I want to thank everybody for your testimony, because you 
certainly, in my opinion, pinpointed a number of things that we 
are being challenged with as we go forward on reauthorization. 
As you know, the blueprint that we are following certainly has 
a fairly large component for charter schools.
    And I have about five or six underserved areas in my 
district, and yet there is one school that comes under that 
underserved area that has 93 percent of minority students, but 
they have a superintendent, they have a principal, they have 
other teachers that all work together. Ninety-four percent of 
their students go on to college. The dropout rate is almost 
nonexistent.
    So when Secretary Duncan was here I said, ``Why are we 
looking at the schools that are failing? Why aren't we looking 
at the schools that are doing well?'' I have nothing against 
charter schools; I have a couple in my district. But the 
problem is, if we are going to start spending more money into 
the charter schools, that is going to come away from our public 
schools.
    And to me, the solution is, as all of you have basically 
stated, that if we don't put in the core components into our 
legislation we are going to be in the same place 10 years from 
now. I do not see the answers, you know, just by going into a 
new mold.
    So when we look at the effective collaborate leadership, 
strong emphasis on improving institutions, teachers supported 
and continually working together to increase their own 
learning, and a professional community, rich challenging 
circumstances, parent involvement--we had a program in my 
district, Project GRAD. It did terrific. Then we got a new 
superintendent and the project went out.
    The project went over to another high school, did terrific, 
still doing well. Unfortunately, we are hearing that our 
superintendent there will be leaving and we don't know.
    So if we don't do this on the federal level I am afraid 
that with all the great, you know, teaching programs and 
everything else that are out there, this has to become what we 
see as the future. What bothers me is everything that each and 
every one of you have talked about--why doesn't it make sense 
to develop a model that builds on these components, mainly 
because we actually don't have all these components in the 
blueprint?
    So I throw that out to you, what your opinion is. I know 
Dr. Butler, you are in a rural area. You would never have an 
opportunity, most likely, to have a charter school. And yet you 
took your school and turned it around.
    So I guess I would just like your input on what we are all 
talking about on improving education, which we thought we were 
going to be able to do with Leave No Child Behind. We have this 
opportunity now. The solutions, I don't think--you know, they 
are certainly challenging, but they are not difficult. I will 
take a response from anyone.
    Mr. Butler. I would agree with you that, you know, as I 
think about education and where we are going, you know, we are 
not--this isn't rocket science. You have people that care doing 
instructional strategies and curriculum and aligning to the 
standards, you are going to get improvement.
    One thing that jumps out to me as we were--as I listened to 
this discussion is the impact of the school leader. You 
mentioned that, you know, when a superintendent leaves maybe 
the program doesn't get continued, and that is a shame. But 
even there, you can evaluate a superintendent or put an 
evaluation in place for a superintendent based on national 
standards of school leadership that will encourage the person 
next to continue those programs.
    So I guess just the nature of being an educator, I like 
assessment and I like to know where we are all the time, and I 
like evaluation. So, you know, to make sure that those programs 
get continued, you know, look at how you are evaluating your 
superintendent, your high school principal. And if the school 
district wants that to be continued then that should be placed 
in there.
    Mrs. McCarthy. I will just make one final comment. I know 
that we are talking about looking at schools that are failing, 
but to be very honest with you, yesterday we had school board 
elections all across New York State for the budgets, and I am 
happy to say that the majority of schools on Long Island, 
anyhow, passed their budget, even during these economical hard 
times.
    But I will also say, looking at and following the scores of 
``schools that are really doing quite well,'' as they say, are 
actually not really doing that well. We have a number of 
students that are excellent; we get five to 10 winners every 
single year in some of the largest country competitions.
    But it is our middle school students which this country is 
going to need that need to also improve to race to the top. 
They are capable of it, but we work, certainly, you know, all 
we can with those students that are showing the brightest. But 
we also work very hard with those that need to go through IDA.
    But we tend to forget, sometimes, the larger population of 
students who are right smack in the middle, and I think we 
could improve on that with the programs that you are all 
talking about. Thank you.
    Mr. Tonko. Thank you, Mr. Chair.
    What I heard from a number of people--and let me thank the 
panel; I think you have provided a lot of insight that is 
valuable--what I hear is talk about incremental improvements 
along the way and using data that are collected to respond to 
some of the reforms that are required.
    The cost effectiveness of, Dr. Simmons, of your program as 
it relates to the progress with our students compared to some 
of the alternatives that are suggested out there--could you 
share any additional information with us on that cost 
effectiveness of your thinking, of your concepts?
    Mr. Simmons. Yes. The five essential supports model is very 
streamlined. It eliminates those elements that really are not 
highly cost effective.
    So what it concentrates on is what happens during the 
school day. That is one thing.
    And second, it finds that if you use the existing teachers 
and principals and train them up it is much less expensive than 
residential training programs that go on for a long time and it 
is very expensive to select those people in the beginning. 
Residential programs are fine; they are getting fine results.
    But the cost effectiveness is part of the problem, and that 
is why we get a $24 million tax saving over a 4-year period 
when you compare our program with schools that have the more 
elaborate programs--$24 million over 4 years for the eight 
schools. That is significant.
    Mr. Tonko. I have also listened intently about some of the 
comments made about Title I, and letting those dollars flow in 
accordance with formula and need. In my observation--and I was 
formerly on the Education Committee in New York State in the 
state legislature--and saw, and see today in the capital city 
of New York, a very difficult situation where there is a super-
saturation of competition that is taxpayer-funded that competes 
with the public system.
    In these given days of state and federal budget dilemmas 
there is not a finite amount of money that we can invest, and I 
think it is our highest priority of investment in education. 
Given that as a fact, where do we need to be in terms of--an 
observation is that the systems that don't get their 
appropriate Title I funded are those that are then failing, and 
then we throw the competition in that at times, in my opinion, 
is unfair competition.
    I chaired the Energy Committee when I was in the State of 
New York. I saw public power and all the good it brought, and I 
saw the private sector and industrial concepts that were 
brought by our utilities, where there is a for-profit column.
    Can we afford to pay for profit at a time when we can just 
funnel Title I monies into systems where the children are 
failing? Because if we did our job correctly in the beginning 
we might not need to get into this more perverse--any comments?
    Mr. Silver. I mean, I think that the bottom line is that 
schools that have high Title I populations--that have high 
poverty populations--in these economic times need more, and 
they are underfunded right now. And PTAs at more affluent 
schools are raising hundreds of thousands of dollars to offset 
this. We need to take this seriously.
    We need to make sure that we are--at this time of 
increasing expectation we need to increase resources not just 
to schools that are doing well, but to all schools that have 
high poverty populations. That is what I am saying.
    And I think that at the end of the day we need to have 
incentives to push districts so that they are going to provide 
the type of flexibilities that we are talking about that are 
necessary conditions and incentives and replications, and also 
any school that has a high poverty population, it is our 
responsibility--we need more funding for those schools.
    Mr. Tonko. Yes, sir. Dr. Simmons?
    Mr. Simmons. I think it is important to be very clear about 
what the root causes of these problems are we are talking 
about. Research has established decades ago that poor, low-
income children, minorities can learn to the very highest 
levels. That is established; that is out there; no one debates 
that any longer.
    So what is the problem? Well, when I look at it it looks 
like it is a leadership problem--leadership that is not 
informed, or is informed and unwilling to make the decisions 
that they need to make for all kinds of reasons, including 
political and financial reasons.
    So when you apply this research, as those of us who are 
sitting up here are doing, you get these amazing results. Well, 
let's apply the research.
    That is so obvious because when you do it you get these 
results and it doesn't take forever; we are getting schools 
turning around in 1 year. No one believed in Chicago that that 
could happen.
    Mr. Tonko. Leadership problem at what level?
    Mr. Simmons. At all levels in the system. Principals don't 
have the highest of expectations.
    The assistant superintendents feel that they have to 
supervise closely the failing schools with using management 
techniques that haven't been practiced in the private sector 
for 30 years. They aren't empowering people in the buildings.
    And at the superintendent level, they have got too many 
other things they are worried about and they aren't focusing on 
applying the research. That is as simple as I can state it in 
terms of the core reasons why we have these problems that you 
folks have to deal with.
    Mr. Tonko. Ms. Johnson?
    Ms. Johnson. I think when you look at funding and what can 
we do to make a difference that is, again, where you have to 
look at the whole system. And where we can get leverage 
points--I mean, to Dr. Simmons' point about leadership, how are 
we working with higher ed institutions and other institutions 
to equip--build a pool of qualified principals that know how to 
do school turnaround or to train the ones we already have? We 
could get a lot of mileage out of that because you can 
centralize what you are doing in sets of higher ed institutions 
and then put those leaders out into the field.
    There are other things like that I think we can do to think 
about funding the system and funding points of leverage for 
replicability without necessarily, you know, just going to each 
individual school piecemeal by piecemeal. That, I think, is too 
expensive of a proposition.
    Mr. Grijalva. Thank you, Mr. Chairman. Thank you for the 
hearing.
    Consistent themes: high expectations, leadership. I think 
following up on my colleague's question, the resources and 
attention that must be given to schools that have challenges, 
be it poverty, and be it underachievement. Those seem to be 
consistent points to this discussion.
    I want to ask about, you know, as we talk about school 
turnaround we must inherently, I think, begin to prepare 
teachers and schools for the transformation that is going on in 
the composition of our schools. And this includes the 
increasing number of children with primary languages other than 
English.
    And so let me begin with Dr. King, and anybody else--with 
this question: What is the important role in the turnaround 
strategy of having teachers prepared to address that particular 
need of children whose primary language is other than English--
--
    Mr. King. I think it is imperative. You know, down there on 
the border in South Texas, the districts I have worked in, the 
majority of the students, you know, come to school with a 
language other than English, basically Spanish being the 
primary language, and it is imperative that teachers have the 
training and everything.
    There, in both districts I have worked in, we have moved 
forward to basically the dual language concept and tried to 
develop both languages to a very, very high level. And we are 
at a point now of beginning to graduate cohorts of students who 
are college-ready in either language, and we have found that as 
a good way to accelerate.
    So in our case, having teachers that are well-trained in 
working with students--teaching a second language, and also 
having teachers that are well-educated themselves in the 
primary language to do a quality job in that language as well.
    Mr. Grijalva. Thank you.
    Mr. Butler. In Ridgway we had two families move into our 
district and we went from zero ELL students to 10, and we had a 
very hard time--and to be very honest with you, we were out of 
compliance because we could not service those students. Just a 
case in point, you know, when we tried to find a Spanish 
teacher it took us 1 year to find a qualified Spanish teacher, 
and that is even above and beyond the ELL students.
    So there are, you know--the challenge is, you know, when 
you have those fluctuations in my district, how are you going 
to address those students effectively?
    Chairman Miller. Go ahead and answer, Mr. Silver, because I 
was kind of mystified by how you were managing this exceptional 
caseload of ELL students.
    Mr. Silver. So when we started we had 0 percent of our 
students were at grade level or above. Now we have 54 percent 
of our ELL students are at grade level or above in ELA, and in 
math we have 80 percent.
    One of the things that we did was, as I said before, we 
observed at schools that had high ELL populations and saw what 
they were doing. We saw a couple of things: Number one, they 
had amazing teachers, so we went out and got the best possible 
teachers and supported our teachers as we went forward. Number 
two, they had different strategies, like thinking maps, where 
there could be visuals to support the English language learner. 
And number three, they had a reading campaign.
    When we looked at our data and we saw that only half of our 
students actually were reading at home, we knew we had to make 
a change. So we instituted a reading campaign where books were 
all over the school, parents were reading with their kids 
during the school day, and we challenged the kids to read 30 
minutes a day every single day for the rest of the year. And if 
they did that, at the end of the year they would have an 
incentive.
    One year I got on the roof; another year--right now my hair 
is kind of matted down, but it is actually fro'd out--and I am 
going to shave my head the last day of school if we reach our 
goal this time.
    The bottom line is, whether it is college, whether it is 
whatever, investing everyone in a big goal--and specifically 
literacy for ELL students--is a key component.
    Ms. Bridges. I think another piece that is important is to 
consider the needs of the families that support the school. And 
when you have many families for whom English is their second 
language we need to reach out to them as well.
    Culpeper has a liaison parent who is bilingual. She meets 
with parents, helps them fill out the forms necessary for 
registration, helps them navigate all of the things that they 
need to know when they come to this country, when the come to 
Culpeper, what are our expectations, what do they need to do as 
a parent.
    School can be a very frightening place even for parents for 
whom school was not successful or a happy place. When you are 
coming in with a language barrier that can be even more scary, 
so I think it is important to provide programs for parents 
reaching out to them to teach them English and give them 
opportunities to access the curriculum and our expectations in 
their own language.
    Mr. Simmons. So what I have heard this morning is the 
evidence is pretty clear that the answers are there. The 
question is why they aren't getting out there and being 
applied.
    This is where the federal government comes in. I think the 
federal government is the only hope in the country to help 
scale up these programs and provide the kinds of demonstration 
projects that need to be in every state so that people can 
easily get to see them.
    We get hundreds of people coming to visit our schools, but 
they don't have the money to travel more than a couple of 
hours. But they could travel to the demonstration sites across 
the country if the federal government were to actually focus on 
providing demonstration sites of these best practices.
    Mr. Grijalva. Mr. Chairman, I just want to thank the panel 
because the responses regarding English learners from the 
people that responded was many times that becomes an excuse, 
and you are approaching it as a resource that needs to be 
developed and given the same opportunity, and I appreciate that 
very much.
    Ms. Clarke. Thank you, Mr. Chairman.
    And thank you to the panel. Your dialogue has been very 
stimulating today.
    And I wanted to pick up on some of the points that my 
colleague, Mr. Tonko, raised. I am from New York City and our 
system was changed about 10 years ago to a narrow control 
system due to many of the findings that, I guess, happened in 
Chicago with school board corruption.
    But since then we have had some challenges. We have 
introduced the charter school movement, but it isn't scaled to 
the point where it helps the vast majority of public school 
students in the city of New York.
    My first question is to you, Mr. Silver. In your testimony 
you described how you turned around your school.
    One of the elements that you mentioned as being key in your 
school's success is that the teachers were required to observe 
the pedagogy at high-achieving schools. And it is my 
understanding that charter schools are supposed to be an 
incubator for innovative approaches to teaching and education, 
and charter schools are then supposed to disseminate their best 
practices to public non-charter schools.
    One of my concerns is that this information sharing has not 
happened and is not happening. However, your school seems to 
have bridged the gap. So would you discuss the relationship--
specifically the information sharing--between your teachers and 
the teachers at the public non-charter schools?
    Mr. Silver. Sure. One of the schools, I remember, we 
implemented a new program at our school in math and some of our 
teachers had some questions about it, and there is a school 
called Acorn Woodland in Oakland, which is achieving massive 
dramatic gains in a high-poverty population
    And so I contacted the principal--she was also part of the 
small schools movement--and said, ``Could we bring our teachers 
over there to learn kind of what is happening with yours?'' 
They went over and then after that observation that meant much 
more than whatever I could say or whatever some outside 
consultant could say in terms of that program, seeing the 
students in action. Similarly, that same school came and 
observed some of our teachers and some of the strategies that 
they were using and implemented them going forward.
    You know, one of the things that got me into this work, I 
remember when I was outside of the Teach for America office, 
where I used to work, and someone said, ``You know, why don't 
we create a new school?''
    And then I said, ``Well, you know, that is cool,'' but then 
I heard, ``Why don't we create new schools?'' The bottom line 
is, if we have networks of schools where people are 
collaborating, that is going to retain principals; that is 
going to retain teachers and spread best practices.
    Ms. Clarke. Let me ask you something. You mentioned you 
went to another small school. Is that school also a charter or 
was it non-charter?
    Mr. Silver. Right. So, we are not a charter school--Think 
College Now. That other school is not a charter school as well.
    So we have learned from charter schools; we have learned 
from non-charter schools; we have learned from Oakland Unified 
Schools. We have learned all across the board.
    I think the one thing that I would say, though, is that we 
need to do more sharing, and if we are going to make sure that 
our schools that are succeeding that are not charter schools 
within the public school district, we need to provide the 
charter-like autonomies for them to stay in the district and 
the resources that will allow that to happen.
    Ms. Clarke. My next question is for both you and Dr. 
Simmons.
    I find what you are doing in Chicago phenomenal, and I 
don't know if folks in New York have contacted you yet, but I 
will probably be calling.
    I firmly believe that parental and community involvement is 
often marginalized. It certainly has under the structure that 
has been set up in the city of New York, where it is a top-down 
governance structure, and pretty much the parental bodies that 
exist, if they don't agree with the leadership, oftentimes get 
shuffled around and changed.
    In fact, research shows that parental involvement and 
highly effective teachers are two of the keys to educational 
achievement. So I strongly believe that the importance of 
parental and community involvement--I believe in it so much 
that my support for the ESEA bill is a bit wavering because I 
just don't see where it exists in the turnaround models that 
have been put forth.
    With that said, parental and community involvement are key 
parts of the schools' turnaround success. My question is, what 
do you do to get parental buy-in at your schools?
    And second, you mentioned requiring parents to sign a 
contract to attest to the involvement in their child's 
education. How did your school handle parents who do not live 
up to their contract, and do you kick their child out of your 
school?
    Mr. Silver. We are a public school. We cannot kick out and 
have never kicked out a student of our school.
    The contract is an interesting thing. You know, what we say 
to families is when they are coming in our doors, say, ``Expect 
more from me as a principal; expect more from your teacher. And 
I am going to expect more from you as a principal.''
    So what the contract does is put something in that says, 
``Hey, if we want our kids really to go to college this is what 
it is going to take.'' If they are not going to--if a specific 
parent is not actually abiding by that contract, I am going to 
go to them, or our family resource center is going to go to 
them, and say, ``What is holding you back?''
    Our responsibility is to remove those barriers, to call the 
boss of someone and say, ``Hey, you are legally allowed to be 
here for 2 days without repercussions to make sure that you are 
at a parent conference.''
    Find out what the specific barrier is and try to remove it. 
I had a parent who was a founding parent of our school say, 
``You know, I wasn't really that into reading; I wasn't 
interested in this,'' but now is so involved and came to so 
many community meetings to create the school. We need to create 
incentives, remove barriers, and support for our families.
    Mr. Simmons. The way to get parent involvement? Well, you 
have the evidence, again, right in front of you with the 
experience in Chicago with the parent councils. There are eight 
parents and community members, two teachers, and the principal 
on that council.
    Our parent programs sometimes have 50 to 100, 120 parents 
come to these workshops. Why? Because it is directed at the 
parents' needs.
    The parents want most of anything--and we interview them--
survey them once a year--they want to help their children with 
their homework, and that is what we give them, the very best 
tools to do that. And they come. The council helps bring those 
parents out.
    So there is much more to this local school council thing 
than a lot of people really understand, because the principals 
depend on these parent councils to go out and handle parent and 
community problems. So it is really a collaboration that exists 
when these councils work.
    Yes, and there are about 10 or 15 percent of the councils 
that don't work in Chicago. That is just like the number of--
the percentage of Fortune 1000 companies that don't work--the 
governance of them don't work very well either. So I don't see 
that as a problem.
    But look carefully at the council thing. It has made such a 
difference, and a whole country like New Zealand, as well as in 
St. Paul, where they doubled their test scores in 4 years after 
putting in the councils. It took us over 10 years to double our 
scores, but still we got them there.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Miller. Thank you for 
bringing together this impressive panel to discuss best 
practices in school turnaround.
    Reforming our nation's dropout factories and their feeder 
middle schools in this ESEA reauthorization is a priority for 
me. As you know, I introduced H.R. 4181, the Graduation Promise 
Act, to address this issue.
    In Texas we are extremely proud of Dr. Daniel King's 
outstanding leadership and success in turning around our 
lowest-performing high schools.
    Dr. King, we greatly appreciate your taking the time to 
come to Washington for this ESEA hearing. Looking at your 
presentation and some of the graphs that you presented us with, 
it is very impressive to see the improvement that you have 
caused there in those schools in PSJA, and I just want to say 
that we are going to learn from what is working for us in deep 
South Texas so that nationally we can include it in the 
reauthorization.
    You accomplished the goal which naysayers had predicted it 
can't be done, and that was to improve and get more students to 
graduate from high school. I applaud your extraordinary 
leadership. My colleagues on this committee thank you for 
traveling and giving us your ideas on how we can use it.
    Sorry. I am so sorry, Mr. Chairman. I have been running 
from one committee to another and----
    Voice. We should dance. [Laughter.]
    Mr. Hinojosa. I am so sorry. I turned it off.
    My first question, Dr. King, is what elements are essential 
to any school or school district to reform the effort that you 
talked about? How have you been able to maintain continuous 
improvement? How have you been able to get these things done 
that have made the improvements at PSJA in deep South Texas?
    Mr. King. Well, I think, you know, I think that, you know, 
leadership and having a vision does matter. And, you know, I 
think, you know, believing in our students that all of our 
students, you know, can achieve well, not making excuses and 
identifying--in every community there are strengths. And so 
there on the border, you know, for years in a--you know, for 
many parts it was looked at that because our students are--it 
is one of the poorest areas of the country--that because they 
come from low-income households, migrant farm workers, 
immigrants, because Spanish is their first language--looking at 
those as excuses for not achieving.
    And we can also look at those students and those 
experiences and find, you know, many strengths, and we can take 
the language they do have and, you know, and build on that. 
Spanish, you know, comes through the Latin language, which is 
the root language of many--of science, and medicine, and so 
forth. If we strengthen students in that area, when they go on 
to the sciences they are going to have, you know, advantages.
    So valuing what they have from home--certainly teaching 
them English to a high level, but valuing what they bring, 
valuing the tenacity that comes from the migrant farm worker, 
from the immigrant who has fought to get to this country, 
looking at those things and identifying, and valuing, and 
empowering, and realizing that those students, you know, have 
great potential.
    Mr. Hinojosa. Tell me, what caught the attention of Melinda 
and Bill Gates about your work that they would want to invest 
in expanding your work down in deep South Texas?
    Mr. King. Well, one of the things is that--I think a 
viewpoint of not looking in many cases--you know, going beyond 
the early--initial early college high school concept, which is 
pulling some students together, whether they be chosen by 
lottery and everything, and looking at scaling up and for all 
students.
    So whether in Hidalgo, where the high school is 800 to 
1,000 students, turning the entire high school into an early 
college high school, or in PSJA, opening--yes, it is an island 
of excellence there at T-STEM Early College High School, but 
from the very start saying this is going to be open to impact 
the 8,000 students, and not being satisfied with 400 students 
who attend that high school and do great things, but how can 
that impact the entire district?
    And not bring in visitors over to see that school while the 
other schools are failing, but how can that school be used to--
basically to help us transform the entire district to show what 
is doable for all students then there is not excuse not to do 
it for all students, so----
    Mr. Hinojosa. Thank you.
    Mr. King [continuing]. It is the all student approach.
    Chairman Miller. Mr. Holt?
    The bells you hear, we have votes starting here so I want 
to make sure we get through the----
    Mr. Holt. Thank you, Mr. Chairman.
    And thanks to the witnesses for really excellent and 
uplifting testimony.
    Our job, of course, is to devise legislation to scale up 
successful schools to serve all 50 million schoolchildren in 
America, and you have laid out a number of what sound like 
necessary ingredients of professional development, and learning 
teams, and engaging parents and community members. Let me focus 
on one thing that has come up from several of you.
    I would like to hear first from Dr. Simmons and Susan 
Bridges with regard to assessments, and if time allows maybe 
from others of you. You have talked about benchmark assessments 
and growth model assessments with real-time feedback weekly, 
monthly, disaggregated data used in real time to guide 
instruction.
    Three questions: Is that essential for school success? If 
it is essential, how is that written into legislation?
    And third, what is the teacher's role in this? How do you 
get teacher buy-in for these assessments? Do they have a role 
in developing the assessments school-by-school?
    Mr. Simmons. I am happy to start that. Yes, assessment is 
essential.
    Tell me how teachers get feedback unless they have data. 
They don't know if the lesson is taught properly or not. In our 
schools they get the feedback every 5 to 7 days by looking at 
the assessments that they design around those specific Illinois 
standards.
    Second, how does it get into the legislation? I may have to 
think a little bit about that one because of the process.
    But let me go to the third point: how to get the teacher 
buy-in. As I mentioned earlier in my testimony, schools are not 
accepted in our effort unless they get a vote of 80 percent of 
the teachers in each school, and a buy-in to the assessment 
process as well.
    It is the eight-step assessment process developed in 
Brazosport, Texas in the early 1990s. It is used in many cities 
all over the country, and including the Broad Award people in 
Aldine, Texas, for this year--this year's Broad Award.
    Mr. Holt. Got it. Okay.
    Mr. Simmons. So that is how we get the buy-in. They agree, 
and then we have them--that is the first piece.
    The other piece, and even more important, is that they then 
need to participate in the selection of the assessments, in 
reviewing the assessments, in making sure that they work well. 
So we get the buy-in incrementally as they get--participate 
more and more in the process of applying the assessments.
    So we get big time buy-in by the time the first 6 months is 
done, a year, from virtually all the teachers. They say, ``This 
is the best thing we have ever had; why haven't we had this 
before?''
    Ms. Bridges. I would agree, assessment is essential. You 
can't tell where you are going unless you know where you are, 
and the assessment gives you that information.
    Buy-in, I agree, teacher selection is critical, but also if 
you put the data in their hands and teach them how to use it, 
that is critical. You can hand them a piece of data and they 
don't know what it means. You have got to give them the time 
and the training to say, ``How does this data affect my 
instruction? What does it tell me about my instruction?''
    It is amazing how it removes excuses, because data is not 
subjective; it is objective. It is what it is. It tells a 
story.
    And if you can get teachers looking at the data and using 
it as the discussion point as opposed to, ``Well, I think--
well, I think this is what is going on,'' or, ``Well, I think 
Susie had a bad day,'' or--the data just tells a story.
    So I think the key to the buy-in, once they see that the 
data really does reflect on their instruction and it really 
does tell them what direction they are heading and what 
direction they need to go, you will get the buy-in. It is a 
payoff.
    Mr. Butler. I would also suggest, we attempted to do our 
benchmark assessments in our school district online so we could 
have that immediate feedback. Our technological infrastructure 
could not handle that, and therefore we still have a 2-or 3-
week lag to get our benchmark assessments.
    So I would just ask that any consideration be given that 
the capacity for the school districts to actually be able to do 
an online benchmark assessments would be there----
    Mr. Silver. I think this is totally essential--benchmark 
assessments--and I think the key to ensuring that teachers have 
investment in it is, number one, that it informs instruction. 
And the way that it will inform instruction is making sure that 
it is not only aligned with the high-stakes test, but also the 
specific standards that they are teaching as well as that there 
is time and tools to be able to use that data effectively.
    Mrs. Davis. Thank you, Mr. Chairman. I am sorry I missed 
the best practices discussion, but I really wanted to get in 
and have a chance to just hear perhaps the last few minutes.
    I wonder if--and it may be that you have dealt with this--
talking about principals, because we know how important a 
principal is. I know that you have discussed this.
    When it comes to teacher evaluation I think we have some of 
the ideas about on what you base that in terms of data. What 
specifically do you think are one or two of the most important 
ways to actually evaluate principals? And secondly, how do you 
recruit some of the best individuals--and they may be from 
education, they may not be--to head up some of our schools that 
could use the kind of assistance from a very energetic and 
qualified administrator?
    Mr. Butler. I think the first thing that you must look at 
are the standards of how you will evaluate the principal and 
you look at data. There is no question about it--you must look 
at the school data.
    Now, that data could be student achievement data, it could 
be--they call it 360-degree evaluation, where you have 
community data, student responses, all those different aspect 
of being a principal are in that, because being an effective 
principal is essential--is absolutely essential--for any school 
turnaround, regardless of the model.
    Mr. Silver. I would agree with that. The number one thing 
is that any evaluation in it needs to be focused on data, 
whether it is principals, whether it is schools, whether it is 
teachers. And when we are talking about data it can't just be 
high-stakes testing data. It also needs to be focused on 
growth. It needs to have multiple measures as well.
    And in terms of support, I think that looking at networks 
that have worked, like New Leaders for New Schools, looking at 
pipelines through Teach for America, looking at other programs 
that are getting strong people in our system is essential.
    Ms. Bridges. And continuing with mentoring programs for new 
principals. To jump into a principalship, even if you have been 
an assistant principal--not all models of assistant principal 
roles are the same.
    The assistant principal role should be a training for a 
principal, but in some cases they are delegated the discipline, 
the stuff that the principal doesn't want to do. So when an 
assistant principal finally does become a principal it can be a 
real eye-opening experience to all the things that are 
required.
    So mentoring, an experienced principal being paired with a 
new principal will really provide that support and those 
resources that they need to be successful and be a successful 
leader.
    Mr. Simmons. The best way to get the evaluation done on the 
principals? Talk to the stakeholders. Don't forget the parents; 
they are absolutely crucial.
    People think that independent schools have a great way of 
creating and sustaining principals. Well, those are parents on 
those independent school boards, on those charter school 
boards. And the local school council in Chicago handles that 
because those parents do evaluate the principal, and they 
remove them.
    And in the first 6 years of school reform there was a 
turnover of 80 percent of the principals. Who did that? It was 
the councils. Yes, some left voluntarily.
    So this is an amazing little feedback mechanism that is 
built into this governance that is so locally organized because 
it is my child that is getting a bad teacher, and that 
principal is responsible for that.
    Chairman Miller. We are out of here. I want to thank this 
panel. This has been a remarkable morning.
    You know, concerns of this committee and many who are 
involved in the reauthorization outside in the greater 
education community has been that these four categories that 
the administration suggested in their blueprint, which were put 
forth for us to comment on and look at, are really sort of 
going back to your baking the cake. You can bake a cake in a 
microwave; you can do it in an oven; you can do it over a 
campfire, but if you don't have the ingredients it really won't 
matter.
    And so you can choose to say, ``We are going to turn around 
a school; we are going to reconstitute a school; we are going 
to close a school.'' It won't matter if you don't have these 
ingredients in place.
    And I think what you have shown us is that these are 
common, they are important--the collaboration, the buy-in, the 
community, the leadership, the empowering and the professional 
development of teachers. If you don't do these things--and you 
have to more or less do them together--you are not going to 
turn around much of anything.
    The other one that seems to me that is very interesting 
here is this constant discussion about independence and 
autonomy. For you it would be independence at the 
superintendent's level. For Dr. Simmons, it seems to me, it is 
independence from the superintendent in a large, centralized 
system, and he has had some rather legendary battles with this 
current secretary about what independence meant.
    So again, but it is the same issue, whether it is in the 
small, rural district or whether it is in a large, suburban 
district or a large, urban district. And what is sort of 
emerging for me is that these four choices are interesting, but 
they have got to be fleshed out here.
    And what we tried to here was present--and a number of the 
other panels--that there is a portfolio of things you need to 
bring to this problem of getting better performance out of 
these traditionally low-performing schools.
    And what is emerging in my mind is the sense that there is 
a tradeoff here between flexibility and responsibility for 
success, and if we are willing to grant people and provide--and 
they are responsible--to provide them that flexibility to make 
these choices about the ingredients--I think you would need 
sort of a critical mass of them--but you may change them, then 
we have got to sort of get out of the way.
    And, you know, everybody here has talked about the 
importance of data and what it drives. I am a believer that 
that is just a fundamental platform in today's education 
system. Teachers need--want, after they get it--data, and it 
does that.
    So this has really been helpful, and I want to thank all of 
the witnesses and thank the staffs for putting together this 
panel. I think you see the response from the members of the 
committee. There are a lot of sort of urban legends out there 
why things don't work or the way things really are, and yet, in 
every one of these in those various situations you are modeling 
success, and that is really exciting.
    We don't get a chance to do success very often. So this is 
really----
    Thank you very much. I won't go on.
    [Questions submitted by Hon. Dina Titus, a Representative 
in Congress from the State of Nevada, and their responses 
follow:]

           Questions Submitted By Ms. Titus to the Witnesses

    Thank you to the witnesses for being here today.
    It is inspiring to hear about the ways that schools across the 
country have been able to turn themselves around. My Congressional 
District is part of Clark County, Nevada, which has the fifth largest 
school district in the country--and encounters all of the issues that 
go along with that--so I know that there are some schools that need a 
drastic change. But I also believe that as this committee moves forward 
with reauthorizing ESEA, we must make sure that we are not 
disincentivizing the great principals and teachers we need in 
struggling schools from taking on the challenge of turning them around.
    One high school in Clark County several years ago was called ``the 
worst high school in America.'' A new principal took over less than 
three years ago, and under her leadership the school is making good 
progress--the graduation rate has gone up, the drop-out rate has gone 
down, attendance rates are up, and the achievement gap is narrowing. 
These indicators are not where they need to be yet, but the school is 
moving in the right direction. Yet under the current AYP model, even if 
a school is making progress, the school may be forced to continue to 
take on additional, ever more drastic steps to change the school in 
ways that may interfere or interrupt the strategies that are working--
and may force the school district to replace the principal who is 
making such good progress. In addition to losing a great leader, this 
type of system can also create a disincentive for great principals to 
move to struggling schools.
    Given all of your experiences, how long does it take to turn around 
a school? What are your suggestions for an accountability system that 
is not all or nothing--one that allows schools to implement turnaround 
strategies and gives the strategies sufficient time to work, yet still 
ensures that schools are making progress?
                                 ______
                                 

           Responses From Ms. Bridges to Questions Submitted

    Regarding how long it takes to turn around a school, there are many 
factors that can affect the timeline. Generally speaking, 3-5 years are 
needed for sustainable turnaround. Turnaround greatly depends on the 
buy-in from the staff; the first year should be a year of no major 
changes, but rather, data collection, observation and careful 
identification of strengths and weaknesses. After that, specific 
strategies to address weaknesses must be implemented and given time to 
determine whether or not they are effective. By the third year, if 
strategies are effective, change should be evident. Sustainable change 
has to be based on concrete data and it takes time to collect the data 
that will best define in what direction to move.
    How one creates an accountability system that is not all-or-nothing 
is not an easy answer. My number one recommendation would be to move to 
a growth model, which looks at baseline data and then sets an 
acceptable percentage rate of growth for every student over a defined 
amount of time (presumably, one school year). Assessments should be 
collected on all students at the beginning of the year and administered 
again at the end of the school year
    to determine the rate of growth, rather then relying on one test 
given on one day at the end of the school year. In addition, 
``benchmark'' assessments should be administered throughout the year to 
track progress so that adjustments in instruction and pacing can be 
made immediately. Schools should be accountable for the growth of all 
students. Not all students start at the same point; therefore, they 
cannot be expected to reach the same finish line at the same time. 
However, all students can be expected to demonstrate a rate of growth 
relative to their skills and abilities.
                                 ______
                                 

            Responses From Mr. Butler to Questions Submitted

    Thank you for the opportunity to respond to your question. I think 
your question really cuts to the chase as far as the challenges that 
school leaders face when tackling a school turnaround project.
    Your first question is insightful because policy makers must 
balance the competing needs of time and ultimate accountability. I 
believe strongly in order to turn around a school all stakeholders must 
be engaged and have input into the direction the school is going. The 
first step is for the school board to establish non-negotiable goals 
for student achievement and instruction. This sets the tone for the 
entire school district. Resources of the school district will be 
aligned to allow for maximum effectiveness of the implementation of the 
goals. The next step is to have each individual school's faculty and 
staffs create mission and value statements that reflect the 
idiosyncrasies of the school while also addressing how the school will 
reach the goals set by the school board. This process is vital because 
the staff will formulate and create goal and value statements based on 
their input. Another step is for community engagement with the schools 
and the school district. The goal here is for the school to become 
totally transparent in their operations and structures. For example, 
after a community meeting, there may be disagreement about a value that 
the staff felt was already present in the school system. Obviously, 
this would need to be addressed. Finally, the input of the students is 
vital at every step in the process. The schools are in existence to 
assist them so their participation on committees and gathering 
``student voice'' is vital. I have just described a ``systems'' 
approach to changing a school. Systems thinking takes into account the 
engagement of all stakeholders. There are many sub-steps within the 
steps I described (curriculum development, instructional audits, etc), 
but to have a significant turnaround all stakeholders must be engaged. 
This is what we have tried to do in our school district. I think the 
minimum amount of time needed to start seeing significant results is 
three years.
    An accountability system must have the ability to show growth of 
student learning over time. In other words, I am advocating for a 
``value added'' accountability system. I believe any school turnaround 
experience that is successful must focus on data that allows the 
educators to analyze the achievement progress of a student. 
Professional Learning Communities are formed around groups of teachers 
analyzing just this type of data so they can adjust instruction and 
curriculum to meet the needs of the students. In Ridgway, ``Value 
added'' data is more important for our school district because it 
allows the teachers to adjust what they do in class in mid stream.
    One final note: I encourage you to resist the call for a ``one size 
fits all'' approach to school reform. As I stated in my testimony, the 
four frameworks proposed by USDOE are unworkable for our small, rural 
school district. A better idea may be an expanded list of options for 
school district to choose from with a proviso to also create one of 
their own. I feel very confident that our school district is improving 
student achievement. However, our ``model'' is not reflected in any 
framework proposed by the Department of Education. Our model addresses 
the needs of our school district and community and is always being 
adjusted as new information is available. Our model may not work in 
another school district, but it does work for us and that is what is 
important.
                                 ______
                                 

           Responses From Ms. Johnson to Questions Submitted

    Representative Dina Titus (D-NV) asked:

    It is inspiring to hear about the ways that schools across the 
country have been able to turn themselves around. My congressional 
district is part of Clark County, Nevada, which has the fifth largest 
school district in the country--and encounters all the issues that go 
along with that--so I know that there are some schools that need a 
drastic change. But I also believe that as this committee moves forward 
with reauthorizing ESEA, we must make sure that we are not 
disincentivizing the great principals and teachers we need in 
struggling schools from taking on the challenge of turning them around.
    One high school in Clark County several years ago was called ``the 
worst high school in America.'' A new principal took over less than 
three years ago, and under her leadership the school is making good 
progress: the graduation rate has gone up, the drop-out rate has gone 
down, attendance rates are up, and the achievement gap is narrowing. 
These indicators are not where they need to be yet, but the school is 
moving in the right direction. Yet under the current AYP model, even if 
a school is making progress, the school may be forced to continue to 
take on additional, ever more drastic steps to change the school in 
ways that may interfere or interrupt the strategies that are working--
and may force the school district to replace the principal who is 
making such good progress. In addition to losing a great leader, this 
type of system can also create a disincentive for great principals to 
move to struggling schools.
    Given all of your experiences, how long does it take to turn around 
a school? What are your suggestions for an accountability system that 
is not all or nothing one that allows schools to implement turnaround 
strategies and gives the strategies sufficient time to work, yet still 
ensures that schools are making progress?

    Question 1: How do we ensure we do not create disincentives for 
great principals and teachers to take on the challenge of turning 
around struggling schools?

    Answer: Policies and funding must focus on training, attracting, 
rewarding, evaluating, and retaining highly effective teachers and 
leaders, especially in hard-to-staff schools and districts.
    Representative Titus, research supports your statement that great 
principals and teachers play a critically important role in 
transforming student achievement. Teacher quality is the most important 
component of a school's effect on student learning. Leadership is 
second only to classroom instruction among all school-related factors 
contributing to student learning. (Leithwood, Louis, Anderson, & 
Wahlstrom, 2004; Harris & Sass, 2009). Unfortunately, leaders such as 
the principal of the Clark County school you describe are not in great 
enough supply to lead our struggling schools. It is important to focus 
on building the supply of effective leaders.
    The Institute of Education Sciences (IES) recently commissioned a 
panel of experts to author Practice Guide on Turnaround Schools 
(Herman, Dawson, Dee, Greene, Maynard, et al., 2008). In 10 of the 15 
case studies analyzed, the leader was replaced and a new leader led the 
charge. In contrast, in five of the schools, it was the existing school 
leader who changed the school's culture, leadership structures, and 
instructional focus. Thus, as you argue, while the research does 
support a change in leadership in turnaround schools, it is possible 
for an existing leader to embark on this path.
    Our May 2009 research report, Hiring Quality School Leaders: 
Challenges and Emerging Practices, funded by the U.S. Department of 
Education, describes the challenges common to all school districts in 
attracting and selecting effective school principals. These challenges 
are as diverse as disregarding relevant school and district data, 
failing to determine and understand the needs of the school, and 
casting too narrow a net when searching for candidates.
    Federal policy can support innovative programs to select, prepare, 
assess, incentivize, and support principals in turnaround schools. 
Higher education institutions, state agencies, and outside providers 
can all contribute to the preparation of turnaround leaders. In 
addition, principals and district leaders taking on the turnaround 
challenge should be provided opportunities to network with other 
leaders. The accountability system, which I address later, should 
provide room for improvement over a period of time and encourage 
frequent use of data to adjust turnaround strategies. Finally, monetary 
incentives for meeting achievement outcomes can be used to reward 
effective leaders.
    Policies in support of teachers are also critical. As I noted 
earlier, effective teachers are essential in improving student 
achievement. Since schools in the bottom 5 percent--urban or rural--
often have difficulty attracting and retaining highly effective 
teachers, policies should provide options for both replacement and 
intensive retraining of existing teachers. Teacher training must extend 
far beyond traditional professional development and include 
opportunities such as apprenticeships and intensive boot camp--like 
instruction. For new teachers, higher education institutions should 
create specialized training programs for placement in turnaround 
schools. Teachers who will be retrained should undergo intensive 
trainings, visit high-performing schools in similar settings, and have 
access to mentors and coaches in their classrooms who can model lessons 
and coteach with them. Teachers need to see the desired instructional 
approaches in action, with their students, for optimal performance. 
Finally, incentives such as a positive school culture, time for teacher 
collaboration, and monetary performance incentives should all be 
considered.

    Question 2: How long does it take to turn around a school?

    Answer: Turning around a school involves changing the trajectory 
not only of student achievement, but of culture, expectations, and 
commitment by staff, parents, and community members. This process 
generally takes at least two to three years, although select indicators 
in the first year can likely provide insights into longer term success.
    Although experts agree that high-quality teachers and leaders will 
be essential to the success of turnaround efforts, researchers and 
policymakers disagree about what constitutes a successful turnaround. 
The IES Panel described earlier defined turnaround schools as those 
schools that began as chronically low-performing but then demonstrated 
dramatic gains in student achievement in a short time, defined as no 
more than three years.
    The timeline and intensity differentiate turnaround efforts from 
other school improvement initiatives. Turning around a school, in this 
context, means that the school has emerged from the triage state and is 
making steady progress. It does not mean that the school transformed 
from low-performing to high-performing within this short time frame. We 
do not yet have the research or historical knowledge to know how long 
it actually takes to create a consistently high-performing school.
    Measuring progress on school turnaround is challenging for a 
variety of reasons. Every school starts at a different place, with 
different levels of achievement, teacher and leader effectiveness, 
school culture, external supports, community engagement, and general 
commitment to change. In addition, every school uses different 
measures, and each state has its own set of accountability metrics, so 
the comparisons of progress that can be drawn are relatively few.
    We need a national reporting system for school turnaround data, so 
that we can answer the questions about the type and number of gains we 
should see during the turnaround process. For example, we know from 
existing evidence that the school leader needs to signal a dramatic 
shift in culture and expectations at the start of the first year of the 
turnaround effort. The leader needs a ``quick win'' within the first 30 
to 60 days of school. What we don't know is which changes are most 
successful and which are not. Collecting this information is the first 
important step to refining school turnaround and establishing 
appropriate performance benchmarks.

    Question 3: What are your suggestions for an accountability system 
that is not all or nothing but one that allows schools to implement 
turnaround strategies and gives the strategies sufficient time to work, 
yet still ensures that schools are making progress?

    Answer: The accountability system must include multiple prioritized 
measures, including student growth, and must require--not just provide 
guidance on--significant changes when targets are not met.
    Researchers and policymakers have not reached a firm consensus on 
the measures of a successful turnaround. However, we do know that 
dramatically improved student achievement is the bottom line. The 
challenge is to create a transparent, fair, and ambitious target for 
each school. The targets must take into account the characteristics of 
the school as it entered the turnaround process. A target for 
improvement in student achievement in Year 1 is different for a school 
with student test scores in the single digits than for a school with 
student test scores at 40 percent of state standards. The longer term 
targets, though, should be the same for both schools. Collecting 
progress on a national level will provide insight into whether the 
levels are set appropriately.
    In addition to student growth targets, measures of the key 
contributing factors to successful school turnaround should be used for 
ongoing assessment of the school's progress. These can be used both for 
reporting progress and for self-monitoring on behalf of the school.
    The key is to create a monitoring system that (1) provides enough 
data for school leaders and teachers to make informed decisions about 
their practice regularly and not just at the end of the semester and 
year; and (2) provides data at regular intervals so there are no 
surprises in student outcomes at the end of the school year.
    Schools with strong accountability systems coupled with early 
indicators and monitoring systems will know what to expect when they 
see their annual assessment data. An accountability system at the 
federal level that includes multiple measures can foster this type of 
monitoring at the school level.
    Several states have provided schools and districts with rubrics for 
needs assessments and a set of required leading indicators that can 
offer some ideas for measurement. However, it is critical that the 
factors span the key elements of turnaround (not just measuring what is 
easy to collect) and that they are evaluated objectively.
    Potential indicators of success are proposed in each of the 
following areas:
<bullet> District Readiness and Competency
    The district plays a critical role in the success of an individual 
school's turnaround effort. The district will be responsible for 
ensuring operating autonomy, providing necessary supports to the 
principal, aligning other efforts from feeder schools, supporting 
hiring, and quite likely replicating the process in other schools.
    In large urban settings, there is often an office of school 
turnaround that functions as the district support. In medium-size urban 
districts and smaller rural districts, the district administrative team 
adds these responsibilities to their current workload. A district's 
readiness to take on turnaround and its ability to sustain the process 
are critical elements to measure. Currently, the urgency to begin the 
work is shortchanging the time and resources devoted to the entire 
needs assessment. The turnaround effort has not focused enough on the 
importance of the district's role. In some cases, a change in district 
leadership at one or more levels is needed to foster turnaround at the 
school level.
<bullet> Student Growth
    States, districts, and schools are moving toward the use of 
benchmark assessments (3--4 times per year) to assess student growth 
and predict performance on high-stakes exams. Many schools have created 
their own assessments, others have purchased systems from assessment 
companies such as the NWEA Map assessment and the Wireless Generation 
mClass. In the long term, as the Race to the Top--funded state 
assessment consortia come together on common assessment practices, we 
will be able to compare data more easily across settings. In the short 
term, allowing schools to submit progress on both benchmarks and annual 
summative assessments may be beneficial for examining student growth.
<bullet> Strong Building Leadership
    In 2008, Public Impact released School Turnaround Leaders: 
Competencies for Success, which provides specific expectations and 
behaviors for turnaround leaders. The Learning Point Associates Quality 
School Leader Identification Tool also has a rubric for leadership 
assessment. These tools and others like them can form the basis for 
measuring leadership performance semiannually. In addition, questions 
for the school and district about the level of operating flexibility 
and autonomy of a school should be included in the overall assessment 
of leadership. I recommend that the state or an external third party 
perform this assessment. Feedback and coaching could then be provided 
to the leader, if needed. The leader could also be recommended for 
removal, if necessary, in order for the school to receive continued 
funding.
<bullet> High-Quality Teaching and Instructional Focus
    Simple metrics in this category include instruction time in ELA and 
mathematics and the number of highly qualified teachers in the 
building. As teacher evaluation systems are built to include multiple 
measures, these structures can be used to report on teacher 
effectiveness for turnaround schools. These will likely include a blend 
of student growth data, teacher observations, and some form of peer 
feedback.
<bullet> Learning-Focused Culture and Climate
    Basic metrics in this category include teacher and student 
attendance, truancy rates, number of disciplinary incidents, and the 
dropout rate. Other measures might include examining whether the school 
has an early warning system in place and whether it is working; 
surveying teachers, students, and parents to measure the level of 
engagement; and conducting interviews with a sample of teachers and 
leaders to determine whether there is a pervasive set of high 
expectations for all students.
<bullet> Nonacademic Supports for Students
    At the end of the day, research shows that factors outside the 
school day have a profound effect on student learning. Turnaround 
schools must have in place supports for students beyond the traditional 
school day, as well as targeted plans for parent engagement. It is 
critical to provide a variety of life-enriching experiences in the 
arts, sports, and project-based learning with nurturing adults, as well 
as supports for health and human services that are often inadequately 
funded in high-need areas where these schools tend to exist. Basic 
metrics might include the number and types of supports provided to 
students and families by the school and the number and types of 
supports provided by outside agencies in support of the turnaround 
effort. Metrics can also measure students' perception of self-efficacy 
to help determine the growth of their belief in a future for 
themselves. A more in-depth analysis would explore whether the supports 
both academic (afterschool remediation and enrichment programs) and 
nonacademic (community/social services based programming and supports) 
are aligned with common goals and objectives.
<bullet> Staff and Community Commitment to Change
    Commitment is perhaps the most critical element, but one of the 
most difficult to truly assess. Some programs have required formal MOUs 
or contracts with teachers and parents to signify commitment. Others 
foster commitment through deep teacher and parent engagement in the 
turnaround process. Basic metrics might include the number and types of 
events hosted for parents, the number of parents attending, and the 
number of teachers committing publicly to the turnaround program. While 
surveys given multiple times can capture some of this data, site visits 
from an external party really are necessary to observe whether leader 
and teacher actions are demonstrating strong commitment. Site visits 
would include observing teachers (do they collaborate regularly; do 
they demonstrate high expectations for students; are they focused on 
the goals), interviewing teachers and leaders, and speaking with 
parents to gauge their level of understanding and commitment to the 
process.
    The system of accountability that the Committee develops should 
include a balance of sanctions and supports. For instance, SIG funding 
should continue to be offered as a support, providing intense funding 
for schools to turnaround that can be used not only for outside 
partners but also for creating incentives for teachers and leaders who 
rise to the challenge of transforming these schools. At the same time, 
for schools that fail to show signs of improvement within two to three 
years with supports, more dramatic action, in the form of sanctions, 
should be taken. We know from NCLB that when schools in restructuring 
were provided nonregulatory guidance, 40 percent of them chose to 
ignore it (Manwaring, 2010).
    As I suggested earlier, policies must be flexible to meet the needs 
of individual schools because every turnaround school faces a unique 
set of circumstances. One district accountability example you might 
examine further is the implementation of the Strategic Staffing 
Initiative in Charlotte-Mecklenburg (Travers & Christiansen, 2010). New 
principals were hired at turnaround schools and were given three years 
to implement reforms before being held accountable because the district 
recognized that turning around a school is a complex process that does 
not happen overnight. However, the district also monitored progress of 
the turnaround efforts over time with a number of metrics to ensure 
that the school was headed in the right direction. These measures 
included school progress reports, school quality reviews that were led 
by external review teams, and evaluations of the implementation of the 
school's improvement plan.
    In summary, teachers and leaders are at the heart of the turnaround 
effort, and substantial resources must be directed at a large scale 
overhaul of teacher and leader development. The definition and duration 
of time for turnaround are unclear, but we should establish common 
national metrics to assess progress regularly, starting with the first 
semester of Year 1. Finally, policies need to combine sanctions with 
rewards to incentivize those that are improving and take stronger 
actions where they are not.
                               references
Harris, D. N., & Sass, T. R. (2009). What makes for a good teacher and 
        who can tell? (Working Paper 30). Washington, DC: National 
        Center for Analysis of Longitudinal Data in Education Research. 
        Retrieved June 4, 2010, from http://www.caldercenter.org/
        upload/CALDER-Working-Paper-30--FINAL.pdf
Herman, R., Dawson, P., Dee, T., Greene, J., Maynard, R., Redding, S., 
        & Darwin, M. (2008). Turning around chronically low-performing 
        schools: A practice guide (NCEE 2008-4020). Washington, DC: 
        National Center for Education Evaluation and Regional 
        Assistance, Institute of Education Sciences, U.S. Department of 
        Education. Retrieved June 4, 2010, from http://ies.ed.gov/ncee/
        wwc/pdf/practiceguides/Turnaround--pg--04181.pdf.
Leithwood, K., Louis, K. S., Anderson, S., & Wahlstrom, K. (2004). 
        Review of research: How leadership influences student learning. 
        New York: Wallace Foundation. Retrieved June 4, 2010, from 
        http://www.wallacefoundation.org/SiteCollectionDocuments/WF/
        Knowledge%20Center/Attachments/PDF/ReviewofResearch-
        LearningFromLeadership.pdf
Manwaring, R. (2010). Restructuring `restructuring': Improving 
        interventions in low-performing schools and districts. 
        Education Sector Reports. Retrieved June 4, 2010, from http://
        www.educationsector.org/research/research--show.htm?doc--
        id=1208019
Travers, J., & Christiansen, B. (2010). Strategic staffing for 
        successful schools: Breaking the cycle of failure in Charlotte-
        Mecklenburg Schools. Washington, DC: Aspen Institute and 
        Education Resource Strategies. Retrieved June 4, 2010, from: 
        http://erstrategies.org/documents/pdf/CMS--case--study--
        APR16.pdf
                                 ______
                                 

             Responses From Mr. King to Questions Submitted

    In my experience it takes about 3 years to turn a school around. It 
takes one or two years to change the momentum. By the second or third 
year, you should have significant progress on the indicators. However, 
it may take several more years to get the school up to where it needs 
to be. I am definitely concerned about an all or nothing system. If the 
school is making good progress, it should be monitored to make sure the 
improvement continues, but not forced to make drastic changes, like 
selecting a new principal, reconstitution, etc. You are correct in 
asserting that the changes and strategies need time to work.
    The accountability system needs to give credit for progress., both 
progress with individual students who have serious deficits and 
progress for campuses that have serious deficits. Also the focus needs 
to be broader. Many of the issues involved in campus performance are at 
the district level.
                                 ______
                                 

            Responses From Mr. Silver to Questions Submitted

    1. How long does it take to turn around a school?
    2. What are your suggestions for an accountability system that is 
not all or nothing--one that allows schools to implement turnaround 
strategies and gives the strategies sufficient time to work, yet still 
ensures that schools are making progress?

    Question 1: How long does it take to turn around a school?
    This is an excellent question. There is no one answer, but here are 
a few factors to consider that may increase or decrease the amount of 
time that is realistic, yet ambitious.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Think College Now has made dramatic gains in student achievement--
but it did not happen overnight; it took time, planning, strategic 
hiring and autonomy. It was not until the test results during the end 
of year 3 (the third year we took the high-stakes test), that the 
school began to make dramatic gains. As illustrated in the power-point 
slide, during our first two years, only 8% and 10% respectively were at 
benchmark in ELA, which were both below NCLB expected proficiency %'s. 
It was not until the third year that the results at the end of the 
third year tripled to over 30%, and in the fourth year rose to 49%, and 
year six to 66%. Math followed a relatively similar trajectory. Over 
the first two years, only 23% and 33% respectively were at benchmark, 
which were near the NCLB expected proficiency expectations. It was not 
until the third year that the results at the end of the third year rose 
over 50%, and year six to 81%. What a shame it would have been if 
people would have closed our doors after year 3 (as the results of that 
year did not come out until that year was already over) because we 
lagged behind NCLB percentages.
    In addition, through the small autonomous schools movement, for the 
first few years we were provided the necessary conditions--staffing, 
budget and curriculum and assessment autonomy. We also had over a year 
to design our small school in collaboration with families, educators 
and the community. Bottom line--while the foundation was there from the 
beginning--our collaboration structures, strong culture with a big 
goal, and strong family-school partnership--it took us three years to 
begin to show gains on the high-stakes test. Therefore, I believe it 
takes at least three years, and if you are not provided the necessary 
conditions (especially the ability to hire your own staff, control your 
budgets, and use standards-aligned assessments, in addition to a 
reasonable size), it may take even longer (i.e., 3-5 years).
    Question 2. What are your suggestions for an accountability system 
that is not all or nothing--one that allows schools to implement 
turnaround strategies and gives the strategies sufficient time to work, 
yet still ensures that schools are making progress?
    As stated above, it takes time. That said, there is urgency for our 
students. Therefore, there should be indicators in place during the 
first few years that would foreshadow student achievement gains. For 
example, observing a school even in year 2, and definitely by year 3, 
you should begin to see improvement and increased outcomes in other 
areas--i.e., school climate, school culture, partnerships, a unifying 
big goal--that are seeds for success. These factors can be measured in 
a number of ways--from utilizing survey data (parents, educators, etc.) 
as well as observations. Often, you can tell in a few hours if a school 
is going in a positive direction from observing the classrooms, 
interactions on the yard, in the office as well as during a staff 
meeting or a Professional Development session.
    Perhaps most important, a system should measure not only absolute 
achievement but also student growth in academic outcomes. For example, 
while TCN did not make dramatic gains right away, it did make gains in 
both math and ELA. Schools should be measured and evaluated even from 
the beginning on their ability to make growth on the high-stakes tests. 
Another measure that could be used is their growth on interim 
assessments during the year, which are aligned with the CST. It is also 
important to look holistically at the school's achievement data. For 
example, a school that is meeting growth targets in almost all sub-
groups, and has a plan or willingness in a strategy to improve the 
outcomes of any sub-groups that are not achieving targets should not be 
penalized. In the current system if you meet 24 of 25 outcomes, you did 
not meet NCLB. This is not fair, especially if it is an outcome that is 
related to measures that may be out of a schools control (i.e., Special 
Education students). It is also very important that any legislation 
includes students who are recently reclassified (i.e., for the first 3 
years) in the ELL percentage so that schools do not have a disincentive 
to re-designate ELL students.
    In summary, the most important points are to ensure:
    <bullet> Schools have conditions that set themselves up to meet 
targets: staffing, budget, curricular and assessment flexibility
    <bullet> Student academic growth should be a factor in meeting 
targets in addition to absolute outcomes
    <bullet> Schools have multiple ways to meet targets (i.e., showing 
growth and/or meeting absolute outcomes)
    <bullet> Schools have increased absolute accountability over time 
(i.e., a school in year 5 should be expected to show higher outcomes 
than a school in year 2).
    <bullet> Schools are looked at holistically to ensure that if there 
is one area (subject area or sub-group) that is not meeting a target 
there is not the same punitive action as one that has the majority of 
areas not meeting targets
                                 ______
                                 

           Responses From Mr. Simmons to Questions Submitted

    Thank your for your questions related to my testimony at the 
Education and Labor Committee Hearing on Turnaround Schools, May 19th.
    You asked:
    <bullet> ``How long does it take to turn around a school?''

    With a highly effective model like the one we use at Strategic 
Learning Initiatives (SLI), schools can turnaround in one, two or three 
years. The variance is mainly due to the quality of the school's 
leadership team and the time it takes to help it become high 
performing. For the network of Chicago K-8 schools that we discussed in 
the hearing, 3 of the eight schools turned around the first year, 3 the 
second and 2 the third.
    As my testimony indicated, SLI schools achieve their results at a 
fraction of the cost of the turnaround model that removes the staff, 
including the principal, before the turnaround is started.

    <bullet> ``What are your suggestions for an accountability system 
that is not all or nothing--one that allows schools to implement 
turnaround strategies and gives strategies sufficient time to work, yet 
still ensures that schools are making progress?''

    The systemic research shows that the best accountability systems 
are those where the decisions are made at the school, and the district 
retains the right to change the school leadership if there are serious 
problems. This compares to the management system of a holding company. 
The people closest to the students have the greatest motivation to 
improve the quality of the school and hold each other accountable, as 
compared to solely top-down management systems.
    Chicago has such a system. It was implemented by the State 
legislature in 1988, and helped launch, and sustain, dramatic school 
improvement. Scores for schools in the lowest income neighborhoods went 
up 150 percent in less than 15 years. In 1999, the St. Paul Minnesota 
School Board adopted the Chicago model and increased the reading scores 
100 percent in four years, and St. Paul has a 50 percent low-income 
population that did not speak English. (See my May 19th Testimony and 
my book, Breaking Through: Transforming Urban School Districts, chapter 
1.)
    Finally, as I indicated in my testimony, we rely heavily on data to 
guide instruction and measure progress. The teachers know how much 
progress each student is making in reading every seven days so that 
they can tell how close the students are to achieving their goals.
                                 ______
                                 
    [Whereupon, at 12:31 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
